<html>
<title> - UNITED STATES/CNMI POLITICAL UNION</title>
<body><pre>[Senate Hearing 110-164]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-164

                   UNITED STATES/CNMI POLITICAL UNION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

   RECEIVE TESTIMONY ON S. 1634, A BILL TO IMPLEMENT FURTHER THE ACT 
  APPROVING THE COVENANT TO ESTABLISH A COMMONWEALTH OF THE NORTHERN 
 MARIANA ISLANDS IN POLITICAL UNION WITH THE UNITED STATES OF AMERICA, 
                         AND FOR OTHER PURPOSES

                               __________

                             JULY 19, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources



































                     U.S. GOVERNMENT PRINTING OFFICE

38-192 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     4
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Cantwell, Hon. Maria, U.S. Senator from Washington...............     2
Cohen, David B., Deputy Assistant Secretary for Insular Affairs, 
  Department of the Interior; Accompanied by James Benedetto, 
  Labor Ombudsman, Department of the Interior....................     5
Fitial, Hon. Benigno R., Governor, Commonwealth of the Northern 
  Mariana Islands................................................    12
Guerrero, Juan A., President, Saipan Chamber of Commerce.........    29
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     2
Tenorio, Pedro A., Office of the Resident Representative, 
  Commonwealth of the Northern Mariana Islands...................    35

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    57






























 
                   UNITED STATES/CNMI POLITICAL UNION

                              ----------                              


                        THURSDAY, JULY 19, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:43 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead and start? I welcome 
all the witnesses. We have a very distinguished group of 
witnesses today. Of course, we welcome the Governor. I had the 
chance to visit with him and with Senator Akaka in the last 
couple of days on this set of issues as well.
    Unfortunately, I'm going back and forth between two 
hearings this morning. We have a markup of the children's 
health insurance program in the Finance Committee that was 
scheduled just yesterday, but it's ongoing right now. So I'm 
going to make a very short statement, turn the hearing over to 
Senator Akaka, and then try to get back as quickly as I can.
    Let me just indicate that both Senator Domenici and I asked 
the administration to take the bill that was passed by the 
Senate in 2000 and to update that bill reflecting the testimony 
both that we heard from the administration and from the CNMI 
Resident Representative when we had our hearing in February. 
Many of you were here for that same hearing.
    I've not taken a position on every aspect of what they've 
come up with, but I do believe they've come up with something 
that gives us a solid basis for moving forward. Some have 
expressed concern that the legislation will add to the current 
economic difficulties that the island is experiencing. That is 
not our objective or our purpose. Instead, I believe that the 
current challenges that the island is facing economically 
underscore the need to establish a stable and sustainable labor 
and immigration framework for the CNMI's future and to 
establish a stable relationship between the United States and 
the CNMI.
    So I look forward to reviewing all the testimony even if 
I'm not able to be here to hear it all, and hopefully I can get 
back to ask some questions as well.
    But Senator Akaka has been our leader on this issue and 
many of the issues that affect the Pacific Islands for a long 
time, and I very much appreciate his help and leadership on 
this, and he's going to conduct the hearing at this point while 
I rush back and try to offer a couple of amendments on the 
children's health insurance program. Senator Akaka, why don't 
you take charge here?
    [The prepared statement of Senators Cantwell and Murkowski 
follow:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Chairman Bingaman, Ranking Member Domenici and members of the 
Committee, I want to thank you for the opportunity to speak in support 
of S. 1634. I also want to thank Senators Akaka, Murkowski and Inouye 
for working with me on this very important issue. Extending federal 
immigration law into the Commonwealth of Northern Mariana Islands is 
critical to ending the heinous practice of human trafficking in the 
Commonwealth.
    In February, I had the privilege of meeting Kayleen Entena, a young 
woman from the Laguna Province in the Philippines. She traveled to DC 
to testify in an oversight hearing before this very Committee, 
providing a glimpse of the conditions of many living in the CNMI.
    Kayleen was promised a chance to work abroad so that she could save 
money to help her family back in the Philippines. But like the many 
stories of other trafficked victims, the assurance of opportunity soon 
turned into an inexplicable broken promise for Kayleen. The recruiter 
promised Kayleen a waitressing job in Saipan that would pay $400.00 a 
month. Instead, her so-called ``employer'' forced her to work as a 
prostitute, threatening Kayleen that if she went to the police, she 
would never see her family again.
    Kayleen said to me, as she expressed to the Committee back in 
February, ``I am hoping that this kind of illegal system will stop, the 
way it happened to me, the way I was treated. I do not want this to 
happen to anyone. I know that there are other women out in the 
community like me.''
    Fortunately, Kayleen was able to escape. She survived and is able 
to share her story with us. But back in my home state of Washington, we 
know of two fatal cases in which women were trafficked. Their male 
sponsors sought the women out through international marriage broker 
agencies available on the internet and brought them to the U.S. on 
fiancee visas. In recent years, reports have indicated a disturbing 
correlation between ``mail-order brides'' and domestic abuse. Congress 
recognized the immediate need to address the cruel practice of human 
trafficking and passed legislation I sponsored that protects women in 
these situations against exploitation.
    Like the two women who came to Washington State legally on fiancee 
visas, Kayleen was brought into the CNMI on a tourist visa, not knowing 
that such a visa would not allow her to work. This loophole is a major 
reason why it is possible for traffickers to sneak their victims into 
the U.S. and its territories. Unfortunately, the Commonwealth has 
neither the adequate resources nor the appropriate mechanisms to 
enforce such illegal behavior.
    We must build on these past lessons. The Northern Mariana Island 
Covenant Implementation Act is another important step in ensuring vital 
safeguards are put in place to protect women from abuse and 
exploitation. It is time to implement immigration and labor law in the 
Commonwealth and provide the help to the women and children who need it 
most.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    Mr. Chairman, thank you for holding this hearing on immigration 
reform legislation in the Commonwealth of the Northern Mariana Islands, 
S. 1634.
    This issue has been before this committee for 11 years. Hearings 
were held on the immigration issue in 1996 after my father, former Sen. 
Frank Murkowski, and Sen. Akaka traveled to the islands in February 
1996 and saw first hand some of the abuses: where workers were not 
getting paid, were working in difficult conditions in some of the 
garment factories, and in some cases were being lured to the islands by 
promises of jobs and then being forced into illegal behavior, 
prostitution, for example, and sometimes into forced abortions as well.
    Those abuses prompted legislation, legislation that passed the 
Senate in 2000, but ultimately did not become law. They also spawned a 
variety of actions intended to remedy the concerns and protect guest 
workers in the CNMI.
    In 1999 a Federal Ombudsman's Office was created to give guest 
workers a place to file complaints--the office fielding 962 abuse 
complaints that year. Last year that number was cut in about half, but 
500 cases is still a sizable complaint load.
    In the same year 23 of the garment factories entered into a 
``strategic partnership'' with the U.S. Department of Labor's 
Occupational Safety and Health Administration to set up safety and 
health standards for each worksite and staff housing. That certainly 
helped to reduce the lost workday injury rate in CNMI factories.
    In 2003 the independent Garment Oversight Board was created as a 
result of a class-action lawsuit and it now monitors the remaining 
garment factories in the CNMI and can place factories on probation and 
end their eligibility to sell to 26 major U.S. retailers, if violations 
are found.
    In 2003 the CNMI government also worked with the Department of the 
Interior's Office of Insular Affairs to establish a refugee protection 
system.
    Following 9/11 there has been progress on improving immigration 
entrance inspections to CNMI from where access to the mainland is much 
easier, both to protect against terrorists and also to combat against 
human trafficking. There are, however, still questions about the 
enforcement of immigration rules and adequacy of staff and funding to 
enforce the CNMI's rules.
    And the CNMI government has negotiated agreements with the Chinese 
Economic Development Association to pre-screen Chinese nationals coming 
to work in the CNMI, to limit the fees that workers can be charged.
    But during a February hearing into immigration issues in the CNMI 
we heard tales that all of the problems have not been solved. This year 
we heard of Ombudsman cases where businesses in the CMNI have not paid 
workers on a bi-weekly basis, and of security guards again facing 
problems. We heard complaints where construction workers were not paid 
for work performed. We heard new complaints about garment workers being 
recruited to come to the islands and perhaps pushed into prostitution 
as a result. These problems sounded all too much like the problems of a 
decade ago.
    For that reason a group of us started working with the 
Administration and island officials to craft reform legislation. 
Actually we started with the bill that passed the Senate seven years 
ago and attempted to update it to reflect the new conditions in the 
CNMI. Those conditions involve the fact that under WTO rules, global 
garment quotas ended for the factories in the islands in 2005, likely 
causing most of the remaining garment factories to close by year's end 
shifting operations to elsewhere in Asia.
    That will have a significant impact on the economy, reducing CNMI's 
ability to afford immigration enforcement, especially since the CNMI's 
governmental revenues have fallen 24 percent since FY 2004 and will 
fall further once the last of the factories close. At the same time, 
immigration problems likely will rise when workers who wish to avoid 
returning to their Native countries try to remain in the islands.
    Given the island's likely shift to tourism and education for 
economic diversification, there may well be a need for a differing mix 
of guest workers, especially for workers with special skills not 
currently found on the islands. But a revised immigration program is 
clearly needed to deal with the thousands of workers already in the 
CNMI, some wanting and perhaps some needing to stay, while at the same 
time protecting against future refugee floods and the dangers that 
porous immigration policies could cause to the United States mainland 
and to other territories in this age of terrorist threats.
    The population of the CNMI has grown from 16,000 in 1976, when it 
became a U.S. territory, to perhaps 80,000 today because of guest 
worker imports, making the original U.S. citizens (21%) and the 
indigenous Chamorro and Carolinian ancestry residents (estimated at 43% 
in 2000) near minorities in the Commonwealth.
    It is clear to me that we need new legislation to address these 
concerns. I believe the only way to improve the CNMI economy is to 
attract new businesses, but the best way to do that is to remove the 
cloud of uncertainty affecting businesses since the termination of the 
Trusteeship Agreement in 1986, by installing a new permanent 
immigration law for the Commonwealth.
    I understand that the Commonwealth's economy is in a difficult 
condition. With the post 9/11 slowdown in aviation and the related 
slowdown in tourism, tax revenues have fallen. The decision by some in 
this body to raise the minimum wage for the islands is also making it 
harder for economic development to occur. But delaying immigration 
reform in my view is not the answer. Resolving this issue in a way that 
is mutually beneficial to the U.S. and the CNMI is the best way to 
promote long-term economic development for the Commonwealth.
    The bill we have proposed and will hear reaction to today will 
extend U.S. immigration laws and enforcement aid to the CNMI, but with 
exceptions that were carefully tailored to help the island nation. The 
exceptions:

  <bullet> Continue to require inspection of persons entering the U.S. 
        from CNMI, as if they were coming from a foreign nation.
  <bullet> Establish a CNMI-Only guest worker program for 10 years with 
        an option for five-year extensions, so the need for guest 
        workers is guaranteed to be met.
  <bullet> Establish a CNMI-Only visa-waiver program for countries 
        whose citizens now travel to the CNMI, such as the People's 
        Republic of China, Russia and other Asian nations, whose 
        citizens are most likely to spend money at the island's resort 
        beach hotels.
  <bullet> Provide a CNMI-Only opportunity for investors to obtain non-
        immigrant status in an effort to help the island keep its 
        financial base.
  <bullet> ``Grandfather'' certain long-term CNMI workers as 
        nonimmigrant residents of the United States, in an effort to 
        deal with the workers now on the islands, some of whom have 
        children that are American citizens, who do not wish to return 
        to their Native countries.
  <bullet> Continue CNMI responsibility for U.S. refugee and 
        nonrefoulement obligations. That means that the INA asylum 
        provisions would not be extended as a way of preventing the 
        future inducement of refugees to come to the commonwealth.
  <bullet> Waive the CNMI from the national caps on the number of INA 
        nonimmigrant worker visas. That will keep the island from 
        having to compete against the mainland to gain visas under the 
        current caps for some types of more skilled workers.
  <bullet> Limit the CNMI as a port-of-entry for new immigrants to the 
        U.S.
  <bullet> And establish CNMI-Only technical assistance programs for 
        economic planning and worker training and recruitment so the 
        island can train a resident workforce and get away from having 
        to recruit foreign workers--the cause of some of the problems 
        with the current system.

    I certainly look forward to the testimony to hear how we can 
improve the bill further; how we can make it work better for the 
citizens of the Northern Marianas. But I truly believe that the 21 
years that have passed since it was expected that U.S. immigration laws 
would take effect following the end of the trusteeship, have been long 
enough. It is time that we provide certainty and stability to this 
process.
    Coming from Alaska, being born there when it was still a territory, 
I am, along with Senator Akaka and Senator Inouye, among the relatively 
few in the Senate that understand the frustration that residents feel 
when their futures are determined by lawmakers who are far away and in 
some cases have never even seen the lands they are regulating. That was 
almost always the case for Alaskans prior to 1959.
    I am sympathetic to the impacts that immigration reform will have 
and want to help reduce the negative effects on the CNMI. But I think 
it is high time that we advance this legislation. I look forward to 
reading all the testimony that will arise since I most likely will be 
unable to attend most of this hearing because of conflicting hearings 
before the Foreign Relations, Indian Affairs and Health, Education, 
Labor and Pensions Committees--all scheduled for the same time.
    Thank you Mr. Chairman.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka [presiding]. Thank you. Thank you very much, 
Mr. Chairman. I want the chairman to know that I really 
appreciate and we do appreciate his leadership here in our 
country, as well as leader of this committee.
    I want to begin by extending my aloha and my best wishes 
and my warm welcome to all of our witnesses, who have come a 
long way to attend this hearing. I want to tell you that we 
really appreciate your presence and look forward to your 
testimonies here today.
    For me and for us here, we're looking at this as trying to 
get information that can help us put together a kind of bill 
that will be helpful. So let's do this and work this out 
together.
    In February the committee held a hearing on the immigration 
labor law enforcement and economic conditions in Northern 
Marianas and found that conditions still exist which justified 
extension of the U.S. immigration laws to the CNMI as provided 
for in the covenant. It was also clear that this must be done 
in a way that is sensitive to the islands' special 
circumstances and to the current economic turndown.
    Accordingly, Senators Domenici and Bingaman wrote to the 
administration and asked that they revise the bill that was 
passed by the Senate in the year 2000 to include the 
recommendations that were made in the February hearing by the 
administration witness and by the resident representative from 
CNMI. Today the committee will receive testimony on this 
revised bill, which is S. 1634.
    It would extend U.S. immigration laws, but with special 
provisions designed to meet the islands' special circumstances. 
For example, it would provide a CNMI-only guest worker program, 
a CNMI-only investor program, a CNMI-only visa waiver program, 
and a CNMI-only waiver from caps on non-immigrant worker visas.
    This legislation provides a foundation for us to build 
upon. Although the Governor has expressed to me his concern 
that passage of Federal legislation will add to the islands' 
current economic troubles, I sense that the economic crisis in 
CNMI is not a reason to defer legislation. Instead, I believe 
that the current challenges underscore the need to establish a 
stable and sustainable labor and immigration framework for the 
CNMI's future and to establish a stable relationship between 
the United States and CNMI.
    So I look forward to this hearing and for your input. 
Again, I want to invite, welcome all of you. You've heard the 
reasons that the chairman won't be here all the time, but we'll 
continue with the hearing. I want to welcome one that we've 
worked with so closely and who's done a good job in working 
with us on behalf of the administration--David Cohen. He's the 
Deputy Assistant Secretary for Insular Affairs for the 
Department of the Interior, accompanied by Mr. James Benedetto, 
Department of the Interior Labor Ombudsman. Also with us is of 
course the Governor of CNMI, Mr. Fitial; Mr. Pedro Tenorio, 
Resident Representative of the Commonwealth of the Northern 
Mariana Islands; and Mr. Juan Guerrero, President of the Saipan 
Chamber of Commerce.
    Although the statements are limited to 5 minutes, I want 
all of our witnesses to know that your entire statements will 
be included in the record.
    So, Mr. Cohen, will you please proceed with your statement?

  STATEMENT OF DAVID B. COHEN, DEPUTY ASSISTANT SECRETARY FOR 
  INSULAR AFFAIRS, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
  JAMES BENEDETTO, LABOR OMBUDSMAN, DEPARTMENT OF THE INTERIOR

    Mr. Cohen. Aloha, Mr. Chairman.
    Senator Akaka. Aloha.
    Mr. Cohen. In previous hearings I've described at length 
the impressive progress the CNMI has made to improve working 
conditions there since the 1990's. As I've said repeatedly, the 
CNMI should be congratulated for this progress. The CNMI 
doesn't get the credit it deserves for the progress it has 
made. However, the following serious problems still plague the 
CNMI's immigration system.
    First, the CNMI has no effective pre-screening process for 
aliens entering the Commonwealth. Continued local control over 
the CNMI's immigration system presents significant national 
security and homeland security concerns.
    Second, we have serious human trafficking concerns. While 
we congratulate the CNMI for its recent successful prosecution 
of people who pressured women into prostitution, human 
trafficking remains far more prevalent in the CNMI than in the 
rest of the United States. During the 12-month period ending 
April 30, 2007, 36 female victims of human trafficking were 
served by the Guma' Esperansa Women's Shelter on Saipan. All of 
these victims were in the sex trade. Secretary Kempthorne 
personally visited the shelter last month and met with a number 
of women who were underage when they were trafficked into the 
CNMI for the sex industry. He found their stories 
heartbreaking.
    The State Department estimates that a total of 14,500 to 
17,500 victims are trafficked into the United States each year. 
With a CNMI population of roughly 70,000 and a U.S. population 
of roughly 300 million, these numbers suggest that human 
trafficking is between 8.8 and 10.6 times more prevalent in the 
CNMI than it is in the United States as a whole. This most 
likely makes the CNMI look better than it really is. The 
victims counted for the CNMI include only actual female victims 
in the sex trade who were served by Guma Esperansa. This is 
compared with a U.S. estimate of human trafficking victims of 
both genders, not limited to the sex trade. In an apples-to-
apples comparison, the CNMI would fare worse.
    A number of people have come to the Federal ombudsman 
complaining that they were promised a job in the CNMI after 
paying a recruiter thousands of dollars, only to find upon 
arrival that there was no job. Secretary Kempthorne met 
personally with a young lady from China who was the victim of 
such a scam and who was pressured to become a prostitute. She 
was able to obtain help in the Federal ombudsman's office.
    We're also concerned about recent attempts to smuggle 
Chinese nationals from the CNMI into Guam by boat. A woman was 
recently convicted for attempting to smuggle over 30 Chinese 
nationals from the CNMI into Guam. With the planned military 
buildup in Guam, the potential for smuggling aliens from the 
CNMI into Guam by boat is a cause for concern.
    Third, we have very serious concerns about the CNMI's 
administration of its refugee protection system, which was 
established pursuant to a memorandum of agreement signed by 
former Governor Babauta and me. Establishing a refugee 
protection system in the CNMI was important to U.S. compliance 
with international treaties on refugees and torture. Under the 
MOA, the CNMI has established its own refugee protection system 
with the assistance of the Department of Homeland Security and 
financial support from my office.
    Recently, the chief of the Asylum Division, U.S. 
Citizenship and Immigration Service, Department of Homeland 
Security, inquired about a group of cases which were of concern 
to the United States due to evidence of efforts by a foreign 
government to improperly interfere in those cases. 
Astonishingly, the CNMI attorney general refused the requested 
information and accused the Departments of Homeland Security 
and State of attempting to, ``imbalance the scales of 
justice,'' by inquiring about these cases and by expressing 
concerns about evidence of foreign attempts at interference.
    The attorney general's failure to distinguish between 
possible foreign attempts to improperly influence a refugee 
protection proceeding and attempts by the United States to 
monitor and protect the integrity of a refugee protection 
program raises serious doubts about the CNMI's capacity to 
adequately carry out the program. With this uncooperative 
stance from the CNMI, there is no way for the Federal 
Government to confirm that the United States remains in 
compliance with important international treaty obligations.
    The circumstances described above present us with a 
dilemma. If we can't verify that the CNMI is administering its 
refugee protection program consistent with U.S. international 
treaty obligations, then extending the protections of U.S. law 
to aliens in the CNMI may be the only way to ensure compliance. 
However, making aliens in the CNMI eligible to apply for 
protection in the United States is a potentially serious 
problem if the CNMI continues to determine which aliens and how 
many are able to enter the CNMI. Under that scenario, the 
United States could be required to provide refugee protection 
to aliens that have been admitted to the CNMI through a process 
controlled, not by the Federal Government, but by the CNMI. The 
United States would be subjecting itself to potential costs and 
other consequences of decisions made by the CNMI.
    The above are some of the factors that have led us to 
conclude that the CNMI's immigration system must be Federalized 
as soon as possible. S. 1634 is generally sound legislation 
that embodies the concept of flexible federalization; that is 
federalization of the CNMI system in a manner designed to 
minimize damage to the CNMI's fragile economy and maximize the 
potential for economic growth. The administration supports S. 
1634 subject to our request that certain changes be made. These 
changes are mostly technical in nature and are described in my 
written statement.
    We also note that at this time the administration is 
evaluating the specific provisions granting long-term status to 
temporary workers in the CNMI in light of the administration's 
immigration policies. We look forward to working with Congress 
on this important issue.
    Finally, Mr. Chairman, we again point out that the people 
of the CNMI must participate fully in decisions that will 
affect their future. As I've said in the past, a better future 
for the people of the CNMI cannot be imposed unilaterally from 
Washington, DC, ignoring the insights, wisdom, and aspirations 
of those to whom this future belongs.
    Although the administration supports S. 1634, subject to 
the suggestions in my written statement, we're concerned about 
the message that would be sent if Congress were to pass this 
legislation while the CNMI remains the only U.S. territory or 
commonwealth without a delegate in Congress. At a time when 
young men and women from the CNMI are sacrificing their lives 
in Iraq in proportions that far exceed the national average, we 
hope that Congress will consider granting them a seat at the 
table at which their fate will be decided.
    Thank you.
    [The prepared statement of Mr. Cohen follows:]
 Prepared Statement of David B. Cohen, Deputy Assistant Secretary for 
              Insular Affairs, Department of the Interior
   s. 1634, the northern mariana islands covenant implementation act
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify on S. 1634, the Northern Mariana Islands 
Covenant Implementation Act. I come before you today wearing at least 
two hats: As Deputy Assistant Secretary of the Interior for Insular 
Affairs, I am the Federal official that is responsible for generally 
administering, on behalf of the Secretary of the Interior, the Federal 
Government's relationship with the Commonwealth of the Northern Mariana 
Islands (CNMI). I also serve as the President's Special Representative 
for consultations with the CNMI on any matter of mutual concern, 
pursuant to Section 902 of the U.S.-CNMI Covenant. In fact, I was in 
Saipan in March for Section 902 consultations with CNMI Governor Fitial 
and his team. I was also in Saipan in June with Secretary Kempthorne as 
part of his visit to U.S.-affiliated Pacific Island communities.
    Under the Covenant through which the CNMI joined the U.S. in 1976, 
the CNMI was exempted from most provisions of U.S. immigration laws and 
allowed to control its own immigration. However, section 503 of the 
Covenant to Establish a Commonwealth of the Northern Mariana Islands in 
Political Union with the United States of America (P.L. 94-241) 
explicitly provides that Congress has the authority to make immigration 
and naturalization laws applicable to the CNMI. Through the bill that 
we are discussing today, Congress is proposing to take this legislative 
step to bring the immigration system of the CNMI under Federal 
administration. We believe that any federalization of the CNMI's 
immigration system must be flexible because of the CNMI's unique 
history, culture, status, demographic situation, location, and, perhaps 
most importantly, fragile economic and fiscal condition. Additionally, 
we would need appropriate time to address a range of implementation 
issues as there are a number of Federal agencies that would be involved 
with federalization. In testimony before this Committee earlier this 
year, I offered, on behalf of the Administration, five principles that 
we believe should guide the development of any federalization 
legislation.
    In previous testimony before this Committee and others, I have 
described at length the impressive amount of progress that the CNMI has 
made to improve working conditions there since the 1990s. As I have 
said repeatedly, the CNMI should be congratulated for this progress. We 
do not believe that the CNMI gets the credit that it deserves for the 
progress that it has made. However, serious problems continue to plague 
the CNMI's administration of its immigration system, and we remain 
concerned that the CNMI's rapidly deteriorating fiscal situation may 
make it even more difficult for the CNMI government to devote the 
resources necessary to effectively administer its immigration system 
and to properly investigate and prosecute labor abuse. I will begin my 
statement with an overview of concerns that make a compelling case for 
federalization.
                need for an effective screening process
    The CNMI is hampered by the lack of an effective pre-screening 
process for aliens wishing to enter the Commonwealth. Under the 
Immigration and Nationality Act (INA), before traveling to the 
continental United States, aliens must obtain a visa from a U.S. 
consular officer abroad unless they are eligible under the Visa Waiver 
Program or other legal authority for admission without a visa. Carriers 
are subject to substantial fines if they board passengers bound for 
these parts of the United States who lack visas or other proper 
documentation. All visa applicants are checked against the Department 
of State's name-checking system, the Consular Lookout and Support 
System (CLASS). With limited exceptions, all applicants are interviewed 
and subjected to fingerprint checks. After obtaining a visa, an alien 
seeking entry to these parts of the United States must then apply for 
admission to an immigration officer at a U.S. port of entry. The 
immigration officer is responsible for determining whether the alien is 
admissible, and in order to do so, the officer is supposed to consult 
appropriate databases to identify individuals who, among other things, 
have criminal records or may be a danger to the security of the United 
States. The CNMI does not issue visas, conduct interviews or check 
finger prints for those wishing to travel to the CNMI, nor does the 
CNMI have an equivalent to CLASS. Furthermore, CNMI immigration 
inspectors determine admissibility under CNMI law rather than federal 
law. The CNMI does have its own sophisticated computerized system for 
keeping track of aliens who enter and leave the Commonwealth. A record 
of all persons entering the CNMI is made with the Commonwealth's Labor 
& Immigration Identification and Documentation System, which is state-
of-the-art. However, that is not a substitute for comprehensive pre-
screening by Federal government authorities. In a post-9/11 
environment, and given the CNMI's location and the number of aliens 
that travel there, we believe that continued local control of the 
CNMI's immigration system presents significant national security and 
homeland security concerns.
                           human trafficking
    While we congratulate the CNMI for its recent successful 
prosecution of a case in which foreign women were pressured into 
prostitution, human trafficking remains far more prevalent in the CNMI 
than it is in the rest of the U.S. During the twelve-month period 
ending on April 30, 2007, 36 female victims of human trafficking were 
admitted to or otherwise served by Guma' Esperansa, a women's shelter 
operated by a Catholic nonprofit organization. All of these victims 
were in the sex trade. Secretary Kempthorne personally visited the 
shelter and met with a number of women from the Philippines who were 
underage when they were trafficked into the CNMI for the sex industry. 
As you can imagine, he found their stories heartbreaking. The State 
Department estimates that a total of between 14,500 and 17,500 victims 
are trafficked into the U.S. each year from many places in the world. 
This estimate includes not only women in the sex trade, but men, women 
and children trafficked for all purposes, including labor. Assuming a 
CNMI population of roughly 70,000 and a U.S. population of roughly 300 
million, the numbers above suggest that human trafficking is between 
8.8 and 10.6 times more prevalent in the CNMI than it is in the U.S. as 
a whole. This is a conservative calculation that most likely makes the 
CNMI look better than it actually is: The number of victims counted for 
the CNMI includes only actual female victims in the sex trade who were 
served by Guma' Esperansa. This is being compared with a U.S. estimate 
of human trafficking victims of both genders that is not limited to the 
sex trade. In an apples-to-apples comparison, the CNMI's report card 
would be worse. We note that most of the victims that have been served 
by Guma' Esperansa were referred by the CNMI government (as a result of 
referrals from the Federal Ombudsman to local authorities). However, it 
is clear that local control over CNMI immigration has resulted in a 
human trafficking problem that is proportionally much greater than the 
problem in the rest of the U.S.
    A number of foreign nationals have come to the Federal Ombudsman's 
office complaining that they were promised a job in the CNMI after 
paying a recruiter thousands of dollars to come there, only to find, 
upon arrival in the CNMI, that there was no job. Secretary Kempthorne 
met personally with a young lady from China who was the victim of such 
a scam and who was pressured to become a prostitute; she was able to 
report her situation and obtain help in the Federal Ombudsman's office. 
We believe that steps need to be taken to protect women from such 
terrible predicaments.
    We are also concerned about recent attempts to smuggle foreign 
nationals, in particular Chinese nationals, from the CNMI into Guam by 
boat. A woman was recently sentenced to five years in prison for 
attempting to smuggle over 30 Chinese nationals from the CNMI into 
Guam. With the planned military buildup in Guam, the potential for 
smuggling aliens from the CNMI into Guam by boat is a cause for 
concern.
                           refugee protection
    We have very serious concerns about the CNMI government's 
administration of its refugee protection system, which was established 
pursuant to a Memorandum of Agreement signed by former Governor Juan 
Babauta and me in 2003 with the financial support of the Office of 
Insular Affairs. Establishing a refugee protection system in the CNMI 
was important to the U.S. because of our concerns regarding U.S. 
compliance with international treaties to which the U.S. is a party, 
including the 1967 United Nations Protocol Relating to the Status of 
Refugees and the Convention Against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment. Even though the CNMI for the most 
part is not included in the Immigration and Nationality Act, the U.S. 
is obligated to ensure that aliens in the CNMI are not returned to 
their home countries if there is a sufficient risk under the Convention 
Against Torture or the Refugee Protocol that they will be tortured or 
persecuted there.
    Under the Memorandum of Agreement, the CNMI has established its own 
refugee protection system with the assistance of U.S. Citizenship and 
Immigration Services (USCIS) acting as ``Protection Consultant.'' In 
this role, USCIS assisted the Commonwealth in drafting regulations and 
forms, trained all staff for the program, provided quality assurance 
review prior to a decision on all cases, and performed background 
checks on all applicants. The two-year performance period during which 
the duties of the Protection Consultant were enumerated in the 
Memorandum of Agreement terminated in September 2006. USCIS and the 
CNMI have yet to enter into a subsequent instrument to delineate the 
assistance that USCIS has offered to provide to the CNMI, because of 
lack of response by the CNMI to USCIS's requests for cooperation.
    Most recently, the Chief of the Asylum Division, U.S. Citizenship 
and Immigration Services, Department of Homeland Security, inquired 
about a group of cases which were of concern to the U.S. Government due 
to evidence of efforts by a foreign government to improperly interfere 
in those cases.
    Astonishingly, the CNMI Attorney General refused requested 
information and accused the Department of Homeland Security and the 
Department of State of attempting to ``unbalance the scales of 
justice'' by inquiring about these cases and by expressing concerns 
about evidence of foreign attempts at interference.
    The CNMI Attorney General's failure to distinguish between possible 
foreign attempts to improperly influence a refugee protection 
proceeding within the U.S. and attempts by the relevant U.S. agencies 
to monitor and protect the integrity of a refugee protection program 
which impacts U.S. compliance with its international obligations raises 
serious doubts about the CNMI's capacity to adequately carry out the 
refugee protection program. It is particularly troubling that such a 
posture is being taken by the CNMI Attorney General, the official who 
ultimately supervises the refugee protection hearing officers and to 
whom refugee protection decisions are appealed. With this uncooperative 
stance from the CNMI, there is no way for the Federal Government to 
address its very serious concerns and confirm that the U.S. remains in 
compliance with important international treaty obligations. The 
concerns that we have about the CNMI Attorney General's letter are very 
serious and would not be mitigated if the CNMI were to issue decisions 
in the pending cases that the U.S. Department of Homeland Security 
found to be appropriate given the facts and applicable law.
    The circumstances described above present the Federal Government 
with a dilemma: If the Federal Government cannot verify that the CNMI 
is administering its refugee protection program in a manner that 
accords with U.S. compliance with international treaty obligations, 
then extending the protections available under U.S. immigration law to 
cover aliens in the CNMI may be the only way to ensure that compliance. 
However, making aliens in the CNMI eligible to apply for protection in 
the U.S. is a potentially serious problem if the CNMI maintains control 
over its immigration system and continues to determine which aliens, 
and how many, are able to enter the CNMI. Under that scenario, the U.S. 
could be required to provide refugee protection to aliens who have been 
admitted to the CNMI through a process controlled not by the Federal 
Government, but by the CNMI. The U.S. would be subjecting itself to 
potential costs and other consequences for decisions made by the CNMI. 
This is a strong argument in favor of Congress taking legislative 
action, as contemplated under Section 503 of the Covenant (P.L. 94-
241), to take control of the CNMI's immigration system.
                    recommended changes to this bill
    The above are some of the factors that have led us to conclude that 
the CNMI's immigration system must be federalized as soon as possible. 
We believe that S. 1634 is generally sound legislation that embodies 
the concept of ``Flexible Federalization''--that is, federalization of 
the CNMI's immigration system in a manner designed to minimize damage 
to the CNMI's fragile economy and maximize the potential for economic 
growth. We also believe that S. 1634 reflects the principles previously 
spelled out by the Administration as those that should guide the 
federalization of the CNMI's immigration system. Therefore, the 
Administration supports the Northern Marianas Covenant Implementation 
Act, subject to the following:

  <bullet> Long-term Status to Temporary Workers.--At this time, the 
        Administration is evaluating the specific provisions granting 
        long-term status to temporary workers in the CNMI in light of 
        the Administration's immigration policies. We look forward to 
        working with Congress on this important issue.
  <bullet> Protection from Persecution and Torture.--Consistent with 
        the general transfer of immigration to Federal control on the 
        transition period effective date, the bill should clarify that 
        U.S. protection law, including withholding of removal on the 
        basis of persecution or torture, would apply and be 
        administered by Federal authorities beginning on the transition 
        period effective date. However, given the uncertainties 
        inherent in changing the CNMI immigration regimen, we recommend 
        that extension of the affirmative asylum process under section 
        208 of the INA to the CNMI be delayed until the end of the 
        transition period. We would also recommend a provision 
        requiring the CNMI to maintain an effective protection program 
        between date of enactment and the transition period effective 
        date.
  <bullet> Authority of the Secretary of Homeland Security.--In 
        general, it is important that the Secretary of Homeland 
        Security have sufficient authority and resources to effectively 
        administer the new responsibilities that would be undertaken 
        under the bill. Improvements to the bill in this regard would 
        include ensuring that the Secretary has full authority in his 
        discretion to designate countries for the new CNMI visa waiver 
        program (giving due consideration to all current CNMI tourist 
        source countries); and providing the necessary fiscal and 
        operational authority to conduct all necessary activities in 
        the CNMI.
  <bullet> Visa Waiver.--As noted above, it is essential that the 
        Secretary of Homeland Security, in consultation with the 
        Secretary of State, have full authority to make visa waiver 
        decisions in the national interest We would also recommend 
        consideration of authorizing integration of the proposed CNMI 
        visa waiver with the Guam visa waiver program as a possible 
        means of increasing the value of these programs to those 
        jurisdictions, such as, for example, allowing visitors 
        qualifying for both programs a combined 30 days, with a maximum 
        stay of 21 days in either territory.
  <bullet> Employment-Based Visas.--The bill would authorize the 
        Secretary of Homeland Security to establish a specific number 
        of employment-based visas that will not count against the 
        numerical limitations under the Permanent Alien Labor 
        Certification (PERM) program, if the Secretary of Labor, after 
        consultation with the Governor of the Commonwealth and the 
        Secretary of Homeland Security, finds exceptional circumstances 
        with respect to the inability of employers to obtain sufficient 
        work-authorized labor. We would recommend that this provision 
        be removed from the bill as unnecessary because the CNMI will 
        have an uncapped temporary worker program in the 10-year 
        transition period.
  <bullet> Conforming and Technical Amendments.--We would like to work 
        with Congress on a number of other conforming, technical and 
        other amendments necessary to fully effectuate the transfer of 
        responsibilities and effectively administer and integrate the 
        CNMI-specific programs with the INA. For example, the CNMI 
        should be added to the definitions of ``State'' and ``United 
        States'' in section 101 of the INA.
                               conclusion
    We point out, however, that one of this Administration's principles 
for considering immigration legislation for the CNMI is that such 
legislation should be carefully analyzed for its likely impact in the 
CNMI before we implement it. We have also urged that such analysis 
occur expeditiously: the need to study must not be used as an excuse to 
delay. We understand that the Senate has requested an analysis of the 
provisions of S. 1634. We applaud the Senate for taking this step, and 
urge Congress to carefully consider the results of this analysis in the 
continued development of this legislation.
    It is important to remember that S. 1634 deals with a unique 
situation, and hence does not establish any precedents that are 
relevant to the discussion of national immigration reform. S. 1634 is 
designed to bring under the ambit of Federal immigration law a 
territory that generally was not previously subject to Federal 
immigration law. Accomplishing this transition without causing severe 
economic disruption requires special transitional provisions that take 
into account the reality that CNMI society has been shaped by 
immigration policies that vary significantly from Federal immigration 
policy. Because CNMI society has evolved in a unique manner under 
unique circumstances, it would not be prudent to apply immigration 
policy designed for the 50 states to the CNMI in a blanket fashion with 
no transition mechanisms. The special transitional provisions contained 
in this bill are designed to move CNMI society from one set of 
governing principles to another in a manner that minimizes harm to CNMI 
residents.
    Finally, Mr. Chairman, we again point out that the people of the 
CNMI must participate fully in decisions that will affect their future. 
As I have said in the past, a better future for the people of the CNMI 
cannot be imposed unilaterally from Washington, D.C., ignoring the 
insights, wisdom and aspirations of those to whom this future belongs. 
Although the Administration supports S. 1634, subject to the 
suggestions outlined above, we are concerned about the message that 
would be sent if Congress were to pass this legislation while the CNMI 
remains the only U.S. territory or commonwealth without a delegate in 
Congress. At a time when young men and women from the CNMI are 
sacrificing their lives in Iraq in proportions that far exceed the 
national average, we hope that Congress will consider granting them a 
seat at the table at which their fate will be decided.
    Thank you.

    Senator Akaka. Thank you very much, Mr. Cohen, for your 
testimony.
    Now we'll hear from the Governor of CNMI, Governor Fitial.

STATEMENT OF HON. BENIGNO R. FITIAL, GOVERNOR, COMMONWEALTH OF 
                  THE NORTHERN MARIANA ISLANDS

    Mr. Fitial. Hafa Adai and aloha.
    Senator Akaka. Hafa Adai.
    Mr. Fitial. I'm pleased to have this opportunity to appear 
before you to discuss Senate Bill 1634. I've been Governor 
since January 2006, about only 18 months to make a dent in the 
Commonwealth's problems which have been accumulating for 
several years. My people are suffering and I have a plan for 
recovery. But I fear that this legislation will devastate my 
recovery effort.
    My plan has two overall objectives; to reduce government 
expenditures, and to address the serious economic decline in my 
community. In order to bring government expenditures under 
control, I have reduced government employment by 10 percent; I 
have instituted an austerity program of two unpaid Fridays each 
month. I've cut government expenditures in nearly every 
department. I have adopted revised budgets for 2006 and 2007 
that reflected the decline in government revenues from a peak 
of $248 million in 1997 to an estimated $163 million in this 
fiscal year, a decline of about 34 percent.
    Our budget for this year seeks to protect essential public 
services and does not add to the substantial deficit which I 
inherited. We have more than doubled electricity rates to cover 
the actual cost of this service. I have a reduction-in-force 
plan in place to use if necessary during fiscal year 2008.
    My point is simply this: I am making the necessary hard 
choices, something none of my predecessors were willing to do. 
Mr. Chairman, I need the understanding of this committee.
    My second major objective is to stimulate growth in an 
economy that has suffered external blows beyond our control. 
Because of changes in WTO rules, the apparel industry in the 
Commonwealth is declining. The number of factories has declined 
from 34 to 15, with more closures anticipated for later this 
year. The number of alien workers in this industry has declined 
from 16,000 to 6,000. Taxes and fees paid to the government 
have declined by more than 60 percent.
    For entirely different reasons, our second major industry--
tourism--has also experienced a serious decline. Visitor 
arrivals are down 40 percent in the last decade. 
Discontinuation of direct flights to the Commonwealth from 
Japan by Continental Airlines and Japan Airlines in 2005 has 
seriously impacted this most important tourist market.
    Our plan for rebuilding the economy will take time--18 to 
24 months perhaps. I have made more than 15 trips to Japan, 
Korea, China, to encourage new investment and increased airline 
seat capacity. This process, Mr. Chairman, is a very personal 
one. Potential investors from these countries want to know who 
they are dealing with, who makes the decisions, and who will 
take their telephone calls when a problem develops.
    We have had some success already with the airlines. We have 
obtained a major increase in flights from Korea beginning last 
May, and we expect to double this number by the end of the 
year. We have some new short-term commitments from Continental 
Airlines for this summer. We have increased charter flights 
from China and we have a commitment from Northwest Airlines for 
new flights from Japan beginning later this year.
    We have attracted new industries to our islands that do not 
depend so heavily on alien workers. In particular, we have 
educational institutions being established in the Commonwealth 
to teach a variety of subjects in English to students primarily 
from Korea, China, and other Pacific Rim countries.
    The success of this new industry depends critically on our 
unique visa programs for students and their parents. Just a few 
weeks ago, I attended the groundbreaking for the first new 
resort hotel on Saipan in 20 years, being built by a major 
Korean company at a total cost of more than $300 million. Kumho 
Asiana, the parent company of Asiana Airlines, has committed to 
the construction of a ten-story condominium building and other 
facilities on a Saipan golf course involving many millions of 
dollars. These companies and future investors are worried that 
their employment needs will not be met under this proposed 
bill.
    I have been successfully marketing the CNMI while at the 
same time increasing enforcement of our labor laws. I have 
resolved more than 3,400 of my predecessor's labor cases within 
the last 6 months.
    This legislation will cripple our recovery efforts. It 
creates uncertainty throughout the economy. This uncertainty is 
real. It leads potential investors and current investors to 
reevaluate the benefit of investing in the Commonwealth. S. 
1634 threatens the continued use of the special visa programs 
vital to the visitor industry, the educational industry, and 
retirement facilities for Asian retirees. It creates a 
cumbersome bureaucracy of Federal departments which presents a 
formidable challenge for any investor. It deprives me and my 
administration of the tools needed to rebuild the economy, 
enforce the laws, and restore hope to my people.
    The legislation imposes substantial new burdens on the 
local community by changing the status of about 8,000 alien 
workers, about 25 percent of the resident U.S. citizens, by 
giving them the right to reside permanently in the United 
States and in the CNMI. This legislation is based on outdated 
facts, allegations, and assumptions.
    This is why we have the GAO study, and we thank you, Mr. 
Chairman, for supporting such a study. Now that the GAO study 
is under way, I ask this committee not to act on this bill 
until the study is done. Certainly it would be better to 
evaluate the likely impacts of S. 1634 before, rather than 
after, it is enacted.
    Mr. Chairman, there is one point that I do wish to make 
clear. My people are loyal and patriotic U.S. citizens. We have 
provided more soldiers per capita than any other State in the 
United States, and unfortunately several of my people have 
given their lives in Iraq. The Commonwealth welcomes Federal 
support to assist in the control of our borders. We are ready 
and eager to have the additional safeguards that would come 
from utilization of Federal data bases to ensure that no alien 
entering the CNMI presents a security risk to the United 
States. We are prepared to work with you and the committee to 
accomplish this objective.
    In my written testimony I have addressed in detail the 
following: our reasons for believing that the bill is 
predicated on outdated information; the extent of our economic 
decline and our plan for recovery; and the specific 
deficiencies of the proposed legislation.
    Thank you, Mr. Chairman, for the opportunity to appear 
today and I stand ready for any questions from the committee.
    [The prepared statement of Mr. Fitial follows:]
Prepared Statement of Hon. Benigno R. Fitial, Governor, Commonwealth of 
                      the Northern Mariana Islands
    Hafa Adai, Mr. Chairman and Members of the Committee, I am pleased 
to have this opportunity to appear before you to discuss Senate Bill 
No. 1634. I regret that I was unable to appear in person during your 
hearings last February, when Lt. Governor Villagomez appeared in my 
place.
    Since the February hearings, Committee representatives have visited 
the Commonwealth to discuss proposed legislation dealing with the 
immigration and labor laws of the Northern Mariana Islands. In response 
to those discussions, we submitted a Memorandum to this Committee dated 
March 19, 2007. We have repeatedly asked that this Committee request 
the Government Accountability Office to conduct an economic study of 
the Commonwealth before approving any legislation such as Senate Bill 
1634.
    I wish to thank Chairman Bingaman and Senator Domenici for joining 
Members of the House of Representatives in a letter of May 4, 2007, 
requesting such a study. We agree that the Committee needs current and 
objective information about the Commonwealth--its economy, workforce, 
and changing population--before deciding whether, and to what extent, 
the federal immigration laws should be extended to the CNMI. We are now 
in communication with GAO representatives regarding their schedule and 
study.
    Before I address Senate Bill 1634 in particulars, I would like to 
make one very important point. The people of the Commonwealth are loyal 
U.S. citizens. Our young men and women continue to serve with 
distinction in the American military forces. Several have lost their 
lives in the Iraq conflict.
    We share the desire of the Members of this Committee to protect the 
borders of the United States, including the Commonwealth. We are 
prepared to invite oversight by the Department of Homeland Security. We 
are ready and eager to have the additional safeguards that would come 
from utilization of federal data bases to ensure that no alien entering 
the Commonwealth presents a security risk to the United States. We are 
ready to have federal immigration officials assigned to work in the 
CNMI to improve the training and performance of CNMI personnel.
    Our concerns with Senate Bill 1634 are totally unrelated to 
national security. We oppose the bill in its present form for three 
fundamental reasons. First, it is based on outdated facts, allegations, 
and assumptions. Second, we believe that this legislation will 
frustrate our comprehensive plan to address the Commonwealth's serious 
economic depression. Third, the bill's provisions authorize an 
unprecedented extension of federal authority and will deny the 
Commonwealth's elected leaders any meaningful role in the management of 
its economy.
         senate bill no. 1634: misconceptions rather than facts
    Our concern that S. 1634 lacks any meaningful relationship to the 
Commonwealth of today is not fanciful. We have seen the summary 
prepared by the Committee staff and distributed to the Members of this 
Committee. Every single fact cited in the summary description of the 
CNMI is more than five years out of date. Repeatedly the summary cites 
a 1997 report from the U.S. Commission on Immigration Reform, a 1997 
report from the Department of the Interior, a 1998 report from the 
Immigration and Naturalization Service, 1999 data on wages, a 1999 
statement by the INS General Counsel, 2000 data on unemployment, and a 
2002 report from the Department of Justice.
    Not surprisingly, the summary's conclusions based on these outdated 
facts are simply not true. We believe that any judgment by this 
Committee about the need for legislation such as S. 1634 should be 
based on the facts and circumstances that exist today in the 
Commonwealth. Let me give some examples:

  <bullet> The summary states that there is a two-tiered economy in the 
        CNMI. That is not true. The economic model that prompted this 
        Committee to act in 2000 no longer exists in the Northern 
        Marianas. The closures of most of the apparel factories in the 
        CNMI, and the repatriation of their alien workers have 
        substantially reshaped the economy and population mix of the 
        Commonwealth. This process is likely to continue over the next 
        few years.
  <bullet> The old allegation that the ``bloated'' CNMI Government is 
        an employer of last resort for local residents also fails to 
        acknowledge the facts of life in today's Commonwealth. With a 
        ten percent reduction in government payrolls--and the likely 
        need for more reductions in the next year--we are compelled to 
        work harder to train and place our U.S. citizens in the private 
        sector.
  <bullet> The summary suggests that there is systemic abuse of workers 
        and aliens in the CNMI. That is not true. There is no current 
        data to support this conclusion. In fact, current data show 
        that more than 3,400 pending labor cases have been completed in 
        my Administration. In almost all of these cases, the worker 
        filed the case in order to stay in the Commonwealth beyond the 
        time legally permitted under their entrance visa. They did so 
        because the work environment in the CNMI and the earning 
        potential are much more favorable than in their home country. 
        The statistics show that there were relatively few cases of 
        wage disputes--far lower than the comparable statistics in most 
        States--and there were only two cases involving claims of on-
        the-job injuries.
  <bullet> The summary alleges ``weak border control'' in the CNMI. 
        This is not true. I have appointed a Director of Immigration 
        with 29 years of experience in the federal immigration system. 
        In many respects the entrance requirements for the Commonwealth 
        are more stringent than those in place for Guam or other U.S. 
        destinations. As pointed out in earlier submissions to the 
        Committee, the CNMI and federal immigration authorities have 
        cooperated effectively in many substantial trafficking and 
        other immigration violations in recent years.
  <bullet> The summary dismisses a recent effort by the Commonwealth to 
        identify and repatriate illegal aliens as having a ``65% error 
        rate.'' This is not true, and manifestly unfair. As part of its 
        accelerated enforcement of its labor and immigration laws, we 
        published in January 2007 a list of alien workers who, 
        according to CNMI records, were ineligible for employment. The 
        published notice asked those on the list to report to the Labor 
        Department with appropriate documentation. This effort turned 
        up more than 350 illegal aliens, nearly all of whom have since 
        departed the Commonwealth. It also turned up some employers who 
        had failed to file the necessary paperwork, and some employees 
        who had failed to report changes in their immigration status. 
        We intend to continue publication of such lists as required.
  <bullet> The Committee staff suggests that alien workers have caused 
        ``degradation'' of the Commonwealth's environment. We do not 
        know exactly what the staff had in mind by this allegation. But 
        we do know that the CNMI's guest worker program was essential 
        to the economic growth of the Commonwealth during the late 
        1980s and 1990s. As pointed out by the GAO report of 2000, this 
        growth provided jobs and other benefits to the U.S. citizen 
        residents of the Commonwealth. It is true that the CNMI has 
        serious infrastructure needs but, with the assistance of the 
        federal government, we are addressing them in an orderly 
        fashion.

    We believe that the Commonwealth--and this Committee--deserve 
better information before taking action on the proposed bill. This is 
why an independent study is required before the Committee acts on S. 
1634--to present the current facts in an objective and fair manner.
    Believe it or not: The Commonwealth does have an effective guest 
worker program in place to meet our current and future needs for alien 
workers.

  <bullet> We have substantially reduced our dependence on alien 
        workers. With the closures of most apparel factories and the 
        decline in the local economy, the number of alien workers has 
        fallen from its peak of about 30,000 a few years ago. We expect 
        the figure to be approximately 20,000 by the end of this year, 
        and decrease further to about 15,000 in 2008.
  <bullet> Over the past several years we have increased the 
        opportunities for our local resident workforce--both in the 
        public sector (teachers and health care personnel) and in the 
        private sector. I have insisted on more rigorous enforcement of 
        our present labor laws. Our legislature is currently 
        considering a new comprehensive labor law, with several 
        provisions aimed at increasing the training of local residents 
        so that they can replace alien workers in the private sector.
  <bullet> We have an effective and fair system for handling complaints 
        by alien workers against their employers. The backlog of 
        individual cases, some 3,400 in number, has now been 
        eliminated. Hearings were provided for all those cases where 
        monetary claims were contested by the employer. New procedures 
        and the increased use of mediation have enabled us to handle 
        new cases in a timely manner.
  <bullet> We have achieved the repatriation of several thousand alien 
        workers. We have both the capacity and the commitment to 
        enforce our labor laws by identifying the alien workers who 
        need to be repatriated or, if necessary, deported.
               the cnmi economy and the path to recovery
    This Committee is generally aware of the economic circumstances 
that have adversely affected the Commonwealth over the past several 
years. Attachment 1 to this testimony sets forth the details 
documenting the extent of this depression and its impact on government 
revenues and our budget. Let me touch on some of the main points:

  <bullet> Apparel Industry:

    --The number of apparel factories has declined from 34 to 15--with 
            additional closures anticipated later this year or early 
            next year.
    --The number of alien workers in apparel manufacturing has declined 
            from 16,000 to 6,000.
    --The value of apparel sales has declined from $1.06 billion in 
            1999 to $489 million in 2006.
    --The taxes and fees paid by the apparel industry to the CNMI fell 
            from $80 million in 2001 to an expected $30 million in 
            2007.

  <bullet> Visitor Industry:

    --Visitor arrivals are down 40% since 1996.
    --The causes were obvious: the Asian financial crisis (1997), 9/11 
            attack, SARS, and increased fuel costs.
    --The discontinuation of flights to Saipan by JAL and Continental 
            in 2005-6 were a serious blow to our most important tourist 
            market--Japan.
    --The decline in arrivals has led to the closure of hotels and 
            tourist-oriented businesses.

  <bullet> Government revenues have declined from a peak of $248 
        million in 1997 to an estimated $163 million in 2007--a decline 
        of about 34%.
  <bullet> Increased unemployment.
  <bullet> Dozens of closed businesses in the CNMI.

    The Commonwealth does have a program for recovering from this 
depression. In my State of the Commonwealth speech last April, I 
emphasized five major points: (1) continued effective law enforcement; 
(2) creating new work opportunities for our citizen labor force; (3) 
improved utility operations and service; (4) expansion of the base for 
our visitor industry; and (5) continued efforts to secure new 
investment. This overall plan has the endorsement of both the 
Legislature and the private sector. (A copy is attached to this 
Statement as Attachment 2).
    We have made some significant progress towards achieving these 
objectives.

  <bullet> We have a revised 2007 budget that reflects our declining 
        revenues, protects essential public services, and does not add 
        to the deficit that we inherited.
  <bullet> We have reduced government employment, enforced an austerity 
        program, and are ready to implement a reduction in force if 
        that becomes necessary.
  <bullet> To deal with the need to increase airline seat capacity for 
        the CNMI, we have obtained a major increase in flights from 
        Korea that began last May, some short-term commitments from 
        Continental for this summer, increased charter flights from 
        China, and a substantial commitment by Northwest for renewal of 
        flights from Osaka beginning in December 2007. I am personally 
        engaged in discussions with Japanese, Chinese, and Korean 
        officials and airline executives regarding our need for 
        increased flights from those countries.
  <bullet> As the apparel manufacturing business has declined, we are 
        having some success in attracting different kinds of new 
        industries--financial services companies and educational 
        institutions offering English-language training and other 
        courses primarily to foreign students.
  <bullet> We have attracted major new investments from Japanese 
        companies (Sumitomo and NTT DoCoMo Inc.) and Korean companies. 
        Kumho Asiana, the parent of Asiana Airlines, has purchased one 
        of our golf courses and is committed to major renovations and 
        improvements involving several hundred million dollars. Just a 
        few weeks ago, I attended the groundbreaking ceremony at the 
        future site of a $300 million hotel and villa complex on Saipan 
        undertaken by the KSA Group of Korea--the first new hotel on 
        Saipan in many years. These were two of the many projects 
        described in my State of the Commonwealth address--most of them 
        scheduled to begin within the next 6-12 months.

    Let me state the obvious: there is no quick fix for the 
Commonwealth's current problems. Because of the delay in implementing 
new airline commitments and the need for additional such commitments, 
we are unlikely to see any substantial increase in visitor arrivals for 
about 18 months. The benefits of the recent--and scheduled--investments 
in hotels and other tourist attractions will also take time to develop. 
Although the construction activity on such projects produces some 
needed stimulus to the economy, substantial increase in revenues for 
both the private and public sectors takes more time. But we do have a 
vision. And, with all due respect for our critics, we prefer our vision 
to that of government bureaucrats 8,500 miles away.
    The ability of the private sector and my Administration to deal 
with our economic crisis has been complicated by the recent imposition 
of the federal minimum wage on the Commonwealth. We appreciate the 
assistance this Committee provided in seeking a lower increase for the 
Commonwealth. The first fifty cent increase is mandated for next week--
July 25, 2007. Federal and local labor officials have been 
collaborating in preparing for as smooth a transition as possible given 
the short time frame for compliance and the variety of questions 
presented by employers and employees. Employers throughout the 
Commonwealth are concerned by the uncertainty under the federal law 
with respect to additional yearly increases in 2008 and beyond and the 
difficulty in planning ahead under these circumstances. We will be 
monitoring the impact of this first increase and will be requesting the 
Committee's assistance as appropriate.
    The enactment of S. 1634 will seriously damage the CNMI economy. It 
will drastically change the rules under which investors commit their 
funds to the Commonwealth. It generates uncertainty throughout the 
economy. This uncertainty is real. It is important. It leads potential 
investors to reexamine the profitability of investment in the 
Commonwealth. It leads committed investors to reexamine the nature and 
timetable for implementing their plans. It raises serious questions 
regarding the continuation of the special visa programs vital to the 
visitor industry, the educational industry, and retirement facilities 
for Asian nationals.
    Once the several federal departments begin to exercise their 
responsibilities under S. 1634, an entirely new element of uncertainty 
is created. It will be clear that no Northern Marianas Governor will be 
able to make the kind of commitments necessary to attract investment to 
the Commonwealth from predominantly Japanese, Korean, and other Pacific 
Rim companies. In order to appraise investment prospects in the 
Northern Marianas, potential investors will have to deal with a new 
bureaucracy of five departments in Washington. To whom should such 
investors go for guidance regarding the future course of the CNMI 
economy? Department of Homeland Security? Department of State? 
Department of Justice? Department of Labor? Or the Interior Department? 
Or all of the above? Why should they bother--if there are other areas 
in the Pacific of equal promise which provide greater certainty and 
security which major investors reasonably demand?
    Enactment of S. 1634 will almost certainly result in increased 
financial dependence on the federal government by the CNMI. The 
Commonwealth will soon thereafter be on the dismal course being 
experienced by the freely associated states and most island communities 
in the Western Pacific--a course featuring outmigration, remittances, 
government payrolls, and foreign aid. This was not the objective of the 
United States and Northern Marianas negotiators of the Covenant. They 
envisioned and promised a self-sufficient local economy, to the extent 
possible, and a standard of living comparable to that of the average 
American community. In recent years the federal government has failed 
to honor these commitments to the Northern Marianas--such as the 
failure to reimburse the CNMI for the $200 million in costs incurred by 
the Commonwealth providing public services to Micronesians from the 
other former districts of the Trust Territory of the Pacific Islands. 
Coming so soon after the imposition of the federal minimum wage, 
enactment of S. 1634 would be another serious blow to the 
Commonwealth--its economy and its U.S. citizens, who lack even a token 
vote in the U.S. Congress.
    We do not understand why our concerns are being dismissed before a 
credible economic study has been conducted and presented to the 
Committee. We urge this Committee not to act on S. 1634 until the GAO 
completes its analysis and reports to the Committee.
                    specific deficiencies of s. 1634
    Attached to this Statement is a section-by-section analysis of S. 
1634 (See Attachment 3). Let me draw your attention to a few of its 
most important deficiencies.
S. 1634: A New Federal Bureaucracy
    Senate Bill No. 1634 creates a new federal bureaucracy composed of 
five separate departments to implement the bill's provisions. It is 
unclear that any of these departments--with the probable exception of 
the Interior Department--wants to add these new responsibilities to 
their already full dockets. The Department of State is so overwhelmed 
by passport applications that it has assigned more than one hundred of 
its consular officers on an emergency basis to deal with these demands. 
The same is true of the Department of Homeland Security, as evidenced 
by the recent reports of its backlogs with respect to visa 
applications. A few weeks ago, a conflict between the Department of 
State and the Department of Homeland Security resulted in the reversal 
of a commitment to provide work-based visas to thousands of well-
educated, highly skilled, legal immigrants, with long experience in the 
country. A spokesman for Homeland Security acknowledged that there had 
been a failure of communication between his department and State. (New 
York Times, July 6, 2007, p. A9) Does anyone seriously believe that the 
needs of the Commonwealth--8,500 miles from Washington without a vote 
in the Congress--would get a higher priority?
    We note that only Interior has been asked to testify regarding S. 
1634. We believe that the Committee should hear directly from the four 
other agencies given duties under the bill before it is enacted. S. 
1634 raises significant issues of funding, personnel, expertise, and 
agency coordination that should be addressed before--not after--the 
bill is passed.
    The Senate bill provides only a year for the five departments to 
consult with each other and the Commonwealth, and produce the many sets 
of regulations required by the bill. After the effective date of the 
legislation, all CNMI immigration and labor laws are expressly 
preempted by the legislation, with no failsafe provision in the event 
that the federal agencies are not ready at that time to enforce the new 
law. It would be only prudent to anticipate such a possibility and 
provide for it in the proposed legislation.
        s. 1634: an unprecedented assertion of federal authority
    This proposed legislation imposes a federally designed and 
controlled guest worker program on a single community of U.S. citizens 
within the United States. It purports to pay deference to the promise 
of local self-government in the Covenant, but its terms are quite 
clear: all critical decisions regarding the future economy of the 
Commonwealth will be in the hands of federal officials. They will 
decide which industries or new investments will be entitled to access 
to alien workers. They will decide which special visa programs will be 
available to the Commonwealth's critical visitor industry. They will 
decide what incentives or sanctions are required to stimulate 
businesses to employ local workers. To the Members of this Committee 
who have served in local or State government, we pose a single 
question: How would you have responded if Congress authorized five 
federal departments to descend on your community and supersede local 
authority over the local economy?
    In a further break from established immigration policy, S. 1634 
declares which non-U.S. citizens will be given permanent legal status 
and permitted to stay in the CNMI. S. 1634 expressly grants a form of 
amnesty to nearly 8,000 alien workers in the Commonwealth by granting 
them nonimmigrant status and the privilege of living and working 
anywhere in the United States. The bill's drafters chose to ignore that 
such an enhanced status was not permitted or contemplated when these 
workers elected voluntarily to come to the CNMI many years ago to enjoy 
the economic opportunities available in the CNMI. The recent Senate 
debate on immigration suggests that such a provision would never have 
been supported on the national level--either because it looks like an 
amnesty provision or because it imposes an enormous burden on the 
Commonwealth of permanent alien residents numbering about 25% of the 
local United States citizen population. The drafters of S. 1634 
seemingly have no concern about the impact of this provision on the 
integrity and vitality of the indigenous Carolinian and Chamorro 
peoples in the Commonwealth.
                s. 1634: not authorized by the covenant
    Section 503 of the Covenant does permit the application of the U.S. 
immigration and immigration laws to the Northern Mariana Islands after 
the termination of the Trusteeship Agreement. It does not authorize the 
mandatory guest worker program specified by S. 1634, accompanied by the 
preemption of the Commonwealth's local labor laws and dictating the 
nature and extent of future economic development in the CNMI. We 
believe that S. 1634 raises very significant legal issues under both 
the U.S. Constitution and the Covenant. We believe this Committee 
should satisfy itself as to the legal validity of this bill's 
provisions before enacting it.
    Thank you for the opportunity to appear before this Committee.
       Attachment 1.--Supplementary Statement Submitted by Hon. 
                           Benigno R. Fitial
    This Statement is submitted by Governor Fitial on behalf of the 
Commonwealth of the Northern Mariana Islands for inclusion in the 
printed record of the hearings conducted by the Senate Committee on 
Energy and Natural Resources on July 19, 2007. It will address issues 
raised by Deputy Assistant Secretary of Interior Cohen in his testimony 
and some of the questions by members of the Committee to me and other 
witnesses.
                       the need for the gao study
    In the hearings before this Committee in February and July the 
Commonwealth has emphasized the need for a careful and professional 
study of the Commonwealth before enactment of legislation such as 
Senate Bill 1634. We are pleased that members of the Senate and the 
House of Representatives have requested the Government Accountability 
Office to undertake this task. Such a study would necessarily focus on 
two objectives of central importance to the consideration of S. 1634: 
(1) to provide current and reliable information about the Commonwealth 
as it exists today--its economy, workforce, and changing population; 
and (2) to assess the economic, political, and social consequences of 
preempting the Commonwealth's immigration and labor laws and 
substituting a federally designed and managed guest worker program in 
the CNMI.
    The need for current and objective information about the 
Commonwealth is apparent from the provisions of S. 1634 and the 
questions posed by Senate Akaka. In our earlier statement we spelled 
out in detail the deficiencies in the data, assumptions, and 
allegations set forth in a briefing paper for the members of the 
Committee. Based on that information, the Clinton Administration ten 
years ago and this Committee seven years ago acted to impose the 
federal immigration laws on the CNMI. In answer to a specific question 
addressed to Governor Fitial by Senator Akaka: We oppose S. 1634 
notwithstanding these earlier federal efforts because the underlying 
facts in the Commonwealth today no longer require such drastic and 
unprecedented legislative action. Whether we are right or wrong in this 
regard, the Committee will surely benefit from GAO's assessment of the 
current situation.
    The GAO study is also needed to assess the impacts of 
federalization on the Commonwealth's economy and community. We have set 
before the Committee our detailed plan for economic recovery and 
candidly expressed our fears that the federal bureaucracy and program 
mandated by S. 1634 will have immediate and adverse consequences on our 
recovery program. We have stressed the uncertainty already expressed by 
present and potential Asian investors on whom the CNMI has necessarily 
depended over the last two decades. The existing backlogs at the 
Departments of State, Labor, and Homeland Security with respect to 
their existing responsibilities will undoubtedly make it difficult for 
local CNMI concerns to be addressed as contemplated by S. 1634. We hope 
that the GAO study will take a serious look at these issues.
    Under these circumstances we do not understand why the supporters 
of S. 1634 are urging action before GAO reports its findings to 
Congress. Deputy Assistant Secretary Cohen in his written testimony 
urged ``Congress to carefully consider the results of [the GAO] 
analysis in the continued development of this legislation.'' When asked 
by Senator Akaka whether the legislation should be delayed pending 
receipt and consideration of the GAO study, Mr. Cohen stressed the need 
for legislative action and indicated that the study should not be used 
as an excuse for delay and that it could be used in evaluating the 
effects of the legislation after it is enacted. As discussed later in 
this supplementary statement, we believe that Mr. Cohen's sense of 
urgency is largely self-generated and that there is no good reason for 
acting on a matter of this importance without all the relevant 
information that would be developed by a GAO study.
                           human trafficking
    As evidence of the need for immediate approval of S. 1634, Mr. 
Cohen stressed the seriousness of the human trafficking problem in the 
Commonwealth. Based on a statistical analysis featuring the 36 female 
victims of human trafficking within a recent 12-month period in the 
CNMI, he concluded that ``human trafficking remains far more prevalent 
in the CNMI than it is in the rest of the U.S.'' Using a figure of 
between 14,500 and 17,500 human trafficking victims brought into the 
United States each year, and then comparing the number of victims with 
the size of the resident population in both the CNMI and the United 
States, he concluded ``that human trafficking is between 8.8 and 10.6 
times more prevalent in the CNMI than it is in the U.S. as a whole.''
    Cohen's analysis is a textbook example of misuse of statistics. We 
are concerned here with the comparative performance of two immigration 
systems--the federal system operating in the United States and the CNMI 
immigration system. Accordingly, the incidence of trafficking victims 
must be related to the number of entrants into the two areas rather 
than the population of residents in each area. Analytically, the size 
of a community is not related either to the number of entrants seeking 
admission into that community or the number of immigrants victimized in 
this manner. According to a professor of statistics at the Northern 
Marianas College, Cohen's analysis commits the statistical offense of 
creating a sample outside the population.
    As one might anticipate, a more appropriate statistical analysis 
produces a dramatically different result. In the last few years the 
number of visitors entering the CNMI has been about 450,000. The number 
of entrants into the United States in 2005, the last year for which 
statistics were fully available, was 33,675,808--the total of 1,122,373 
permanent legal residents, 32,003,435 non-immigrant admissions, and 
550,000 illegal immigrants. (The first two figures are from the DHS 
annual yearbook for 2005 and the number of illegal immigrants annually 
is the middle of the range of 400,000 and 700,000 calculated by GAO.) 
The results of the analysis: CNMI--one trafficking offense for each 
12,500 entrants; United States--one trafficking offense for each 1,924 
entrants. The United States figure is six and one-half times the CNMI 
figure.
    What is disappointing about Mr. Cohen's statistical analysis is not 
that it was so wrong, but that he felt it was necessary to generate a 
heightened sense of urgency to persuade the members of the Committee to 
enact a bill without having all of the relevant information before 
them. The Commonwealth is committed to investigating all allegations of 
human trafficking and to cooperating fully with the local United States 
Attorney and his staff. We know that many communities in the United 
States in recent years have had major criminal prosecutions involving 
dozens of immigrants brought into their area for illegal sexual or 
other criminal activity. Identifying the CNMI as a major offender in 
this regard was an unnecessary and inappropriate accusation by a 
Department of the Interior official and we believe that Mr. Cohen owes 
us an apology.
                           refugee protection
    On this subject, we believe that Mr. Cohen has made several 
important observations which we in the CNMI take very seriously. We do 
recognize the international obligations of the United States under the 
treaties cited in Mr. Cohen's testimony. We realize that the 
appropriate officials in the Department of Homeland Security are 
entitled to monitor and protect the integrity of a refugee protection 
program which impacts U.S. compliance with these international 
commitments. We regret that a recent exchange of letters between DHS 
officials and the CNMI Office of the Attorney General was politicized 
rather than resolved in discussions between the two agencies.
    As Mr. Cohen pointed out in his testimony, the terms of the 
Memorandum of Agreement permitting the CNMI Office of the Attorney 
General to share information regarding protection applicants and their 
claims expired on September 26, 2006. In the absence of such an 
agreement, under the provisions of the CNMI immigration regulations, 
which were approved by USCIS, compliance with the request for 
information pertaining to pending protection applications would have 
violated these regulations and the privacy provisions of the CNMI 
Constitution.
    This Administration supports the Memorandum of Agreement under 
which the CNMI has established its own refugee protection system with 
the assistance of USCIS and would welcome the renewal of that 
Memorandum. We believe that the system has worked well over the past 
few years, during which 32 refugee cases were initiated--two in 2004, 
13 in 2005, 14 in 2006, and three to date in 2007. The Commonwealth has 
followed the same policies and practices throughout this period; no 
changes were made by my Administration. So far as I am aware, no 
serious differences of opinion developed during this period between 
CNMI and USCIS officials regarding the administration of the program. 
To the contrary, I have been advised that the consultants provided by 
USCIS provided valuable assistance to the CNMI participants in the 
processing of these claims.
    I do not believe that we should let an exchange of letters detract 
either from this past record of cooperation or our mutual interest in 
enforcing the treaty obligations of the United States. I understand 
that the Attorney General is consulting with USCIS officials regarding 
an appropriate agreement about the assistance that USCIS has offered to 
provide to the CNMI. I am confident that these officials can negotiate 
in good faith to achieve a mutually satisfactory accommodation. I am 
prepared to consider such additional steps as may be necessary to 
achieve our common objectives in this area of refugee protection. In my 
opinion, it is in the interest of both the United States and the 
Commonwealth for the CNMI to administer a refugee protection program in 
a manner that accords with applicable treaty obligations.
                            border security
    Mr. Cohen and I both discussed the issue of border security in our 
written statements, which prompted questions on the subject. With 
respect to the authority of Congress to enact S. 1634, the Commonwealth 
recognizes that the Covenant does permit application of the U.S. 
immigration laws to the CNMI after termination of the Trusteeship 
Agreement. However, S. 1634 is far more than an immigration law. It 
imposes an unprecedented federal guest worker program on the 
Commonwealth; it preempts all local labor laws relating to the use of 
alien workers in the CNMI; and it replaces local decision-making with 
respect to economic development with a federal bureaucracy of five 
departments. No other community is the United States has been subjected 
to such a federal intrusion into local matters.
    The Commonwealth believes that border control can be addressed 
separately from control of the local guest worker program or the 
special visa programs essential to the CNMI visitor industry. With 
respect to the guest worker program, the decisions regarding the nature 
and extent of economic development could be left to locally elected 
leaders, where such a responsibility belongs, but no guest worker would 
be admitted before his or her name was checked against the federal 
databases to ensure that the guest worker did not present a security 
risk to the United States. With respect to the special visa programs 
used by the Commonwealth to attract visitors from destinations such as 
China and Russia, the CNMI could similarly follow its usual procedures, 
which were outlined in Lt. Governor Villagomez's testimony before the 
Committee in February, and then rely on the federal databases to 
provide an additional level of protection against security risks.
    Mr. Cohen contends in his written statement that only the federal 
government can implement an effective, pre-screening process for aliens 
wishing to enter the Commonwealth. He describes the federal procedures 
in some detail and contrasts them with the procedures followed by CNMI 
officials. In fact, the screening procedures used by the CNMI in its 
Visitor Program are quite rigorous. Most aliens seeking admission to 
the Commonwealth require a sponsor. The sponsor must supply 
documentation identifying the visitor, the intent of the visit, contact 
information for the alien and the sponsor while the visitor is in the 
CNMI, and an affidavit of support. In this affidavit, the sponsor must 
promise to support the visitor if necessary, that the visitor will not 
become a charge to the community, and that the sponsor will reimburse 
the CNMI for all expenses incurred as a result of the visitor becoming 
a deportable alien, including detection, detainment, prosecution, and 
repatriation. Selected tour agencies are allowed to gather information 
regarding prospective visitors, fill out applications, and submit them 
to the CNMI Division of Immigration. Each agency has posted a $500,000 
bond which is subject to forfeiture in the event of a breach of the 
operating agreement between the CNMI and the travel agency or tour 
operator.
    The comparative merit of the federal and CNMI systems rests 
ultimately on the number of aliens who manage to subvert the system and 
gain entry illegally into the United States or the Commonwealth. We 
know the federal results: about 550,000 illegal entrants each year and 
a total of some 11.5 million illegal immigrants in the United States. A 
study conducted last year in the CNMI found that out of 334,195 entries 
during the period from March 2006 through October 2006 only six 
``overstays'' were found--people for whom CNMI records revealed no 
departure, no extensions, no adjustment of status, no pending claims, 
and no detention status. Because of lack of enforcement in previous 
administrations, the Commonwealth is now dealing with guest workers who 
no longer have legal status to remain in the CNMI. These efforts have 
resulted in a substantial number of voluntary repatriations, including 
most of the alien workers who previously had jobs in apparel factories 
that have closed during the past two years.
    The Commonwealth believes that its enforcement system can be more 
effective in this community than a federal system administered from 
Washington. The small size and island character of the Commonwealth 
facilitates an effective immigration system--both in excluding illegal 
entrants and in identifying and deporting persons no longer qualified 
to remain in the community. However impressive the resources of the 
United States appear in the abstract, the federal performance in this 
distant location almost always falls far short of expectations. This 
certainly has been the experience in the Northern Marianas, even after 
the Senate hearings in 1998-99 when the Chairman of the Senate 
Committee on Energy and Natural Resources chastised the federal law 
enforcement authorities for failing to implement their responsibilities 
in the CNMI. It is reflected today in the performance of federal 
agencies responsible for handling labor cases under federal laws, where 
there are substantial backlogs, and in the underfunding of essential 
border protection agencies. A case in point is the U.S. Coast Guard 
operation in the CNMI, whose three personnel lack even a single boat to 
patrol the 400 mile chain of the Northern Mariana Islands and to act in 
a timely fashion to apprehend smugglers or other criminals.
                      continuity in policy making
    Federal legislation such as S. 1634 is frequently advocated on the 
basis that it will bring stability and certainty to the CNMI. In this 
connection, Members of the Committee have commented that governors and 
legislators in the Commonwealth are subject to the electoral process, 
which generates uncertainly about the continuity of current labor and 
immigration policy.
    It is certainly true that no elected governor or legislator in the 
CNMI can promise that their successors will subscribe to the same 
public policies as they have. Indeed, the voters' selection of new 
leaders may be predicated on the desire for a new policy direction. But 
this is inherent in the democratic process and is reflected as well in 
the changing policies of the federal government. In fact, the most 
drastic change in policy affecting the Commonwealth in recent years 
resulted from the U.S. election in November 2006, which turned control 
of the U.S. Congress to the Democratic Party. As a result, the 
Commonwealth has been faced with a series of Congressional hearings and 
proposed legislation that has not been on the Congressional agenda for 
several years and comes at a time when the limited resources of the 
CMNI have been stretched to their limits in dealing with our serious 
economic situation.
    Conceding the uncertainties of the democratic process, there are 
factors influencing political choices in the Commonwealth that will 
limit future elected leaders in the CNMI--just as they have influenced 
the decisions of my Administration. The reduced revenues resulting from 
the simultaneous decline in the Commonwealth's two major industries 
impose a necessary discipline on expenditures and the size of the 
Commonwealth government. The loss of government jobs and the decline in 
the reliance on guest workers require new programs to increase the 
number of local resident workers in the private sector. The need for 
new investment and industries dictates that the Commonwealth's elected 
leaders shape an economy and community that are receptive to investors. 
In addition, the continued oversight of the Commonwealth by federal 
officials and members of Congress provides an additional safeguard that 
CNMI leaders will not ignore the realities of their situation and seek 
to return to the self-indulgence that the prosperous 1990s encouraged.
    More fundamentally, uncertainty regarding the future governance of 
the Commonwealth does not justify enactment of S. 1634. There are ways 
short of legislation to deal with federal concerns about the CNMI's 
performance. In Lt. Governor Villagomez's testimony in February we 
suggested the use of negotiated benchmarks to assess the Commonwealth's 
performance in such areas as financial management, size of government, 
job opportunities for local residents, educational programs and 
standards, reliance on guest workers, and management of a labor market 
that provides fair treatment and procedural guarantees for all CNMI 
workers. At the very least, development of such benchmarks by the 
Interior Department and the CNMI under the oversight of the U.S. 
Congress would respect the Covenant's promise of local self-government 
and would avoid the very considerable risks associated with the 
complicated and worrisome provisions of S. 1634.
                     proposed amendments to s. 1634
    The Committee has asked for our views regarding amendments to S. 
1634 proposed by Resident Representative Tenorio and Mr. Cohen. They 
are as follows:

          1. Section 6(a)--Immigration and Transition.--In the Section 
        by Section Analysis of S. 1634 attached to my July 19, 2007 
        testimony, I expressed our concerns about the one-year period 
        provided for planning before the effective date of the 
        legislation. We proposed either a period of two years or, in 
        the alternative, providing for an extension in the legislation 
        to be used in the event it was needed. The Resident 
        Representative seconded these concerns and suggested an 
        approach that would provide for an extended transition period 
        if needed.
          2. Section 6(c)(2)--Family-Sponsored Immigrant Visas.--
        Resident Representative Tenorio recommended that this provision 
        be eliminated because it is already covered by Section 506(c) 
        of the Covenant. We agree.
          3. Section 6(c)(3)--Employment-Based Visas.--We recommended 
        deletion of this provision in our Section by Section Analysis. 
        Both Mr. Cohen and the Resident Representative have reached the 
        same conclusion.
          4. Section 6(d)--Nonimmigrant Investor Visas.--We recommended 
        that this section be amended to provide that CNMI investors be 
        entitled to the same immigrant status as provided to alien 
        workers under the proposed legislation, which would also be 
        more comparable to the U.S. citizenship afforded under the 
        United States investor program. Resident Representative Tenorio 
        recommended ``that this section include language that would 
        allow for easy processing of new investors into the CNMI.'' We 
        reiterate our recommendation and support the Resident 
        Representative's suggestion.
          5. Section 6(h)--Long Term Status to Temporary Workers.--Mr. 
        Cohen advised that ``the Administration is evaluating the 
        specific provisions granting long-term status to temporary 
        workers in the CNMI in light of the Administration's 
        immigration policies.'' Resident Representative Tenorio 
        expressed concern about the provision in his written statement, 
        and proposed in his oral testimony that, if such a provision 
        were enacted for guest workers who had been in the CNMI for 
        five years and met the statutory requirements, they would not 
        be allowed to leave the CNMI for another five years without 
        their employer's permission. We believe that this suggestion is 
        both impractical and unenforceable. In our Section by Section 
        Analysis we expressed strong opposition to the provisions of 
        Section 6(h). The proposal has generated unrealistic 
        expectations among the guest worker population in the CNMI, 
        stimulated boycotts of commercial enterprises because of the 
        Chamber of Commerce's opposition to the provision, and 
        contributed to increased divisiveness between guest workers and 
        the indigenous peoples of the Commonwealth. We recommend that 
        the provision be eliminated from S. 1634.
          6. Visa Waiver Program under Section 3(b).--Resident 
        Representative Tenorio emphasized the importance of the visa 
        waiver program to the CNMI, but makes no recommendation 
        regarding the relevant provisions of S. 1634. Mr. Cohen appears 
        to be indicating that the Secretary of Homeland Security wants 
        to be ensured that he ``have full authority to make visa waiver 
        decisions in the national interest.'' We believe that the 
        Secretary already has excessive authority under S. 1634 and 
        would oppose any amendment that would enable the Secretary to 
        disregard the economic importance of such programs to the CNMI 
        and to terminate any visa waiver program in the CNMI at his 
        sole discretion, without any opportunity for the Commonwealth's 
        interests to be considered. In our earlier submissions to the 
        Committee we have advised that the Guam visa program is less 
        stringent than the Commonwealth's. Accordingly, we would 
        consider carefully the pros and cons of any combination of the 
        two programs as is apparently being considered by the Interior 
        Department.
          7. Section (d)(3)--Payment of Fees by Employers.--Resident 
        Representative Tenorio recommended that this provision be 
        terminated because it is contrary to Section 703(b) of the 
        Covenant. This Covenant provision provides for ``cover over'' 
        or transfer of certain taxes and fees collected by the United 
        States to the CNMI Government. We have three problems with this 
        provision. First, if the fees are set at the level used in Guam 
        (three times the current fees charged by the CNMI), the result 
        will be a devastating burden on CNMI employers. Second, the 
        preemption of local laws contemplated by S. 1634 would deprive 
        the CNMI Treasury of the approximately five million dollars 
        annually in employer fees immediately upon the effective date 
        of the law. Third, the Department of the Treasury has contested 
        every ``cover over'' claim advanced by the CNMI Government 
        under Section 703(b) in recent years so that the ultimate 
        recovery of these fees is very uncertain in the absence of a 
        specific legislative directive by Congress. We continue to 
        believe that, if compelling federal interests require enactment 
        of a law such as S. 1634, then the costs should be fully borne 
        by the federal government (not by local employers) and it is 
        the responsibility of the agencies involved to calculate those 
        costs and present them to Congress before it enacts the 
        legislation.
                    non-voting delegate for the cnmi
    The Committee has asked whether the Commonwealth would support S. 
1634 if a provision were added authorizing a non-voting delegate for 
the Commonwealth in the House of Representatives. Such a provision does 
exist in H.R. 3079 under consideration by the House Committee on 
Natural Resources.
    We strongly support the proposal for a non-voting delegate for the 
CNMI. It is a disgrace that the U.S. Congress has for years denied the 
Commonwealth the same privileges as have been afforded to the other 
insular areas. However, we believe that legislation providing for a 
non-voting delegate should be considered on a stand-alone basis. 
Notwithstanding our strong support for such a proposal, therefore, its 
inclusion in S. 1634 will not temper our conviction that enactment of 
S. 1634 will cause serious and irreversible damage to the economic 
development of the Commonwealth.
    Furthermore, as Mr. Cohen observed in the closing paragraph of his 
prepared statement, legislation as important to the CNMI as S. 1634 
should not be enacted by Congress until the Commonwealth has a 
representative in the House of Representatives to participate in its 
development and consideration.
                  Attachment 2.--Financial Highlights
    The Commonwealth of the Northern Marianas (CNMI) continues to 
experience severe economic challenges. Tourism, the major industry 
responsible for more than fifty percent of government revenues, has not 
recovered from a series of adverse external events such as the SARS 
epidemic, Asian financial crisis, the 9/11 attack, and the Iraq war. It 
has been made worse by the withdrawal of Japan Airlines' direct flights 
in 2005 which accounted for approximately 40% of the tourist arrivals. 
The apparel industry, the second largest contributor to the local 
economy, has been in the decline since the lifting of import quota 
restrictions from World Trade Organization (WTO) member countries. The 
inability of this industry to compete globally, coupled with increasing 
costs of production and overhead (higher wages, more expensive 
utilities, higher fuel and shipping costs), has affected levels of 
production which resulted in accelerated closure of many local 
manufacturing operations.
    In the midst of the declining economy and decreasing government 
revenues, the new CNMI administration adopted a policy of living within 
its means while ensuring essential public programs and services are 
maintained and provided. To this end, the unrealistic revenue budget 
for fiscal year 2006 was immediately reduced and the extraordinarily 
generous expenditure budget was drastically cut. The result was a new 
and more realistic appropriations law to guide and control government 
operations and related expenditures. The discussion in the following 
paragraphs essentially describes the results of this effort.
A. Compliance with the Single Audit Act
    For the first time since the enactment of the Single Audit Act, the 
CNMI has, for fiscal year ended September 30, 2006, complied with the 
filing requirement for the timely submission of audited financial 
statements. For fiscal year 2005, the current administration filed the 
required financial statements within the 30-day extended filing period. 
For many years, the CNMI lagged way behind in meeting this fundamental 
requirement.
    While the CNMI did not get a clean opinion in its financial 
statements from the independent auditors, the CNMI is committed and 
focused in addressing the issues identified by the auditors, such as 
inadequacies in the accounting system and related internal control 
weaknesses over financial reporting. The CNMI expects to resolve many, 
if not all of these issues in the upcoming fiscal year 2007 audited 
financial statements.
B. Results From Operation--Fiscal Year 2006
    Revenues and expenditures (budgetary basis) for the CNMI General 
Fund for fiscal year 2006 shows actual expenditures of $192,746,565 
exceeding actual revenues of $192,660,289, resulting in a slight 
operating shortfall of $86,276. Other financing sources exceeded other 
financing uses by $137,859. The combined effect of these two items 
resulted in revenues and other financing sources exceeding expenditures 
and other financing uses by $51,581. This is a marked improvement from 
the previous fiscal year where expenditures exceeded revenues on the 
same budgetary basis by $12,419,374.
    The total budgetary deficit also showed significant signs of 
improvement, from $169,047,484 in fiscal year 2005, to $163,551,688 in 
fiscal year 2006. This reduction in the budgetary deficit was due 
primarily to significant decrease in reserves, as well as from the 
overall positive effect of the results from operation described in the 
preceding paragraph. The unreserved fund deficit (budgetary basis) 
increased from fiscal year 2004 to 2005 by $25,312,466.
C. Net Assets
    Unlike the fund balance measure which focuses on assets available 
for current period expenditures and liabilities due and payable in the 
current period as reported in the governmental funds, the net assets 
measure for the governmental activities includes capital assets and 
long-term liabilities using the accrual basis of accounting.
    For fiscal year 2006, the CNMI's net assets deficiency increased 
from $38.1 million to $49.4 million, an increase in net deficiency of 
$11.3 million, or 29.6% from previous year. This indicates the CNMI's 
financial condition, as a whole, has not improved much from previous 
year, although the rate of deficiency has slowed. The decline in net 
assets for fiscal year 2005 alone was $19.5 million.
    The primary factor for the decline in net assets in fiscal year 
2006 is the disbursement of $6.7 million in payments for land claims 
from bond proceeds received in 2004 and not included in the offsetting 
revenues for the year. Additionally, the liability to the Northern 
Mariana Islands Retirement Fund (NMIRF) increased by $16.1 million, due 
to the suspension of General Fund employer contributions beginning 
March 1, 2006.
D. General Fund Deficit
    For the year ended September 30, 2006, the CNMI General Fund's 
total fund deficit on a GAAP basis increased by $16.4 million or 11.9%, 
to a total fund deficit of $152.1 million. The total unreserved fund 
deficit in the general fund increased by $2.9 million, or 1.7% of the 
total unreserved fund deficit of $177.2 million.
E. Fiscal Year 2007
    The previously enacted budget for fiscal year 2007 was $193.285 
million, Public Law 15-28. After careful review of the revenue 
collection trends, and taking into account current and relevant 
economic data, the fiscal year 2007 budget has recently been amended by 
reducing total government appropriations to $163,285 million, a $30 
million budget reduction. The reduced budget required a 5% reduction 
from identified essential programs and activities, such as health 
services, police protection, public school system, etc. It also 
mandated budget reduction of at least 15.9% for all other budget 
activities, including the legislative and judicial branches.
    Major features of the amended fiscal year 2007 operating budget:

  <bullet> Budget for the year reduced by $30 million
  <bullet> Budget for essential programs reduced by 5 percent
  <bullet> Budget for other programs reduced by 15 percent
  <bullet> Potential lapses identified and reprogrammed to cover 
        potential shortfalls
  <bullet> Austerity Holiday in effect every other Friday
  <bullet> No hiring for the remainder of the fiscal year
  <bullet> Continued freeze on travel and other expenditures
  <bullet> Continued ban on overtime compensation except emergency and 
        health care personnel.
F. Fiscal Year 2008 Budget
    Fiscal year 2008 budget is currently being compiled. The total 
resources to be reported for the fiscal year is expected to be 
generally the same as the current budget at $163 million. Cost 
containment and expenditure controls will be strictly enforced.
         Attachment 3.--Section by Section Analysis of S. 1634
    The Commonwealth of the Northern Mariana Islands is opposed to 
enactment of S. 1634 for the reasons set forth in the testimony of Lt. 
Governor Timothy P. Villagomez on February 8, 2007, before the Senate 
Committee on Energy and Natural Resources, the Memorandum dated March 
19, 2007, submitted to the Committee, and in the testimony of Governor 
Benign R. Fitial before the Committee on July 19, 2007.
    In summary, the Commonwealth's opposition is based on the following 
contentions: (1) Congress should defer any action on the bill until the 
Government Accountability Office has completed the study requested by 
Members of Congress; (2) the proposed legislation relies on outdated 
assumptions and facts and fails to reflect the current operation and 
capacity of the CNMI's labor and immigration programs; (3) the bill 
proposes a cumbersome bureaucracy of five separate federal departments 
that promises to be dilatory, expensive, and dismissive of local 
concerns; (4) the imposition of a federal guest worker program on the 
Commonwealth raises substantial legal questions under both the U.S. 
Constitution and the Covenant; (5) the bill is virtually certain to 
deter new investment in the Commonwealth, to cause irretrievable damage 
to the local economy and community, and to increase the CNMI's reliance 
on federal funds; and (6) the bill is not necessary to address 
legitimate national security concerns in the Western Pacific.
    If the Committee decides to consider S. 1634 at this time, we 
submit the following specific suggestions for its consideration.
    Section 6(a). Immigration and Transition.--This provision states 
that the effective date for the ten-year transition program will be 
approximately one year after enactment of the legislation. We have two 
comments.
    First, we have serious doubts that the five agencies involved can 
complete the tasks assigned to them under the bill within a single 
year. It specifies that during this period ``the Secretary of Homeland 
Security, in consultation with the Secretary of State, the Attorney 
General, the Secretary of Labor, and the Secretary of the Interior, 
shall establish, administer, and enforce a transition program to 
regulate immigration to the Commonwealth'' as set forth in subsequent 
provisions of the bill. These provisions require the promulgation of 
appropriate regulations and interagency agreements. In addition to this 
drafting responsibility, the agencies would be required to recruit, 
train, and relocate personnel.
    It currently takes about one year for the U.S. Citizenship and 
Immigration Services (USCIS) of the Department of Homeland Security to 
process a simple adjustment of status for an Immediate Relative (IR) in 
the CNMI. In addition, both the Department of Homeland Security and the 
Department of State are experiencing highly publicized difficulties in 
executing their present responsibilities with respect to both passports 
and visas. Under these circumstances it seems highly unrealistic that 
DHS could accomplish all that must precede initiation of the transition 
program within one year.
    Our first recommendation is to set the effective date for two years 
after enactment of the legislation. This would also provide additional 
time for the CNMI to recover from its current economic depression. If 
this is not done, it seems only prudent to anticipate the need for a 
possible extension of the effective date for the transition program and 
specifically to authorize consideration of such an extension at some 
point (perhaps nine months) after the bill's enactment. It would be 
extremely damaging to the CNMI and the United States if the 
Commonwealth's own programs were preempted before the federal agencies 
were fully funded, staffed, and prepared to assume their 
responsibilities under S. 1634.
    Second, we recommend reconsideration of the concept of a ten-year 
transition program. Any transition period seems of questionable merit. 
The proposed bill certainly will deprive the CNMI of its ability to 
respond effectively and promptly to the economic and alien workforce 
changes resulting from international trade challenges, a declining 
tourist market, and other macroeconomic factors. Instead of an 
arbitrary ten-year deadline, the transition period should terminate 
only after the CNMI has attained measurable economic milestones on the 
road ``to achieve a progressively higher standard of living for its 
people as part of the American economic community and to develop the 
economic resources needed to meet the fmancial responsibilities of 
local self-government.'' Covenant, Section 701. Because S. 1634 
threatens to undermine this fundamental tenet of the Covenant, it 
should contain provisions protecting the CNMI from the severe adverse 
impacts that might result from its enactment. At the very least, 
Congress needs to recognize the risk that its legislation may have 
serious, and unintended, adverse consequences on the Commonwealth and 
accept financial responsibility expressly for addressing those 
consequences.
    Section 6(b). Numerical Limitations for Nonimmigrant Workers.--This 
provision permits an exemption from the numerical limitations for H-2B 
temporary workers, but only for the ten-year transition program. The 
assumption that the CNMI could operate without access to such temporary 
workers is wholly unrealistic for such a small island community, where 
the economy is very different from communities of similar size on the 
Mainland, which can draw on a work force of citizens and aliens (legal 
and illegal) from a much larger area and population. If any transition 
were based on measurable economic and infrastructural benchmarks 
reflecting progress towards the American standard of living as 
envisioned in Covenant Section 701, the limit of the use of temporary 
workers might be gradually adjusted in a more rational and measured 
manner.
    Section 6(c)(2). Family-Sponsored Immigrant Visas.--This provision 
opens the door for more family-sponsored immigrant visas than 
appropriate for the CNMI. Leaving these decisions to federal officials, 
even after ``consultation'' with CNMI officials, raises considerable 
risk. If family-based immigrants are not employed, they will generate 
more demand on the Commonwealth's public services, most of which are 
not reimbursed by the federal government to the same extent that they 
are in the 50 states. To the extent that the new immigrants sought and 
obtained jobs, they could be impeding the development of the skills of 
the indigenous peoples. This is an example where federal control is 
wholly unnecessary. Any legitimate federal interest here could be met 
by letting the Commonwealth decide how many family-sponsored immigrants 
should be admitted subject to appeal to federal authorities if the CNMI 
acted in an arbitrary and capricious manner.
    Section 6(c)(3). Employment-Based Visas.--This provision for 
employment-based immigrant visas links permanent legal residence in the 
United States with the entry of alien workers for legitimate employment 
needs in a way that radically departs from the principles underlying 
the federal immigration laws.
    Under the federal laws even skilled workers are admitted on a 
nonimmigrant basis without any assurance that ultimately the worker 
will obtain lawful permanent residence. The most familiar example is 
the H-1B category which permits employers to hire nonimmigrants in 
specialty occupations. These visas are valid for the period of 
employment of up to three years. The visa can be renewed, in which 
event the worker can have H-1B status for a maximum continuous period 
of six years, after which the worker must remain outside the U.S. for 
one year before another H-1B petition can be approved.
    There is no reason why the CNMI should be limited to fulfilling its 
employment needs, for skilled or semi-skilled workers, with only 
immigrants admitted for lawful permanent residence in the United 
States. S. 1634 overlooks various practical aspects of any such 
employment-based immigrant program. For example, if one employer has 
invested in hiring an employee in this category, transfer to another 
employer should be restricted to some extent. In addition, what is the 
employer to do if the immigrant worker proves to be incompetent, 
dishonest, or simply lazy? If permanent residence has already been 
granted, what enforcement mechanisms exist to ensure that the 
expectations of both the employer and the community are met? Problems 
of this kind illustrate the troublesome nature of this unprecedented 
program and argue strongly for meeting the employment needs of the CNMI 
separately from the decision as to who should be entitled to the status 
of lawful permanent resident of the United States.
    Section 6(d). Nonimmigrant Investor Visas.--S. 1634 provides that 
long-term investors in the CNMI may be entitled to nonimmigrant 
investor visas under the federalized program. This contrasts with the 
immigrant status afforded to the alien workers employed by these 
investors. Under the United States investor program, U.S. citizenship 
is available for investors who make particular kinds of investment in 
the United States. There is no reason for discriminating against the 
comparable investors in the CNMI. If they wish it, they should be 
entitled to the same lawful permanent resident status in the United 
States as the employees entering the CNMI.
    Section 6(f).--This section provides that the proposed legislation 
shall, on the transition program effective date, supersede and replace 
all laws, provisions, or programs of the Commonwealth relating to the 
admission of aliens and the removal of aliens from the Commonwealth. 
This scope of this provision is uncertain. The creation of a federally 
controlled guest worker program under S. 1634 would seem to preempt all 
CNMI laws and regulations relating to the workforce in the 
Commonwealth. It is also confusing with respect to the CNMI special 
visitor visa programs, which are expected to continue under the terms 
of S. 1634.
    Section 6(h).--This provision of S. 1634 defines a category of 
long-term employees who will be entitled, along with their spouses and 
children, to lawful nonimmigrant status. This status will enable these 
persons, if they meet certain other background and medical tests, to 
establish residence as a nonimmigrant anywhere in the United States and 
its territories and possessions.
    This is one of the most troubling provisions in S. 1634. It is 
based on the assumptions that these ``workers'' who have resided in the 
CNMI for five years have contributed to the economic development of the 
CNMI; that they have accordingly built up ``equities'' that entitle 
them to remain in the CNMI if they wish (or move to other parts of the 
United States); that they have nowhere else to go and therefore are 
subject to exploitation in the Commonwealth; and that the federal 
government should intervene on their behalf and let them remain in the 
Commonwealth if they wish to do so.
    The Commonwealth basically disagrees with these assumptions. The 
contention that these alien workers have ``no place to go'' and 
therefore are entitled to remain in the CNMI is no more true than with 
respect to the Samoans who work in the tuna factories of American Samoa 
or the Mexicans who work in the fields or cities of the United States. 
These aliens are always free to return to their country of origin. In 
fact, many of the long-term Filipino workers in the Commonwealth 
regularly visit their families in their home country.
    Section 6(h) imposes on the indigenous peoples of the CNMI a non-
indigenous population that may amount to as many as eight thousand 
persons--approximate one-fourth of the number of local U.S. citizens in 
the Commonwealth. Discussion of this proposal has elicited two main 
concerns.
    One concern addresses the problems that may arise if many of these 
new lawful alien residents elect to stay in the Commonwealth. Some of 
them may no longer be employed, or employable, and will therefore 
present the same kind of financial burden on the Commonwealth as has 
been the case with the Micronesians who moved to the CNMI under the 
Compact provisions agreed to by the United States without consultation 
with the CNMI. If this provision remains in S. 1634 and is enacted, the 
Congress should expressly provide that the Commonwealth will be 
reimbursed annually for the costs associated with providing public 
services to this group of residents.
    The second concern emphasizes the likelihood that all in this group 
who can afford to leave the CNMI will do so--for the greater range of 
jobs and higher wages in Guam or the Mainland. If so, many employers 
expect to have a sudden and extensive need for new employees to fill 
these vacancies and believe it will be unlikely that these positions 
can be filled with suitable replacements from the local resident 
workforce in the near term.
    In order to address these concerns, this provision should be 
amended to reduce the number of the persons (``workers'') given this 
new status. One way to accomplish this would be to provide that the 
term of lawful residence in the CNMI should be fifteen years rather 
than five.
    Visa Waiver Program under Section (b).--The visa waiver provisions 
contained in S. 1634 are seriously defective. Ultimate control rests 
with the Department of Homeland Security and the statutory provisions 
requiring consultation among the various federal agencies will prevent 
the CNMI from responding promptly to new visitor industry initiatives.
    In addition, these provisions are based on the Guam visa waiver 
program, which is more lenient than the current CNMI waiver program. 
For example, Guam allows waivers for two countries that have militant 
groups hostile to the United States. The Guam program is also unable to 
deal with those aliens who enter under its waiver program but do not 
depart as required under the terms of their entry.
    The proposed bill permits an alien to stay in the CNMI for only 30 
days. But visitors to Guam and the rest of the United States can have 
long-term visitors that help their economy. There is no rational basis 
for denying the Commonwealth the same opportunity.
    The proposed bill requires a bond for every alien visitor. This is 
far too restrictive. The CNMI visitor program has less than a one 
percent violation rate; it is far more effective than the federal 
program, which has a 40% violation rate.
    Section (d). Special Provision to Ensure Adequate Employment; 
Northern Mariana Islands-Only Transitional Workers.--This section 
provides the details regarding the transitional program during the ten 
year transition period. Subsection (2) gives the Department of Homeland 
Security broad discretion to decide on the number, terms, and 
conditions of permits ``to be issued to prospective employers for each 
nonimmigrant worker who would not otherwise be eligible for admission 
under the Immigration and Nationality Act.'' Even assuming this 
Department has the necessary expertise to make these judgments, the 
provision indicates the kind of micromanagement of the CNMI economy by 
federal officials that is unnecessary and unprecedented. An 
alternative, more respectful of the Covenant's guaranty of local self-
government, would be to authorize the Governor of the Northern Mariana 
Islands to decide these matters subject to review by DHS to ensure that 
its national security concerns have been suitably addressed.
    Section (d)(3).--This subsection provides that the Secretary of 
Homeland Security is authorized to establish and collect appropriate 
user fees from the employer of such an alien. In short, the federal 
officials not only replace local decision-makers on these critical 
economic matters but also appropriate the fees that under the current 
system are paid to the Commonwealth in a very significant amount (about 
five million dollars). If the costs of the transitional program are to 
be fully covered by the fees paid to the Secretary of Labor, the result 
will be devastating to local businesses. The fees currently required of 
employers in Guam are about three times the amount required under CNMI 
laws. If compelling federal interests require enactment of a law such 
as S. 1634, then the costs should be fully borne by the federal 
government (not by local employers) and it is the responsibility of the 
agencies involved to calculate those costs and present them to Congress 
before it enacts the legislation.
    Section (d)(5)(A).--This subsection permits temporary workers in 
the transition program to transfer between jobs without the permission 
of the employee's current or prior employer. This provision is a 
significant departure from the U.S. laws governing H-2B nonimmigrant 
temporary workers on the Mainland, which make transferring to another 
employer nearly impossible. If transfers are freely granted without the 
sponsoring employer's consent, petitioning employers could spend 
significant resources to locate, recruit, and process suitable 
employees, only to have them quickly transfer to another employee. We 
see no reasoned basis for discriminating against the CNMI in this 
fashion.
    Section (d)(5)(B).--This provision assigns to the sole discretion 
of the Secretary of Homeland Security the decision whether a business 
in the CNMI is legitimate and to what extent it may require alien 
workers. States in the United States are allowed to enact their own 
laws defining lawful businesses and the CNMI should have the same right 
to local self-government.

    Senator Akaka. Thank you very much for your testimony, 
Governor.
    Now we'd like to hear from Mr. Guerrero.

  STATEMENT OF JUAN A. GUERRERO, PRESIDENT, SAIPAN CHAMBER OF 
                            COMMERCE

    Mr. Guerrero. Hafa Adai, Mr. Chairman.
    Senator Akaka. Hafa Adai.
    Mr. Guerrero. I'm Juan T. Guerrero, current president of 
the Saipan Chamber of Commerce. I represent the chamber's 167 
members. I'm honored to testify before this committee a second 
time concerning the potential extension of Federal immigration 
laws to the Commonwealth of the Northern Mariana Islands.
    When I testified before this committee in February of this 
year, I discussed the concerns of the Commonwealth business 
community with regard to the application of Federal immigration 
laws to the islands and I appealed for an opportunity for the 
Commonwealth to work together with the Federal Government to 
address Federal concerns in a manner that recognized local 
realities. At the same time, Lieutenant Governor Timothy P. 
Villagomez asked this committee for a careful and independent 
study of the CNMI by the Government Accountability Office. The 
Resident Representative to the United States, Pedro A. Tenorio, 
also asked this committee that a joint congressional, 
administrative, and Congress study group be formed to enable 
careful study, deliberation, and consultation prior to the 
enactment of Federal legislation affecting the Commonwealth's 
immigration policies. I'm even informed that some Senate 
members have expressed a desire for such a study prior to the 
enactment of any Federal law.
    But such a study is not happening and the chamber must 
object to that. A few Congressional staff members visited the 
islands for a few days after the February hearings. They 
solicited comments. They told us that there was no draft 
immigration legislation for us to review or comment on at that 
time. They told us to hurry up with any suggestion we may have 
because, as they phrased it, ``the train is leaving the 
station.'' The visit made headlines, but it was not the serious 
study that so many have asked for, that the people of the 
Commonwealth deserve.
    The reason that a careful study prior to the implementation 
of Federal legislation is so important is that there is so much 
rhetoric, so much false accusation, and so much emotion 
associated with what is granted the CNMI under the covenant and 
how our local economy was developing. It is critical at this 
moment in the Commonwealth's history that the U.S. Congress put 
the brakes on a process that seems to be plowing ahead with 
regards for facts or consequences.
    There is absolutely no compelling reason why immigration 
reform of this massive scope must take place on a few tiny 
islands in the middle of the Pacific Ocean without the Federal 
Government first commissioning a dispassionate and careful 
study of the program and processes currently in place in the 
Commonwealth, a review of what is working and what is not, and 
consideration of how to best fix what may need repair without 
needlessly destroying our economy and our way of life.
    There has been over the past 2 decades an enormous amount 
of inflammatory information published in the national and 
international media concerning the CNMI. This information has 
formed world opinion of the Commonwealth. It may even help form 
some of your or your colleagues' opinions of the Commonwealth. 
The vast majority of it is simply wrong. You must not allow a 
process predicated on such misinformation to proceed unchecked.
    The chamber is sympathetic to the homeland security 
concerns of the Federal Government. We absolutely do not object 
and in fact we welcome Federal voter protection in the 
Commonwealth. We will also be happy to have Federal officials 
work with our local government to increase the effective 
enforcement of our local labor law and immigration laws. We 
believe this can be accomplished without Federalization and we 
believe it can be accomplished within the letter and the intent 
of the covenant.
    While the chamber is sympathetic to the plight of many 
nonresident workers whose standards of living in their home 
countries may cause a desire for local non-immigrant status in 
the United States, we must urge that no such status be granted 
anyone without careful contemplation of the economic 
consequence of allowing tens of thousands of foreign 
individuals the right to a long-term residency. The Federal 
Government cannot expect the Commonwealth to shoulder what 
would be an enormous financial burden created solely by virtue 
of Federal legislation.
    The granting of Federal immigration status to a group of 
almost 8,000 long-term employees in the Commonwealth also 
raises the very likely possibility that legislation purporting 
to aid the local industry would actually have the opposite 
effect. The Commonwealth law was never developed with the 
potential grandfathering of thousands of workers and tens of 
thousands of their family members as lawful immigrants in mind. 
It is simply wrong to impose this on the people and the 
businesses of the Commonwealth in the retroactive manner 
contained in the draft legislation.
    We are currently experiencing dramatic and emotional debate 
in the Commonwealth as a result of the particular proposal 
which was introduced by the Federal Government. It is unfair to 
the employers and citizens of the Commonwealth, as well as 
nonresident workers, to ignore the very real and dramatic 
effect that immigration status will have on tens of thousands 
of human lives. I am very sympathetic to the plight of the 
nonresident workers.
    For this, if for no other reason, you must stop and weigh 
the heavy consequences of your action with regard to this 
section of the proposed legislation before proceeding further 
down the path.
    It isn't fair that certain Federal officials created and 
raised the issue of likely Federal immigration status for 
nonresident workers in an effort to bolster support for Federal 
immigration control in whatever quarters they would. This has 
taken, Mr. Chairman, a life of its own back home.
    I once again plead with this committee to study the likely 
impact of this legislation before it is enacted, and not after. 
It is manifestly unfair to the people of the Commonwealth, 
United States citizens, for this Congress to impose a law on 
the islands that would not only wreak havoc with our labor pool 
and our tourism industry, but will also dramatically alter the 
quality and nature of life, the demographic makeup, and the 
right to local governance, over issues that we negotiated and 
agreed to in the covenant.
    The chamber will be pleased to provide more information and 
answer questions that might be of assistance to this honorable 
committee. Si Yu'us Ma'ase and thank you, Mr. Chairman.
    [The prepared statement of Mr. Guerrero follows:]
   Prepared Statement of Juan T. Guerrero, President, Saipan Chamber 
                              of Commerce
    Hafa Adai, Mr. Chairman and Members of the Committee. I am Juan T. 
Guerrero, current president of the Saipan Chamber of Commerce. I 
represent the Chamber's 167 members and am honored to testify before 
this Committee a second time concerning the potential extension of 
federal immigration law to the Commonwealth of the Northern Mariana 
Islands.
                              introduction
    When I testified before this Committee in February of this year, I 
discussed the concerns of the Commonwealth business community with 
regard to the application of federal immigration law to the islands, 
and I appealed for an opportunity for the Commonwealth to work together 
with the federal government to address federal concerns in a manner 
that recognized local realities. At the same time, Lieutenant Governor 
Timothy P. Villagomez asked this Committee for a careful and 
independent study of the CNMI by the Government Accountability Office. 
Resident Representative to the United States Pedro A. Tenorio also 
asked this Committee that a joint congressional, administrative, and 
CNMI study group be formed to enable careful study, deliberation, and 
consultation prior to the enactment of federal legislation affecting 
the Commonwealth's immigration policies. It saddens me to report that 
the apparent response to our testimony and our requests was a few-day 
visit to the islands by three congressional staffers, one of whom has a 
well-documented and long-standing history of animosity towards the 
government of the Commonwealth, and a new Senate bill, 1634, that does 
little to address the concerns of those of us whose lives and 
livelihoods hang in the balance.
                               discussion
    Over the past 24 years, the Commonwealth has administered a labor 
and immigration program, that was designed and agreed upon by the 
federal and local governments to address the unique labor and tourism 
needs of the islands, consistent with the letter and intent of the 
Covenant to Establish a Commonwealth of the Northern Mariana Islands in 
Political Union with the United States of America. This program was 
not, and is not, intended to be parallel to or wholly consistent with 
the federal immigration and naturalization policies and objectives of 
the United States. The Covenant, and related laws, contemplated and 
provided for unique treatment of tourism and labor issues singular to 
the Commonwealth. Now, 29 years after the implementation of the 
Covenant, the Commonwealth is being taken to task by staff members of 
the United States Congress for not fulfilling some apparently unstated 
objectives of the federal government and for allegedly abusing this 
system in a manner that has not violated the Covenant, or the 
federally-approved CNMI Constitution, or federal laws, or local laws.
    There was an observation in 1998 that the CNMI labor and 
immigration system ``is broken and cannot be fixed locally.'' This has 
been proven wrong. As more fully addressed in my February testimony, 
Lieutenant Governor Villagomez's February testimony, as well as the 
CNMI government's response to the ``24 questions'' in March of this 
year (attached as Appendix I to the February 8, 2007 hearing transcript 
of this Committee on Conditions in the Commonwealth of the Northern 
Mariana Islands), the Commonwealth has made great strides in 
proactively discouraging labor and immigration abuses, as well as in 
the investigation and prosecution of alleged abuses. In comparison with 
the unmitigated immigration control failures of the mainland United 
States during the same time frame, the marked improvements in the 
locally-administered Commonwealth immigration program should be 
acknowledged and fostered.
    There is a reason that you have heard many requests for serious 
study of the overall issues facing the Commonwealth before the United 
States Congress continues to legislate our future--requests from the 
Chamber of Commerce, from the local administration, from our Resident 
Representative, and in written form from individuals, as well as a 
local group that collected hundreds of signatures of both United States 
citizens and non-resident workers. The reason that there is much clamor 
for such a study is that so many people believe it is impossible for 
this Committee or the United States Congress to formulate sound policy, 
or even to determine if federal policy needs to be formulated at all, 
without the benefit of an impartial, unbiased, and current review of 
the Commonwealth's strengths and weaknesses. All of the testimony you 
have heard and read, including my own, comes from specific viewpoints 
and with certain hopes and expectations. If you do not have access to 
underlying facts, how can you move forward in a fair fashion? While we 
appreciate the congressional staffers' brief visit to the Commonwealth 
following the last hearing, we doubt it yielded much more than 
additional opinion. What is needed before Congress can continue is the 
serious and comprehensive study that has been asked for from many 
quarters--not additional opinion.
    While media reports might lead the uninformed to believe otherwise, 
the CNMI government and its agencies have worked closely with various 
agencies of the federal government for 24 years, in an attempt to 
ensure that programs designed to stimulate economic growth did not 
condone, promote, or tolerate labor abuses. The Commonwealth's foreign 
worker program solves a labor shortage problem with respect to many job 
categories and provides attractive employment opportunities for foreign 
workers who earn many of times what they would earn in their home 
countries, at salaries that are affordable to local businesses 
struggling to survive in an isolated and depressed economy, and which 
jobs would be unattractive to mainland workers at the prevailing wages. 
Workers are free to transfer to different employers with the consent of 
their current employer, or may unilaterally choose to transfer at the 
end of their contract period (which is usually one year). Workers enjoy 
all legal protections available to United States citizens, and in some 
respects, even more. All employers are required to provide medical 
coverage for non-resident employees, and are also required to provide 
return airfare to each non-resident employee's country of origin at the 
termination of each employee's contract term if that employee desires 
to return home. All of this information has been disclosed on many 
occasions, in many forms, by many individuals and groups. There is 
little more that I can add to the detailed testimony offered by the 
local administration, the Chamber, and others at the February hearing, 
as well as in other forums with federal officials, other than a plea 
that you study and consider facts and not tired, biased, and 
demonstrably false allegations.
    Allen Stayman has referred to our local immigration and labor 
departments as ``essentially organized crime.'' To suggest that 
trafficking, prostitution, or other human rights abuses are the result 
of the policies, procedures, or efforts of the CNMI government is 
irresponsible, false, and unbecoming of a federal official. As I 
pointed out in February, there occurs, in the mainland United States, 
frequent and well-publicized human trafficking, with related 
prostitution and human rights abuses. No one, including me, would 
suggest that these terrible acts, committed by criminals, are somehow 
the fault of the Immigration and Naturalization Service, or that law 
enforcement agencies are turning a blind eye. It is unfair and 
disingenuous for Mr. Stayman to ascribe broad criminal intent and/or 
behavior to our local government as a result of similar individual 
unfortunate events that may occur in the Commonwealth. There will 
always be bad people who commit criminal acts. The most we can expect 
of any government is that best efforts are made to deter such behavior, 
and vigorous prosecution occurs whenever such behavior is uncovered. 
That is what happens in the Commonwealth, both at the local and federal 
levels.
    While there has been much discussion that ``federalization'' is the 
only option, there is simply no empirical evidence that the 
Commonwealth's immigration system can be more effectively run through 
federal offices than by retaining local control for purposes of 
administering a tourism-based and employment-based immigration program. 
Our economy is small and fragile. The much-improved processes and 
procedures in the Commonwealth allow for nimble adjustment to the ever-
changing needs and requirements of the countries from which workers and 
tourists originate. Unlike the mainland United States, the Commonwealth 
will not have the luxury of waiting for federal machinery to gear up 
and effectuate changes required by any country or in response to the 
needs of that country's citizens--those travelers will simply opt to 
travel to another Pacific-rim tourist destination with less onerous and 
time-consuming visit requirements for vacationing. If the well-
publicized visa delays currently being experienced by many visitors to 
the United States were to occur in the CNMI, the results would be 
disastrous to the tourism industry and the business community as a 
whole.
    It has been suggested that the Chamber, in February, opposed any 
``U.S. action'' with respect to improving our local labor and 
immigration processes. In the Chamber's written testimony, we averred, 
``across-the-board imposition of federal law . . . will [not] solve any 
problems, real or perceived, that may exist in the CNMI.'' More 
importantly, I stated that the Chamber ``look[s] forward to an 
opportunity to work with federal officials to reach agreement on these 
important issues in ways that answer the concerns of all interested 
parties without destroying our local economy.'' And while I agreed with 
the Honorable Chairman's characterization that the Chamber opposed any 
legislated changes with regard to federal authority over local 
immigration policy, the Chamber has never opposed, but in fact has and 
does support, working with the federal government to address any 
legitimate concerns. The testimony submitted in February, and answers I 
gave, were made in the absence of any draft immigration legislation and 
under the assumption that any ``federalization'' would be pursuant to 
Section 503 of the Covenant, which seems to permit the application of 
existing federal immigration and naturalization laws to the 
Commonwealth, but not the crafting of new federal law specific solely 
to our island community. The Chamber did and does object to any such 
across-the-board imposition of federal immigration law to the CNMI, 
especially in the absence of any serious consultation and study.
    The Chamber fully supports the enforcement of border protection by 
the federal government. This is a component of an overall immigration 
program that is distinct from the Commonwealth's ongoing need to 
control locally the admission of foreign workers as well as visitors. 
The federal government's border patrol obligations are explicitly 
contemplated in the Covenant. Federal control of local visa programs is 
not.
    The ``grandfather clause'' contained in the Senate bill 
contemplates allowing workers who have lived in the Commonwealth for 
more than five years prior to the enactment of the law the right to 
``lawful nonimmigrant'' status. Such action allows these individuals 
the right to remain in the Commonwealth (or, for that matter, relocate 
to the mainland United States) for purposes of living and working. This 
action would allow the right to immigrate family members to the 
Commonwealth under ``immediate relative'' status. Such status would be 
renewable by those individuals every five years. They would not be 
eligible to vote or to receive federal entitlements, such as Medicaid/
Medicare, federal scholarships, and the like. We have estimated that 
approximately 8,000 current workers in the Commonwealth would qualify 
for such status. There are two possible outcome scenarios under this 
grandfather clause, and neither is good. The implications of allowing 
almost 8,000 individuals, who are currently required to return to their 
countries of origin when they are no longer able to obtain employment 
in the islands, to remain--and to immigrate immediate relatives to join 
them, for the long-term--are profoundly negative for the Commonwealth. 
These tens of thousands of lawful nonimmigrants would be given the same 
preference for local jobs that this Senate has repeatedly claimed to be 
attempting to protect for United States citizens. These lawful 
nonimmigrants and their families would prove an immense burden on the 
local infrastructure in a way, and to a degree, that was never 
contemplated by--nor allowed--under the Commonwealth's existing guest 
worker program. In addition to our objection to the apparent intent to 
amend the Commonwealth's Covenant-sanctioned immigration program ex 
post facto, we note that there seems to be absolutely no congressional 
contemplation of the funding for the enormous costs that would 
certainly be shouldered by the Commonwealth in such an event.
    There is another possibility concerning these individuals who would 
be granted lawful nonimmigrant status and who would be able to travel 
freely to and work in the mainland. They could simply move to the 
continental United States in search of higher-paying job opportunities 
than exist in the Commonwealth, thereby depriving the vast majority of 
local employers of the qualified and experienced labor pool that they 
have, for years, paid and treated fairly in accordance with CNMI law 
under the provisions of the Covenant. Aside from the implications for 
the United States of allowing the immigration of thousands of foreign 
nationals to the mainland, which is not the concern of the Commonwealth 
government or business community, it would prove a tremendous blow to 
business in the Commonwealth. While we have heard your staff's concerns 
with ``fairness issues,'' we believe (except when employers violate the 
law), that the business community and the local government have treated 
these individuals fairly. Non-resident workers are hired for limited-
duration contracts, which may be, and usually are, renewed on an annual 
basis. There has never been any promise of permanent residency, or any 
other federal immigration status. These workers have, for the most 
part, elected to remain in the Commonwealth and work for wages, and 
under conditions superior to other alternatives they have. Those who 
have received better offers have left. ``Unfairness'' has been created 
by federal officials who raised the issue of ``likely'' federal 
immigration status for non-resident workers in an effort to bolster 
support for federal immigration control in whatever quarters they 
could.
    To a large degree, our most serious reservation with the Senate 
bill is that it appears to legislate through yet-to-be-determined 
regulation. While we have no doubt that this Committee and this 
Congress have only the best intentions, and the best interests of the 
Commonwealth at heart, we must object to any legislation that places so 
much power with so little congressional direction in the hands of 
future cabinet secretaries.
    In January of this year, David Cohen spoke at the Chamber's 
inaugural dinner and noted,

          I was at a meeting the other day, and one of our local 
        legislative leaders remarked that at most, only 20 percent of 
        the Members of Congress have even heard of the CNMI. And I 
        thought to myself, `That's the good news; the bad news is that 
        that 20 percent has only heard about the CNMI because they read 
        Ms. Magazine.' Most Americans who have any sort of impression 
        at all about these islands have the wrong one.

    Mr. Cohen's apt comments about the power and impact of biased and 
misleading reporting sum up my feelings about the negative and untrue 
publicity that continues to parade as ``fact.'' We have asked for 
serious study by an independent government agency, the General 
Accountability Office, before the finalization of any legislation. What 
we received instead was no study by anyone and a bill apparently not 
based on our current reality that commits significant issues to future 
determination by unknown appointed federal officials.
                               conclusion
    I, once again, plead with this Committee to study the likely impact 
of this legislation before it is enacted, and not after. It is 
manifestly unfair to the people of the Commonwealth--United States 
citizens--for this Congress to impose a law on the islands that will 
not only wreak havoc with our labor pool and our tourism industry, but 
will also dramatically alter the quality and nature of life, the 
demographic make-up, and the right to local governance over local 
issues that we negotiated for and agreed to in the Covenant.
    The Chamber would be pleased to answer any questions or provide 
further information that might be of assistance to this Committee.
    Si Yu'us Ma'ase, Olomwaay, and Thank You.

    Senator Akaka. Thank you very much, Mr. Guerrero, for your 
statement.
    Now we'll hear from Pedro Tenorio and your statement.

     STATEMENT OF PEDRO A. TENORIO, OFFICE OF THE RESIDENT 
  REPRESENTATIVE, COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Tenorio. Aloha, Senator, and Hafa Adai from the people 
of the Commonwealth. Thank you for this opportunity to share 
with you my thoughts on this most important piece of 
legislation, which will have profound effects on the 
Commonwealth of the Northern Mariana Islands. Before I get into 
the specifics, I would like to express my deep appreciation to 
this committee, the Secretary of the Interior, and the Office 
of Insular Affairs for their hard work and for including our 
recommendations in the drafting of this bill. While I have a 
few comments, overall I believe that this bill is a significant 
step forward in addressing the concerns I outlined before this 
committee's February 8 oversight hearing.
    As I stated at that hearing, there has been no improvement 
in our economic condition and the outlook remains gloomy. We 
are bracing for more garment factory closures, layoffs in 
public and private sectors, and government revenue and tax 
collections continue to decline. We have few options for 
improving our economy with outside assistance. I request on 
behalf of our people for your generosity and understanding of 
our plight.
    The implementation of section 503 of the covenant is 
expected to bring long-term benefits and stability. 
Specifically, it will provide stability and confidence to 
investors, secure current and future tourist markets, provide 
for a closely monitored transition program that will ensure we 
have uninterrupted access to the needed skilled work force.
    As a member of the Marianas Political Status Commission 
which negotiated the Covenant, I can say with great confidence 
that it was our intention that nonresident workers would be 
employed only to supplement our local work force. 
Unfortunately, however, it has become obvious that nonresident 
workers have supplanted our local work force in the private 
sector, creating a wholly unsustainable economy.
    When we were negotiating the Covenant, we were concerned 
about immigrants to the U.S. overrunning our indigenous 
population, but our control of immigration has led us to this 
end. I hear reports daily about overstaying workers and phony 
employment scams. I do not believe that our track record speaks 
to an effective system of monitoring a nonresident work force 
or providing protections for our resident work force. We need a 
major course correction to protect the indigenous population 
from losing the promise of achieving the American dream 
entrenched in our Covenant.
    Implementing this act will fulfill our joint commitment and 
obligation to the Covenant. The Covenant was entered into in 
good faith and I as a negotiator intend to honor that 
commitment. Many people in the CNMI fear the outcome of Senate 
bill 1634. They fear political and social elimination as well 
as the loss of their homeland. However, I feel in reality we 
face this already. If things do not change, we are at the 
greatest risk of losing our culture, our way of life and 
control over our own destiny, if we have not already.
    Many local families are leaving the CNMI for Guam, Hawaii, 
or the U.S. mainland because just surviving in the CNMI is too 
difficult. I have recently learned that every year, nearly half 
of our high school graduating seniors enlist in the U.S. armed 
services. Many of them enlist out of a deep sense of duty and 
patriotism, but some of them enlist because there are simply no 
employment options for them in their homeland.
    Mr. Chairman, I see this bill as a mechanism for restoring 
the CNMI to the Chamorrans and Carolinians who have always 
called it home. I believe that Senate bill 1634 is a good 
beginning. However, I have a few suggestions, which you can 
find in my written testimony. These are to strengthen the bill 
so that we can regain the CNMI as the homeland for its 
indigenous population.
    Today I will mention just three. I want to emphasize the 
critical importance of section 3(e) of the bill. There's no 
doubt that we need to invest in training for residents to 
prepare them for jobs currently held by nonresidents. While 
this is included in the current language of the bill, I would 
like to see specific funds dedicated to areas that require 
formal training that leads to certification in the various 
trades and technical fields.
    We must invest in our educational system to produce skilled 
workers from our own people. Without these funds and this 
training, I feel that this legislation will also lead to a 
failed policy in the CNMI.
    Second, I would like to see throughout this bill a greater 
role for the CNMI government before, during, and after this 
transition period. I fear that decisions made here in 
Washington will not thoroughly embrace the needs and true 
situation being faced in the CNMI. I therefore urge your 
committee to conserve and promote maximum local self-government 
by a direct engagement of our own government in deciding what 
is needed and what is best for us.
    Third, as you know, unlike the other territories, we do not 
have a delegate in the House. Since this bill is named the 
``Covenant Implementation Act,'' perhaps it could address other 
areas of the Covenant that are yet unfulfilled, such as section 
901, and add language in this bill that would provide for a 
nonvoting delegate in the House of Representatives.
    Mr. Chairman, in addition I have attached a letter to 
Senators Bingaman and Domenici from a majority of the members 
of the CNMI legislature in support of the seven items I 
delineated in my February 8 testimony, a supportive statement 
from an additional CNMI senator, as well as Senate Joint 
Resolution 15-17 in support of a nonvoting delegate for the 
CNMI, and a letter from a fellow former Covenant negotiator are 
also attached.*
---------------------------------------------------------------------------
    * Attachments have been retained in committee files.
---------------------------------------------------------------------------
    I believe that the people of the CNMI are ready for 
positive change and to work in partnership with the Federal 
Government to turn our Commonwealth around and rebuild a 
Chamorro and Carolinian homeland. Thank you, Mr. Chairman, and 
I'm ready for questions.
    [The prepared statement of Mr. Tenorio follows:]
    Prepared Statement of Pedro A. Tenorio, Office of the Resident 
      Representative, Commonwealth of the Northern Mariana Islands
    Hafa Adai, Mr. Chairman, Senator Domenici, and Members of the 
Committee. Thank you for this opportunity to share with you my thoughts 
on this most important piece of legislation which will have profound 
affects on the Commonwealth of the Northern Mariana Islands. Before I 
get into the specifics, I would like to express my deep appreciation to 
this committee, the Secretary of the Interior and the Office of Insular 
Affairs for their hard work and including our recommendations in the 
drafting of this bill. While I have a few comments, overall I believe 
that this bill is a significant step forward in addressing the concerns 
I outlined before this committee's February 8th oversight hearing.
    As I stated at that hearing, there has been no improvement in our 
economic condition and the outlook remains gloomy. We are bracing for 
more garment factory closures, layoffs in both the public and private 
sectors, and government revenue and tax collections continue to 
decline. We have few options for improving our economy without outside 
assistance. I request on behalf of our people, for your generosity and 
understanding of our plight.
    Although many individuals in the CNMI will be making more due to 
the implementation of federal minimum wage, many families will be 
losing a wage earner due to the loss of jobs. I am greatly concerned 
about the ongoing degradation in the quality of life in our islands. 
The cost of living continues to increase and we lack common American 
social welfare safety nets such as unemployment benefits and Temporary 
Assistance to Needy Families. While the implementation of Section 503 
of the Covenant is expected to bring long term benefits and stability, 
I would like to bring to the Committee's attention, that the immediate 
future offers little hope in improving the livelihood of our people.
    As a member of the Marianas Political Status Commission which 
negotiated the Covenant, I can say with great confidence that it was 
our intention that non-resident workers would be employed only to 
supplement our local workforce. Unfortunately, however, it has become 
obvious that non-residents have supplanted our local work force in the 
private sector, creating a wholly unsustainable economy. When we were 
negotiating the Covenant we were concerned about immigrants to the U.S. 
overrunning our indigenous population, but our own control of 
immigration has led us to this end. I hear reports daily about 
overstaying workers, and phony employment scams. I do not believe that 
our overall track record speaks to an effective system of monitoring a 
non-resident workforce or providing protections for our resident 
workforce. We need a major course correction to protect the indigenous 
population from losing the promise of achieving the American dream 
entrenched in our Covenant.
    Many people in the CNMI fear the outcome of Senate Bill 1634. They 
fear political and social alienation as well as the loss of their 
homeland. However, I feel in reality we face this already. If things do 
not change we are at the greatest risk of losing our culture, our way 
of life, and control over our own destiny, if we have not already. Many 
local families are leaving the CNMI for Guam, Hawaii, or the mainland 
because just surviving in the CNMI is too difficult. I have recently 
learned that every year nearly half of our high school graduating 
seniors enlist in the U.S. armed services. Many of them enlist out of a 
deep sense of duty and patriotism, but some of them enlist because 
there are simply no employment options for them in their homeland.
    We are eagerly awaiting the results of the many studies and 
assessments that are currently being conducted or are scheduled to be 
conducted in the near future. Not only do I think they will reveal the 
dire state of our economy, but I am hoping they provide insight into 
ways that we can overcome and correct our economic problems and improve 
the living conditions of the people of the CNMI.
    Mr. Chairman, I see this bill as a mechanism for restoring the CNMI 
to the Chamorro and Carolinians who have always called it home. I 
believe that S. 1634 is a good beginning; however I have a few 
suggestions. These are to strengthen the bill so that we can once again 
regain the CNMI as the homeland for its indigenous populations.
    1. The New Section 6(a) of the Covenant--Immigration and 
Transition.--The bill currently calls for a transition period to begin 
one year after enactment. This seems a little ambitious, and I would 
suggest including language that would allow for a possible delay, if 
needed, to the beginning of the transition period, so as to ensure that 
regulations are not rushed and that everyone is prepared and responsive 
to the changes.
    2. The New Section 6(c)(2) of the Covenant--Family Sponsored 
Immigrant Visas.--I believe that this section is already covered by 
Section 506(c) of the Covenant and one or the other should be deleted.
    3. The New Section 6(c)(3) of the Covenant--Employment Based 
Visas.--This section would allow skilled workers to enter the CNMI as 
U.S. legal permanent residents outside of INA caps. While this would be 
an asset in helping us attract doctors and nurses, I see that it will 
become a revolving door for immigrant health care professionals 
entering the U.S. I would suggest that other provisions in the bill 
could be utilized to bring in these professionals and that this section 
be deleted.
    4. The New Section 6(d) of the Covenant--Nonimmigrant Investor 
Visas.--With the current on-going economic downturn in the CNMI, I 
respectfully request that this section include language that would 
allow for easy processing of new investors into the CNMI.
    5. The New Section 6(h) of the Covenant calls for a one time 
grandfather provision for certain long-term employees. This is probably 
the most controversial and discussed section of this bill, and while 
there are no compromises that will make everyone happy I would like to 
share a few thoughts on this topic.
    I appreciate OIA's and the committee's intent to preserve the 
political and cultural rights of the indigenous populations in the 
CNMI, but I do not feel that this section truly addresses the problems 
at hand. We need these long staying non-resident workers as much today 
as we did when they were hired. The change of status for potentially 
thousands of these workers early in the transition period could leave 
us without a workforce if they exercise their option to leave 
immediately. Although this bill allows for a temporary guest worker 
program, I would like to see the transition period utilized to train 
and place as many indigenous persons into our private sector as 
possible. During this time I hope that we can refocus our educational 
system on training and skill development for our local people so they 
are ready to assume jobs currently held by non-residents, stabilize our 
economy, and build the Commonwealth we envisioned when we negotiated 
the Covenant.
    6. Section 3(b) would grant a visa waiver program for the CNMI. 
This is vital to begin the recovery of our tourism economy. While 
countries are not specifically named, this would allow tourists from 
China and Russia to visit the CNMI the two potentially promising new 
markets that the Marianas Visitors Bureau has worked so hard to 
develop. I would like to take this opportunity to make the committee 
aware of the continued bilateral talks between the Peoples Republic of 
China and the United States. As more and more Americans wish to travel 
to China including to the 2008 Olympic Games to be held in Beijing, 
there is increased pressure for Chinese citizens to visit U.S. 
destinations. In recent bilateral talks the Chinese delegation 
expressed its desire that the U.S. Government make modifications in 
visa policy and procedures to promote travel to the United States 
including the CNMI by Chinese citizens. The Chinese delegation said 
such modifications would be conducive to expanding the bilateral air 
services agreement with a view to reaching full liberalization of air 
transport between China and the United States as the ultimate 
objective. I am attaching documents relating to these recent talks.
    The CNMI plays a vital role in meeting the U.S. obligations in this 
bilateral agreement. Allowing us to include China in a visa waiver 
program will help the U.S. meet its obligation under this agreement.
    7. Section 3(d)(3).--This section calls for the collection and use 
of appropriate user fees from employers of aliens during the transition 
period. I believe that this section is contrary to Section 703(b) of 
the Covenant, and should therefore be deleted.
    8. Section 3(e) Technical Assistance Program.--There is no doubt 
that we need to invest in training for residents to prepare them for 
jobs currently held by non-residents. While this is included in the 
current language of the bill, I would like to see specific funds 
dedicated to areas that require formal training that leads to 
certification in the various trades and technical fields. We must 
invest in our education system to produce skilled labor. Without these 
funds and this training, I feel that this legislation will also lead to 
a failed policy in the CNMI.
    9. I would like to see throughout this bill a greater role for the 
CNMI Government before, during, and after this transition period. I 
fear that decisions made here in Washington will not embrace the needs 
and true situation being faced in the CNMI.
    10. As you know, unlike the other territories, we do not have a 
Delegate in the House, so all of us in the Commonwealth appreciate your 
courtesy and willingness over the years in affording the Resident 
Representative an opportunity to speak on behalf of the United States 
citizens residing almost half way around the world. Since this bill is 
named the Covenant Implementation Act, perhaps it could address other 
areas of the Covenant that are yet unfulfilled, such as Section 901, 
and add language to this bill that would provide for a non-voting 
Delegate in the U.S. House of Representatives.
    Mr. Chairman, Senators, in addition I have attached a letter to 
Senators Bingaman and Domenici from a majority of the members of the 
CNMI Legislature in support of the seven items I delineated in my 
February testimony. A supportive statement from an additional CNMI 
Senator, as well as Senate Joint Resolution 15-17 in support of a non-
voting Delegate for the CNMI, and a letter from a fellow former 
Covenant negotiatior are also attached. I believe that the people of 
the CNMI are ready for positive change and to work in partnership with 
the federal government to turn our Commonwealth around and rebuild a 
Chamorro and Carolinian homeland.
    Si Yuus Masse, Ghilisow, Thank you.

    Senator Akaka. Thank you very much, Mr. Tenorio, for your 
testimony.
    I'd like to begin the questions by first addressing one to 
Mr. Cohen. In his testimony, Mr. Cohen, the Governor has 
emphasized the progress that his administration has made in 
responding to the labor and immigration concerns of the Federal 
Government. Do you recognize this progress, and if so, why do 
you believe legislation is still needed?
    Mr. Cohen. Thank you, Mr. Chairman. We definitely recognize 
the very significant progress that has been made in the CNMI. 
In previous testimony before this committee, I went point-by-
point listing a number of very significant developments. In 
summary, the labor situation in the CNMI in no way resembles 
the labor situation that existed in the late 1990's, several 
years ago, when you and other Senators went out to see things 
for yourselves.
    So we at the Office of Insular Affairs have been the first 
to stand up to defend the CNMI when people try to tarnish its 
image with old information. We're very sympathetic to that. But 
all of the challenges that were listed in my testimony are 
current challenges and, notwithstanding all the progress that's 
been made, there are significant challenges that still remain, 
and it's getting harder and harder for the CNMI to properly 
address those challenges, properly administer an effective 
labor and immigration system that can crack down on abuse and 
make sure that there is proper investigation and then 
prosecution of wrongdoing, simply because their government 
revenues are plunging so precipitously that it's becoming 
difficult for them to properly operate all sorts of government 
services, not only the labor and immigration system.
    So the CNMI is suffering from a lot of developments that 
are beyond its control and because of this and other reasons we 
strongly believe that it is imperative for the Federal 
Government to step in and take control of the labor and 
immigration system.
    Senator Akaka. Mr. Cohen, in your written testimony that we 
received, on page 6 you say that one of the administration's 
principles for considering legislation is that it should be 
carefully analyzed for its likely impact before implementation. 
Is the fact that studies are ongoing a reason for the committee 
to delay consideration of this bill?
    Mr. Cohen. Mr. Chairman, we would not recommend that the 
committee delay consideration of the bill. The bill that you 
introduced--as you know, the way it's drafted--it provides a 
framework within which there is considerable flexibility 
through the promulgation of regulations and the development of 
specific policies. There's considerable flexibility to have a 
significant influence on how the labor and immigration system 
will actually function under your legislation.
    So these studies are very important and very valuable. If 
this body is still considering this legislation at the time 
when some of these studies are completed, then certainly that 
could influence the legislation itself. But the intention is to 
put in place a flexible framework and the studies can inform 
the regulatory process that will really determine how all of 
this works.
    The top priority for this administration is homeland 
security and national security issues, and we're extremely 
sympathetic to the economic issues as well. Those are following 
closely behind. But homeland security and national security 
trumps everything in a post-9/11 environment. The 
justifications that we have raised for Federalization mostly 
focus in the homeland security, national security realm, and 
that's why we think it's imperative to move quickly with the 
legislation.
    It's also imperative to move quickly, frankly, because of 
points that were raised by the other witnesses, that 
uncertainty retards economic development. Since this is raised, 
since the bill has been introduced, and since many have called 
for Federalization, as long as that is hanging out there and 
people don't know what the ultimate rules of the game are going 
to be, that creates a type of uncertainty that is harmful to 
economic development. I think the business community--the 
potential investors--they would rather know quickly what the 
rules are going to be over the next few years, than to delay 
this process.
    Senator Akaka. Mr. Cohen, on your written testimony on page 
7 you emphasize that the people of the CNMI must participate in 
the decisions that affect their lives. Do you believe that this 
committee has provided properly for the participation and 
consideration of this bill?
    Mr. Cohen. Yes, sir. I think this committee has made 
excellent efforts to gauge the wide spectrum of opinion that 
exists in the CNMI. I'm gratified to hear that your counterpart 
committee in the House is actually going to go to the CNMI, and 
that will provide an opportunity to reach a lot more people and 
to hear a lot more voices, and I know you're going to get the 
input from your colleagues in the House.
    But one thing, if I could reiterate something that I stated 
in my testimony, that needs to be done in order to make sure 
that the people of the CNMI are properly represented in this 
body is to grant them a nonvoting delegate to Congress. We've 
heard arguments against it, some suggesting that somehow the 
CNMI doesn't deserve to have a delegate in Congress, and 
frankly many of us find those arguments offensive. It suggests 
that an entire people is not worthy of the same representation 
that all other communities in this country have, certainly all 
other territories and commonwealths, at a time when, as I said, 
young men and women from these communities are sacrificing 
their lives much more frequently in our current wars than 
people from the 50 States.
    So we don't believe in collective punishment. You know, if 
certain people have a problem with certain policies or things 
that occurred in the CNMI, we don't see how that provides a 
justification for denying the good citizens of the CNMI the 
voice they so desperately need, especially at a time when 
Congress is considering such important legislation that will 
affect the future of the CNMI.
    Senator Akaka. Thank you. Thank you very much for your 
responses.
    Governor Fitial, you have said you accept that mistakes 
were made in the past, but that your administration is 
committed to reforms, and you've mentioned that eloquently, to 
have, ``zero tolerance,'' for criminal behavior. However, one 
problem for the United States is that CNMI Governors and 
legislative leaders change, and with them the policies and 
commitment to reform change. You have come in and you have done 
certain things already.
    Don't you agree that Federal legislation would establish 
more stable policies?
    Mr. Fitial. I always believe in doing the right thing, and 
when I first became Governor the very first month or even 
within 2 months I abolished an agency in the government that 
was involved in so much abuses, so many abuses. That's the 
Marianas Public Land Authority. So I abolished that because 
they were wasting public funds for personal interests, and I 
established instead the Department of Public Lands and that is 
now directly under me.
    I also reorganized the Labor Department because that was 
also a source of abuses. So that's the way I am, Mr. Chairman. 
Whenever I see something wrong, I always take corrective 
action.
    My mission is to establish a new trend of administration 
for local government, a new trend that will replace the trend 
of abuses from previous administrations. I hope that whoever 
succeeds me will continue the trend that I now want to 
establish in the local government.
    Senator Akaka. Governor, on page 11 of your statement you 
say that this bill is an unprecedented extension of U.S. 
authority. Don't you agree that the United States and CNMI 
specifically agreed in the Covenant to the extension of U.S. 
immigration laws?
    Mr. Fitial. I believe in the spirit of the Covenant in 
allowing the CNMI to have a self-government that will be 
supported by the Federal Government. These principles came from 
the trusteeship agreement between the United States and the 
United Nations. The United States was tasked under the 
trusteeship agreement to promote the quality of life in the 
Northern Marianas. We were given the right to self-government. 
And if the Federal Government wants to support us, we welcome 
that support and assistance.
    But if the Federal Government wants to do my job, then 
there's no more reason for me to exist. I would like to ask the 
Federal Government to help me and not to supplant me or replace 
me, because I believe that we, the local people, would do 
better or best in correcting or solving our local problems. All 
we need is the assistance of the Federal Government and that's 
all I ask.
    Senator Akaka. Governor, I wanted to follow up on something 
that has been mentioned here, and that is to provide a delegate 
from CNMI. What are your comments about that?
    Mr. Fitial. I support that, Mr. Chairman, because I believe 
that is good, and anything that is good I always support.
    Senator Akaka. Thank you.
    Representative Tenorio, in your recommendation No. 5 you 
express concern that granting permanent non-immigrant status to 
the estimated 8,000 long-term workers in the CNMI could leave 
the CNMI without a work force because these workers can go to 
the United States. You did mention that many already have left 
the islands and gone elsewhere for jobs. Would you support an 
amendment to require that these workers remain in the CNMI for, 
say, 5 years before they could enter the United States?
    Mr. Tenorio. Thank you, Mr. Chairman. I agree with any 
proposal that would keep these non-immigrant workers who would 
be grandfathered to stay in the United States or the CNMI for a 
period that would provide for the business community to prepare 
itself toward phasing in local workers that will be trained 
during this period. I don't feel that the ability or the 
authority of the workers to be extended immediately after their 
status is granted is the right thing to do, because that would 
just allow them to move out as quickly as possible. Once they 
have enough funds for plane tickets, they would probably go to 
Guam or go to Hawaii or go to the U.S. mainland. What will 
happen then is a huge drain, an immediate drain of the local 
work force who happen to be nonresidents, and at the same time 
there is an absence of a trained local work force that can take 
the jobs immediately. This is why I think an amendment to 
obligate these new non-immigrant workers to stay longer, for 
some period until the business community can adjust itself, 
aimed at phasing in the newly trained local workers or other 
means of employing the work force that is needed.
    Senator Akaka. I know in your testimony you did mention 
about a delegate from CNMI. Do you have any further comment 
about that?
    Mr. Tenorio. I'm just very pleased to note, Mr. Chairman, 
that H.R. 3079 was just introduced last night by Chairperson 
Christiansen of the House Insular Affairs Subcommittee and also 
the Chairman of the House Resources Committee, Congressman 
Rahall. I did have some discussions in the past with the 
members of the committee and I'm gratified that the bill now 
has been introduced in the House as of last night.
    Senator Akaka. Well, I again think that this is something 
that we need to consider.
    Mr. Guerrero, on page 2 of your testimony it reads, and I 
quote: ``The CNMI has administered a labor and immigration 
program that was designed and agreed upon by the Federal and 
local governments.'' My question to you is: how do you 
reconcile this statement with the history of U.S. opposition to 
CNMI labor and immigration policies, that in 1986 the Reagan 
Administration called for--and I'm quoting from that--``timely 
and effective action to reverse the influx of alien workers''? 
In 1997, the Clinton Administration recommended legislation to 
extend U.S. immigration, and this committee has three times 
reported such reform legislation.
    So I'd like to hear a response to this, Mr. Guerrero?
    Mr. Guerrero. Thank you, Mr. Chairman. That is a very 
loaded question. In a very small island community such as the 
Commonwealth of the Northern Marianas, with a very limited 
local population work force, unless a careful study can be 
conducted, my statement at this point in time would be just 
guessing, or anybody's statement for that matter would be a 
guess.
    We know for a fact that, based on the number of the local 
work force, that we would not be able to sustain at the peak of 
the Commonwealth. At that peak we had close to over 30,000 work 
force that are nonresident workers and now we have seen that 
decline and it will further decline probably down to 15,000 in 
numbers.
    If the effort of the Federal Government or if the effort 
and policies of the Federal Government and the CNMI government 
are to promote economic development so that it can be a 
sustainable economy, the only way that we can see our island, 
the Northern Marianas Islands, to progress forward is to allow 
for it to continue until such time as we see that the local 
work force would replace nonresident workers.
    Again, I hope that that answered clearly and provides for 
trying to allow the Government Accountability Office to conduct 
a precise, unbiased report so that it can provide us a 
mechanism to make a reasonable study of the reality of what the 
CNMI economy should be and where the nonresident worker can be 
totally taken out of the picture at that point.
    Senator Akaka. Mr. Guerrero, the Governor's testimony 
states that the nonresident labor needs are expected to drop 
from a high of 30,000 a few years ago to about 15,000 in 2008. 
This legislation proposes to fill much of that need by granting 
non-immigrant status to about 8,000 of the CNMI's most 
experienced workers. On page 10, you object to this provision, 
in part because these workers would, and I'm quoting, ``simply 
move to the continental U.S.''.
    If the bill were amended to require that these non-
immigrant workers would need to remain in the CNMI, as in my 
question to Mr. Tenorio, say 5 years, would you still object?
    Mr. Guerrero. Mr. Chairman, thank you again for that 
question. Again, only a study will be able to determine at what 
point in time the need for nonresident workers should decrease. 
I agree with the Governor's statement that it is decreasing. At 
the same time, that is decreasing because of our economic 
situation right now. We have seen the exodus of airlines. Japan 
Airline has stopped servicing the Commonwealth. Therefore, the 
number of tourists coming to the island has decreased. Japan 
Airline, for example, represented about 40 percent of Japanese 
tourists coming to Saipan. When numbers decline, then the need 
to employ would decline.
    But the Governor at the same time in our discussions the 
other day indicated that there are new hotel developments that 
are coming in, that are breaking ground. If we were to block 
and deny these new investors to develop so that we can have a 
sustainable economy, then we would not be able to fill those 
positions without providing for flexible nonresident workers in 
the Commonwealth.
    The question on the extension to 5 years, to limit 
nonresident workers at this time to 5 years, again I certainly 
would like to see more study put into that so that we can be 
able to guess at a better level, so that we can say that it's 
OK, in 5 years they can be allowed to exit to the United 
States.
    Senator Akaka. Well, I won't leave you out. I'll ask you 
the question, too. What's your comment about a delegate from 
CNMI?
    Mr. Guerrero. Mr. Chairman, the chamber of commerce 
basically would endorse probably the delegate seat for the 
purpose that it would provide for a better relationship. It 
will provide for our commonwealth to be heard on the U.S.-CNMI 
floor and it will provide for a better relationship in terms of 
legislation passing this Congress, so that in the future 
whatever would affect the Commonwealth can be, we have a 
representative that is here in Congress that can speak on 
behalf of the Northern Marianas, unlike what it is now today 
where we are denied that process. We are the only territory or 
commonwealth in the entire umbrella of the United States that 
is denied this delegate seat in Congress.
    Again, I think that we would be very honored with, and the 
Governor and our people in the Commonwealth would be very 
honored if that were to materialize in the very near future.
    Senator Akaka. Thank you very much for that comment.
    We haven't heard from Mr. Benedetto. I know you're 
accompanying Mr. Cohen, but Mr. Benedetto, last March you 
reported that, and I quote, ``A number of serious problems have 
yet to be effectively addressed''. You provided the committee 
with copies of letters sent to CNMI authorities urging action 
on specific cases.
    My question to you is, has the CNMI responded adequately in 
following up on those and other more recent cases? If you can 
be specific, give us some specific examples.
    Mr. Benedetto. Thank you, Senator. Generally speaking, 
there hasn't been a lot of cooperation or communication 
concerning specific cases. The reason is that many of the cases 
that were referred to were referred--we requested that they 
open compliance agency cases.
    I have to go back and give you a little background on this, 
but basically there's two kinds of cases. One is an individual 
labor complaint. So a worker may not be paid and we might 
assist that worker in filing an individual labor complaint. 
When the Governor said that 3,000-plus or 3,400-plus of those 
cases had been cleared, that's a tremendous accomplishment and 
I have to take my hat off to the administration for that 
accomplishment.
    However, there are another 1,500 of these compliance agency 
cases and these are the kind of cases that are a little bit 
more difficult to resolve. They require a little bit more 
investigation. Typically, the ones that I've requested in the 
last 5 years have been cases that may involve criminal conduct 
by the employer, cases where multiple workers are affected; for 
instance, if it is alleged that at the work site, that all 
employees have not been paid for 6 weeks or 12 weeks or 
whatever. If the employer is a chronic violator and it looks as 
though the general, regular individual complaint process is not 
going to actually resolve the problem, or cases in which it is 
alleged or suspected that a government official is involved in 
the violation.
    The fact of the matter is that those cases have not been 
investigated, and that's why the Commonwealth hasn't been able 
to get back to me to report on progress in those cases. So 
while I do acknowledge the tremendous accomplishment in 
clearing the backlog and I have to also acknowledge the work of 
the hearing office, at the same time that they were clearing 
the old cases dating all the way back to 1997 the hearing 
officers, Hearing Officers Hershbein and Cody and Sole, have 
been pulling out all the stops to deal with the labor 
complaints that come in on the front end. So they're making 
sure that the mediations are timely and the adjudications are 
timely, so that another backlog is not created.
    But there need to be some additional investigators. The two 
things that I would recommend to improve the situation at this 
point are, No. 1, they need more inspectors, because as we all 
know an ounce of prevention is worth a pound of cure, and if 
they have some people going out to the work sites and checking 
on these things they can actually get a lot more bang for their 
buck and actually prevent violations. They need to double the 
amount of investigators that they have.
    In the absence of a sufficient number of properly trained 
and supervised investigators in the investigations section, it 
won't be long before they have another backlog comprised of 
these complex cases.
    Senator Akaka. Well, thank you for your response.
    I'd like to, on this same question, ask the Governor to 
make any comments he would like, and then finally ask Mr. Cohen 
on this same question for any comments that you may have. 
Governor.
    Mr. Fitial. Thank you very much, Mr. Chairman. I would like 
to make just a brief comment. I had to create a special task 
force to accomplish what Mr. Benedetto just talked to, the 
closing of more than 3,400 pending labor disputes that I 
inherited from my predecessors within a 6-month period. I am 
told now by my special task force, comprising of the hearing 
officers and investigators, that all these other pending labor 
cases that Mr. Benedetto mentioned will be closed by the end of 
September this year. Believe me, 6 months, 3,400; less than 3 
months, 1,500.
    I'm on top of this, Mr. Chairman. That's why I created that 
task force, because I'm personally involved in closing these 
pending labor cases that I inherited from my predecessor.
    Senator Akaka. Thank you for your comment.
    Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. First of all, I'd like 
to add my voice of congratulations to the Governor and his team 
for clearing the backlog of over 3,000 cases. I agree it was a 
tremendous effort.
    I'd also like to acknowledge that Jim's Federal Ombudsman's 
Office staff, especially Sophie Chin, Ripon Ahmed, I believe--I 
don't know if others helped out as well--worked with the 
Governor's team for translation and other services to help 
achieve that milestone.
    I would also echo what Jim has said, that we continue to 
have concerns about the compliance agency cases. As Jim said, 
they are the more difficult cases. The 3,000 that were cleared 
were generally individual complaints. But where there is the 
pattern of systematic abuse, those tend to be the compliance 
agency cases.
    I welcome the Governor's commitment to clear those in a 
timely fashion. It's going to take a lot of effort. It's going 
to take a lot of resources, including the investigative 
resources that Jim has mentioned, in order to achieve that. 
Although very serious problems remain that we're discussing and 
that the Federal Ombudsman's Office and the CNMI Department of 
Labor deal with every day, I think our concerns have shifted 
somewhat from the big garment factory abuses--for one thing, 
the garment factories are on their way out--and the concerns 
that originally got the attention of Senators like yourself and 
Members of Congress and others in what was going on in the 
CNMI--a lot of those have significantly improved or are no 
longer as pressing concerns as they once were. They've been 
overtaken by events.
    The concerns that we really focus on now are more along the 
lines of what I testified to, the human trafficking issues, 
people being recruited and then showing up and having no job 
and being pressured into prostitution. These are the things 
we're looking very closely at now, and we welcome the 
cooperation of the Governor and the CNMI administration to make 
sure that these problems can be properly addressed.
    Senator Akaka. Mr. Cohen, let me further ask you: on your 
testimony on page 3, you raise concerns regarding CNMI's 
administration of the refugee protection system and conclude, 
and I quote, ``This is a strong argument in favor of Congress 
taking legislative action.'' Would you elaborate on that?
    Mr. Cohen. Certainly, Mr. Chairman. I need to give a little 
bit of background, and I hope I'm not going to be too lengthy. 
But shortly after I came into office, I worked with my 
colleagues in the Federal Government to get the Northern 
Marianas Islands to institute a refugee protection program. 
That was a very important Federal priority because the CNMI is 
part of the United States for the purposes of our treaties, 
even though it's deemed to be outside of the United States 
currently for the purposes of the Immigration and National Act.
    So even though aliens who are admitted into the CNMI have 
no right to travel on to the rest of the United States, they 
are entitled to the same refugee protection rights that all the 
parties to those international treaties are entitled to. So 
there was a gap in our system because the CNMI did not have a 
refugee protection program. So we worked with the CNMI to 
impress upon the prior administration the importance of 
implementing this type of system and then running that 
effectively.
    They did that. We signed the MOU. My office paid for the 
establishment of the program. It's up and running. The 
Department of Homeland Security has provided all of the very 
valuable technical expertise to get the regs drafted. We got a 
human trafficking law drafted and passed. The Department of 
Homeland Security has provided training both at its own expense 
and at my office's expense.
    So we've worked very hard to get that program going. The 
problem is, if the Federal Government cannot monitor how that 
CNMI system is being operated to confirm it's being operated 
properly, then we, the Federal Government, are in danger of 
slipping out of compliance with these international treaties to 
which we're a party. In other words, the United States is 
responsible for ensuring that the CNMI has the proper refugee 
protection system, and if we don't get the type of cooperation 
that we need to monitor that that is indeed the case, then the 
only alternative we can think of is to bring aliens in the CNMI 
under the protection of the U.S. system.
    But that creates a real problem because then the CNMI is 
controlling the front door. They're deciding which aliens get 
in, how many, from which countries. But the United States 
Federal Government has the responsibility at the back end. If 
they let in too many people from high-risk asylum places, for 
example, the Federal Government's going to have to bear that 
burden and assume that cost.
    So if we can't confirm that the CNMI has a properly 
administered refugee protection program, then we're, No. 1, in 
danger of slipping out of compliance with important 
international treaties, and if we take over the asylum system--
or the refugee protection system, and leave the CNMI in control 
of its immigration system, then it's an open-ended commitment 
that the Federal Government is subjecting itself to, because 
the Federal Government would be responsible for bearing the 
cost of decisions that it has no control over, decisions that 
are made solely by the CNMI.
    So that's led us to this conundrum that's not a tenable 
situation from the standpoint of the Federal Government.
    Senator Akaka. Thank you, Mr. Cohen, for that explanation.
    Governor, you have said that you welcome U.S. participation 
in border control, but not in the guest worker program. 
However, in order to establish effective border control Federal 
authorities must decide who may enter U.S. territory and who 
may not. As a practical matter, Governor, how can you separate 
a guest worker program from immigration?
    Mr. Fitial. Thank you very much, Mr. Chairman.
    Before I answer your question directly, let me just say 
that we are very happy to continue to provide the services that 
we are providing now under the refugee protection program. That 
program was just instituted during the last administration. We 
have never had that program before. But we are willing to 
continue providing that service and we believe that we are 
doing a good job in providing that service. But if the Federal 
Government wants to take over that service, we will not object 
to the Federal Government taking over that service.
    Now, with respect to the guest worker program, I created 
the guest worker program in 1982 when we severed our 
relationship with the trust territory government in 1978. I 
understand that there was no private sector development during 
the trust territory days because the Federal Government would 
not allow us under Title 33 of the trust territory code.
    So when I initiated the investment program and the guest 
worker program in 1982, that was to grow the private sector in 
the CNMI. So we have a law that governs the guest worker 
program in the CNMI and we believe that that law is working 
very well to our advantage to grow the local economy.
    So if the problem is with border control, we will welcome 
the Federal Government to assist us in patrolling our borders 
or controlling our borders. But we would prefer to continue 
administering the guest worker program as we are doing now, 
because I believe that, since I was the one that authored that 
program, I know best how to enforce it.
    Senator Akaka. Thank you, Governor.
    Let me ask two questions of Mr. Tenorio. In your 
recommendation No. 7, you oppose the Federal collection of fees 
from employers for the operation of the guest worker program. 
Given that the CNMI currently charges employers for processing 
guest workers and the United States charges employers for 
processing employment visas, why is it not appropriate in this 
case?
    Mr. Tenorio. Thank you, Mr. Chairman. I want to refer the 
committee to section 703 of the Covenant, which provides for 
the cover over of fees and taxes collected pursuant to the 
Covenant agreement, revenues or fees collected in the CNMI, to 
be covered over to the local government. There's a current 
agreement under section 703 of the Covenant. I would like the 
committee to use that as the basis for providing or rebating to 
the CNMI any fees and other types of cash requirement that is 
to be collected from the operation of the immigration office 
under the new proposal, respecting the spirit of that section 
703.
    At the same time also, we have to be realistic that the 
Northern Marianas is suffering from a very serious financial 
shortfall and it's going to take time for our government, our 
economy, to pick up to the point where we can let go of any 
funds that could be usefully provided to the government for its 
own operations. So in a way, again there's a need for funds for 
the government to survive. I know that you would agree with me 
that the Federal Government needs that fund less than the CNMI 
does.
    Thank you.
    Senator Akaka. You say that, Mr. Tenorio, you say that this 
bill has a mechanism for restoring the CNMI to the Chamorro and 
Carolinians who call the islands home. Your statement suggests 
a tension between those who seek economic development, even if 
that requires a large permanent class of guest workers, and 
those who value preservation of the indigenous community over 
economic growth.
    My question is: do you think that this tension--and now 
that I think of it, I'm going to ask the Governor to respond, 
too, to that--do you think that this tension is behind the 
problems in the CNMI? How should it be resolved and where do 
you think the responsibility of this committee lies?
    Mr. Tenorio. Thank you again, Mr. Chairman. I personally 
feel that there is a tension between or among the local 
population and the guest workers that are there. But I believe 
as well that by providing appropriate training and education of 
the local work force, who can then be phased into jobs that are 
presently being occupied, I think that the overall situation 
would greatly improve.
    Where might the committee be helpful? I also mentioned in 
my written testimony the fact that I would be requesting 
training funds, and I'd like the committee to support a request 
for availability of training funds to establish technical and 
vocational education programs and institutions in the 
Commonwealth. So that way there is a realistic approach to 
solving this shortfall of manpower and skilled absence in the 
Commonwealth.
    I feel that without funds being made available from the 
U.S. Government to set up training institutions similar to what 
Guam has now and other States, like Hawaii for example, to 
train the local workers in new kind of skills and to then begin 
to phase into those jobs that are presently being occupied by 
nonresident workers--I feel this is what I meant by taking back 
our homeland, taking back the opportunity that was created 
because of the Covenant agreement with the United States, and 
just so that we don't completely lose out. I feel that Congress 
needs to be very much engaged in this process, especially in 
the area of appropriating funds to improve our vocational 
educational system in the CNMI.
    Senator Akaka. Thank you, Mr. Tenorio.
    Governor, for your comments.
    Mr. Fitial. Thank you very much, Mr. Chairman. I think we 
have a guest worker program that is working pursuant to law, 
statute. These guest workers came in to work and they signed 
contracts where the terms and conditions are spelled out very 
clearly. None of these terms and conditions include the 
opportunity for them to become permanent residents and 
eventually become U.S. citizens.
    So I strongly feel that if they want to come in to become 
permanent residents and U.S. citizens, then they should just 
comply with the U.S. Federal law on becoming a U.S. permanent 
resident and naturalization.
    But we will continue to support the guest worker program 
because we need the guest workers to help grow the economy. But 
I personally do not support the idea of giving them permanent 
residence and eventually to allow them to bring in their 
families so that they can become U.S. citizens eventually. I 
don't think that the other States in the Union would also 
support that idea.
    Senator Akaka. Well, I want to thank you, Governor, and all 
of our witnesses, for your responses, your testimony, and for 
being here at this hearing.
    I want to thank Chairman Bingaman for his leadership on 
this issue and for scheduling today's hearing. While I 
understand that concerns have been raised--and you've done a 
job in letting us know that--I look forward to collaboratively 
working with the vested stakeholders to refine this legislation 
and to move forward with a balanced proposal that is sensitive 
to the needs of the CNMI. I want you to know that we really 
appreciate what you've said and again look forward to working 
with you.
    So the hearing record will be open for 2 weeks here for 
other members to provide any statement they may have or 
questions they may have as well and to hear from them as well.
    Again, I want to tell you that for me this hearing has been 
very valuable and it'll help us to look at this bill and see 
what we can do, as I said earlier, to refine the bill so it can 
be helpful to the CNMI as well as to take care of the kind of 
responsibilities we have for the CNMI. I just feel that 
together we need to set a greater vision for our Pacific 
Islands and I look forward to trying to bring that about.
    So with that, I want to say Hafa Adai and aloha to all of 
you, and this hearing is adjourned.
    [Whereupon, at 11:12 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of Pedro A. Tenorio to Questions From Senator Bingaman
    Question 1a. Your recommendation No. 4 is to amend the provision in 
S. 1634, which would grandfather current alien investors, in order to 
permit the entry of new alien investors.
    Are you familiar with the U.S. foreign investor program and are 
there features of that program that should, or should not, apply in the 
CNMI?
    Question 1b. What standards do you think should be used for alien 
investors to enter the CNMI in the future?
    Answer. I have reviewed the federal foreign investor programs and 
have for the most part found them adequate in regard to the standards 
that they establish for potential foreign investors.
    I suggest that we do not limit CNMI investment to just countries 
that the U.S. has treaties with and that the CNMI be allowed investors 
from countries which we receive tourists, especially those countries 
included in the CNMI visa waiver program. It is only logical that we 
encourage investments from those countries that we receive tourists, as 
these businesses could support the continuation and expansion of those 
tourist markets. Therefore, investors should be included as a component 
of the visa waiver program allowing them the flexibility to come and go 
from the CNMI as needed to support their investments. In addition, due 
to the critical condition of our economy and the tremendous need to 
attract new employers to the CNMI, I think that it is appropriate for 
DHS staff, who can expedite the processing of these investor 
applications, be present in the CNMI.
    I would request the standards outlined for the visa waiver 
investors be positive inducements and encourage investment. The 
standards outlined for Treaty Investors would seem to be appropriate 
due to their flexibility, and should be applied in a manner respectful 
of the CNMI's economic realities.
    I would invite the Committee to consult with individuals 
knowledgeable about foreign investor programs and territories to 
determine what is working and what is not.
    Question 1c. How many alien investors are their in the CNMI now, 
and what do you believe is a reasonable number of future investors to 
be admitted to the CNMI annually?
    Answer. Unfortunately at this time I cannot tell you how many 
foreign investors we have in the CNMI or what a reasonable number of 
new investors should be admitted annually into the CNMI. However, I 
encourage you to refer this question to Governor Fitial and the 
Strategic Economic Development Committee who jointly hold the reigns on 
our economic development plans.
    Question 2. Do you have any reasonable estimate of the number of 
people who may be in the CNMI, ``out of status''?
    Answer. I have no reasonable estimate of the number of people who 
may be in the CNMI ``out of status.'' Again this is a question 
appropriate for Governor Fitial and the LIDS system.
    I appreciate your ongoing willingness to perfect this bill and 
provide the CNMI with a system that meets the ongoing needs of our 
business community and economy. I look forward to continuing working 
with committee staff on this bill.
                                 ______
                                 
 Responses of Hon. Benigno R. Fitial to Questions From Senator Bingaman
    Question 1. What are your views regarding amendments to S. 1634 
proposed by Resident Representative Tenorio and Mr. Cohen?
    Answer. They are as follows:

          1. Section 6(a)--Immigration and Transition.--In the Section 
        by Section Analysis of S. 1634 attached to the Governor's July 
        19, 2007 testimony, we expressed our concerns about the one-
        year period provided for planning before the effective date of 
        the legislation. We proposed either a period of two years or, 
        in the alternative, providing for an extension in the 
        legislation to be used in the event it was needed. The Resident 
        Representative seconded these concerns and suggested an 
        approach that would provide for an extended transition period 
        if needed.
          2. Section 6(c)(2)--Family-Sponsored Immigrant Visas.--
        Resident Representative Tenorio recommended that this provision 
        be eliminated because it is already covered by Section 506(c) 
        of the Covenant. We agree.
          3. Section 6(c)(3)--Employment-Based Visas.--We recommended 
        deletion of this provision in our Section by Section Analysis. 
        Both Mr. Cohen and the Resident Representative have reached the 
        same conclusion.
          4. Section 6(d)--Nonimmigrant Investor Visas.--We recommended 
        that this section be amended to provide that CNMI investors be 
        entitled to the same immigrant status as provided to alien 
        workers under the proposed legislation, which would also be 
        more comparable to the U.S. citizenship afforded under the 
        United States investor program. Resident Representative Tenorio 
        recommended ``that this section include language that would 
        allow for easy processing of new investors into the CNMI.'' We 
        reiterate our recommendation and support the Resident 
        Representative's suggestion.
          5. Section 6(h)--Long Term Status to Temporary Workers.--Mr. 
        Cohen advised that ``the Administration is evaluating the 
        specific provisions granting long-term status to temporary 
        workers in the CNMI in light of the Administration's 
        immigration policies.'' Resident Representative Tenorio 
        expressed concern about the provision in his written statement, 
        and proposed in his oral testimony that, if such a provision 
        were enacted for guest workers who had been in the CNMI for 
        five years and met the statutory requirements, they would not 
        be allowed to leave the CNMI for another five years without 
        their employer's permission. We believe that this suggestion is 
        both impractical and unenforceable. In our Section by Section 
        Analysis we expressed strong opposition to the provisions of 
        Section 6(h). The proposal has generated unrealistic 
        expectations among the guest worker population in the CNMI, 
        stimulated boycotts of commercial enterprises because of the 
        Chamber of Commerce's opposition to the provision, and 
        contributed to increased divisiveness between guest workers and 
        the indigenous peoples of the Commonwealth. We recommend that 
        the provision be eliminated from S. 1634.
          6. Visa Waiver Program under Section 3(b).--Resident 
        Representative Tenorio emphasized the importance of the visa 
        waiver program to the CNMI, but makes no recommendation 
        regarding the relevant provisions of S. 1634. Mr. Cohen appears 
        to be indicating that the Secretary of Homeland Security wants 
        to be ensured that he ``have full authority to make visa waiver 
        decisions in the national interest.'' We believe that the 
        Secretary already has excessive authority under S. 1634 and 
        would oppose any amendment that would enable the Secretary to 
        disregard the economic importance of such programs to the CNMI 
        and to terminate any visa waiver program in the CNMI at his 
        sole discretion, without any opportunity for the Commonwealth's 
        interests to be considered. In our earlier submissions to the 
        Committee we have advised that the Guam visa program is less 
        stringent than the Commonwealth's. Accordingly, we would 
        consider carefully the pros and cons of any combination of the 
        two programs as is apparently being considered by the Interior 
        Department.
          7. Section (d)(3)--Payment of Fees by Employers.--Resident 
        Representative Tenorio recommended that this provision be 
        terminated because it is contrary to Section 703(b) of the 
        Covenant. This Covenant provision provides for ``cover over'' 
        or transfer of certain taxes and fees collected by the United 
        States to the CNMI Government. We have three problems with this 
        provision. First, if the fees are set at the level used in Guam 
        (three times the current fees charged by the CNMI), the result 
        will be a devastating burden on CNMI employers. Second, the 
        preemption of local laws contemplated by S. 1634 would deprive 
        the CNMI Treasury of the approximately five million dollars 
        annually in employer fees immediately upon the effective date 
        of the law. Third, the Department of the Treasury has contested 
        every ``cover over'' claim advanced by the CNMI Government 
        under Section 703(b) in recent years so that the ultimate 
        recovery of these fees is very uncertain in the absence of a 
        specific legislative directive by Congress. We continue to 
        believe that, if compelling federal interests require enactment 
        of a law such as S. 1634, then the costs should be fully borne 
        by the federal government (not by local employers) and it is 
        the responsibility of the agencies involved to calculate those 
        costs and present them to Congress before it enacts the 
        legislation.

    Question 2. The Committee would like information regarding various 
aspects of the Commonwealth's population and guest worker program.
    Answer. In the Commonwealth's testimony before the Senate Committee 
in February and July, we provided estimates regarding the CNMI's 
overall population and the current number of alien workers in the 
community. Based on the closure of apparel factories over the last 
several years and the current economic decline, we estimated that the 
number of alien workers has declined from a peak of about 30,000 to 
25,000 in 2006 and an estimated 20,000 by the end of 2007. In 
anticipation of more business closures, we estimate that the figure may 
fall as low at 15,000 by the end of 2008. With these figures before us, 
and taking into account the new businesses coming into the CNMI, we 
have estimated that the overall population in the Commonwealth may fall 
to the 60,000-65,000 range by the end of 2008.
    We recognize that more reliable figures are necessary for the 
economic studies to be conducted by GAO and the Burger & Comer team, 
which recently contracted with the CNMI to conduct the economic impact 
study funded by the Interior Department. We decided at a meeting on 
August 3 to complete the statistical work on a 10% sample survey 
(Household Income and Expenditures Survey) conducted in 2005. We 
believe that the processing of these data and the submission of the 
tabulations can be completed within 45-60 days for use by the CNMI and 
provided to the GAO and the Burger & Comer personnel involved in their 
studies. We have requested permission from the Office of Insular 
Affairs to expend a small portion of the funds previously allocated to 
the CNMI Department of Commerce for this purpose. We will 
simultaneously pursue other lines of investigation, especially with 
respect to the alien worker and freely associated state populations, so 
that we can update the figures generated by the 2005 sample survey to 
reflect developments over the past two years.
    We have addressed the backlog of proceedings at the Department of 
Labor in order to clarify the status of the alien workers involved in 
those cases. Because of certain problems in the enforcement of CNMI 
laws in the last Administration, these cases were allowed to 
accumulate, which in turn allowed many alien workers to remain in the 
CNMI because they had a pending labor case. We have now eliminated the 
backlog of some 3,400 complaints filed by individual workers. Whenever 
a hearing was requested by the worker, it was granted. These hearings 
resulted in decisions by a hearing officer as to such matters as the 
worker's entitlement to a transfer order, reimbursement for unpaid 
wages, payment of the fare necessary for repatriation, or a temporary 
work authorization. All such decisions by hearing officers may be 
appealed, and the statutory time period for appeal has now passed. The 
Labor Department's procedures require one additional public notice with 
respect to complaints that have been dismissed, and that is in process. 
After all the procedural requirements have been met, the Department of 
Labor will be able to determine with increased confidence which of 
these alien workers are no longer entitled to remain in the CNMI and, 
if necessary, deportation proceedings will be initiated.
    Similar action is now being taken with respect to the backlog of 
so-called agency cases--about 1,350 in number. We are hopeful that 
these cases will be completed, with hearings as required, by the end of 
September as represented by the Governor at the July 19 hearing before 
the Senate Committee. The last remaining backlogs then will be pending 
requests for renewals or transfers, and we have scheduled those for 
reduction in the current year.
    The Commonwealth issued its first list of overstayers in January 
2007 on what was called a NO HIRE list. As we have reported to the 
Committee, publication of the list prompted several hundred voluntary 
repatriations. It also stimulated employers and employees alike to make 
certain that the Labor Department records accurately reflected the 
worker's current status. The Department of Labor and the Division of 
Immigration are working on a second such list, dealing with aliens from 
2004 who may no longer be entitled to remain in the CNMI.
    The Department of Labor procedures for dealing with the recent 
closures of apparel factories have been very effective in processing 
the affected workers. With the cooperation and assistance from the 
Federal Ombudsman Office, for example, the Department efficiently 
handled the closure of the Concorde factory early this year, which 
affected about 1,400 workers. An informational hearing was provided for 
all the workers; they were advised of the procedures for paying wages 
due until the closedown date and for asserting any wage or other claim 
or for seeking a transfer to another job; and they were told of the 
procedures for repatriation. Only a handful of the 1,400 pursued wage 
claims; and a somewhat larger number were able to get jobs elsewhere in 
the CNMI. But the overwhelming majority, perhaps as many as 1,200, were 
promptly repatriated at their election. The Department has detailed 
records regarding the handling of this and other recent closures.
    We are optimistic that these efforts, plus improvements in our 
computer systems, will give us the increased ability to provide up-to-
date information about the alien worker population in the CNMI. By the 
time the two economic studies are completed, we anticipate that we will 
have provided data with respect to overstayers in the CNMI that is very 
current, and we will have in place procedures for ensuring that the 
number will continue to decrease in the future.
    We hope this information is of assistance to the Committee.
                                 ______
                                 
  Responses of David B. Cohen to Questions From Senators Bingaman and 
                                Domenici
    Question 1. We recognize the Administration does not yet have a 
position with respect to the long-term status of temporary workers. In 
developing your position please address whether the Administration 
would have any objection if the provision dealing with the status of 
temporary workers was amended to restrict workers who may obtain 
nonimmigrant status under a new section 6(h) to the CNMI for several 
years.
    Answer. Dialogue about this provision should continue and we are 
open to constructive ideas.
    Question 2. In his testimony, Resident Representative Tenorio made 
ten suggestions for changes to S. 1634. Please provide, in addition to 
your recommended changes, the Administration's position on the ten 
suggestions provided by Resident Representative Tenorio in his written 
testimony before the Committee.
    Answer. The Administration appreciates and values Resident 
Representative Tenorio's constructive suggestions. More specifically, 
here are our comments on them:

    Suggestion 1: The bill should include language allowing a delay, if 
needed, to the beginning of the transition period.
    Response: We agree that some additional reasonable flexibility 
provided to the Federal Government to delay the beginning of the 
transition period would be appropriate.
    Suggestion 2: Proposed section 6(c)(2) of the Covenant Act, 
relating to family-sponsored immigrant visas, is already covered by 
section 506(c) of the Covenant, and one or the other should be deleted.
    Response: We agree that proposed section 6(c)(2) is not necessary. 
Regarding section 506 of the Covenant. we would note that section 506 
provides for very limited applicability of certain provisions of the 
Immigration and Nationality Act (INA) to the Commonwealth, as an 
exception to the general current inapplicability. Section 503 of the 
Covenant recognizes that Congress can by law make applicable to the 
CNMI U.S. immigration and naturalization laws that are currently 
inapplicable by virtue of the Covenant. As S. 1634 would generally 
apply the INA to the Commonwealth as of the transition period effective 
date, section 506 would be superseded.
    Suggestion 3: Proposed section 6(c)(3) of the Covenant Act, 
relating to employment-based permanent immigration to the Commonwealth, 
should be deleted. Response: We agree with this suggestion.
    Suggestion 4: Proposed section 6(d) of the Covenant Act should 
include language that would allow for easy processing-of new investors 
into the Commonwealth.
    Response: The bill as introduced includes a ``grandfather'' 
provision for certain investors already present in the Commonwealth. In 
addition, it includes authority to establish additional Commonwealth-
only nonimmigrant categories, including for investors. We believe these 
provisions adequately address this concern.
    Suggestion 5: Expresses some concerns about the provision of the 
bill to provide nonimmigrant status to alien workers in the 
Commonwealth who have resided there for at least five years, including 
concern that they may leave the Commonwealth immediately if granted 
status, but does not suggest specific changes to the provision.
    Response: Dialogue about this provision should continue and we are 
open to constructive ideas.
    Suggestion 6: China should be included in any Commonwealth visitor 
visa waiver program.
    Response: We understand the Commonwealth's interest in promoting 
Chinese tourism. All potential candidates for inclusion in a 
Commonwealth visa waiver program, including China, should be fully 
considered on their merits in the totality of the circumstances. We 
would strongly oppose, however, any provision that directed the 
inclusion of any specific country in the program or otherwise limited 
the authority of the Federal Government to make decisions regarding the 
scope of such a program.
    Suggestion 7: Section 3(d)(3), regarding collection and use of user 
fees from employers, should be deleted as contrary to section 703(b) of 
the Covenant.
    Response: Section 703(b) of the Covenant currently provides that 
immigration fees collected in the Commonwealth should he paid over to 
the Commonwealth government. It is our position that if immigration 
becomes a Federal responsibility in the Commonwealth, the fees paid for 
those Federal immigration services should he available to cover the 
costs of those services, as they are in the rest of the United States 
generally.
    Suggestion 8: Specific funds from the technical assistance program 
provisions should be dedicated to areas requiring formal training 
leading to certification in the various trades and technical fields.
    Response: We have no objections to using technical assistance funds 
for formal training. We believe, however, that technical assistance 
should not be hamstrung with prescribed requirements, For example, 
should there he a requirement for formal training, and after a period 
of time we find that such prescribed training is not producing the 
skills that employers need, we might need to change to an 
apprenticeship program that is conducted by the employers themselves. 
Omitting legislative requirements will provide the flexibility 
necessary for a successful technical assistance program.
    Suggestion 9: Throughout the bill there should he a greater role 
for the Commonwealth government before, during and after the transition 
period.
    Response: We agree that consultation with the Commonwealth 
government throughout this process is not just appropriate, but vital 
to its success, while also recognizing that the Federal responsibility 
over immigration provided by this bill would require the Federal 
Government to be the ultimate decisionmaker in immigration matters 
relating to the Commonwealth, as elsewhere in the United States.
    Suggestion 10: Language should be added to the bill to provide for 
a non-voting Delegate for the Commonwealth in the U.S. House of 
Representatives. Response: We strongly agree that the Commonwealth 
should have a Delegate in the U.S. House of Representatives on the same 
terms as other United States Territories. We would defer to Congress as 
to the inclusion of language relating to the House of Representatives 
in a bill introduced in the Senate and currently pending before a 
Senate committee.

    Question 3. Both the Governor and the Resident Representative have 
expressed concern over the number of agencies that would be involved in 
implementing this bill, the role of the CNMI government, and that one 
year may not be enough time to promulgate the necessary agreements and 
regulations.
    Please briefly describe how this program would be coordinated, 
whether you believe the bill should establish a coordinating structure, 
a requirement for further consultation with the CNMI, or provide 
authority to delay the implementation date, if necessary.
    Answer. S. 1634 calls for implementation of its provisions to begin 
slightly more than one year after the date of enactment. Five Federal 
agencies would be given responsibilities under the provisions of S. 
1634: the Departments of Homeland Security, Interior, Labor, State and 
Justice. In 2003, President Bush re-established the Interagency Group 
on Insular Areas (IGIA). A primary duty of the IGIA is to coordinate 
issues that involve several Federal agencies. CNMI immigration, with 
the involvement of five Federal agencies, is tailor-made for 
coordination by the IGIA. With such an institution in place, we believe 
that it would be redundant to create another coordination mechanism.
    While S. 1634 provides CNMI immigration would be administered by 
Federal authorities, the CNMI governor will he consulted in a number of 
instances. The Administration believes that the amount of consultation 
is appropriate and is targeted at areas where local input will be 
helpful.
    Assuming immediate action by the IGIA and interested agencies, 
officials in the Administration believe that one year will be 
sufficient to implement the provisions of S. 1634. The Administration, 
however, would not object to a mechanism that would allow a short delay 
in implementation if it would aid proper administration of the program.
    Question 4. In his testimony, the Governor states that the need for 
guest workers is declining from a high of 30,000 a few years ago, to an 
estimated 15,000 next year. Are you confident that the CNMI is able to 
repatriate these excess workers in an orderly fashion?
    Answer. This past spring, officials of the government of the CNMI 
explained that the repatriation of foreign workers had gone well to 
that date, and that they did not foresee problems in the future. They 
indicated that the CNMI government had funds for cases where such 
employers did not fulfill their obligations to repatriate workers. The 
Governor was likely referring to the number of legal foreign workers. 
We do not have knowledge of CNMI plans for repatriating illegal foreign 
workers, including overstays. Immigration and Customs Enforcement would 
need to assess the federal response to this issue during the transition 
period.
    Question 5a. The Committee has received conflicting information on 
population trends in the CNMI and the extent to which aliens are ``out 
of status.'' Briefly describe the Department's efforts to get better 
information on population and workforce trends in the CNMI.
    Answer. The 2000 census is the latest information on population and 
workforce trends related to legal workers in the CNMI. The Government 
of the CNMI sought to conduct a mid-decade census, but the $2 million 
cost was beyond its means. The Office of Insular Affair also was not 
able to bear the cost. Immigration and Customs Enforcement would need 
to assess the number of illegal aliens, the information that is 
available and how it may be improved during the transition period.
    Question 5b. Do you believe there is a significant problem with 
visitors and workers being ``out of status''? If so, do you have a 
reasonable estimate of the number?
    Answer. For years, people have guessed at the number of illegal 
aliens in the CNMI. Census numbers deal with the numbers of legal 
foreign workers. Census has not counted nor estimated the number of 
illegal aliens in the CNMI.
    Question 6. In his testimony, Resident Representative Tenorio 
states that while the extension of federal immigration law is expected 
to bring long term benefits, the immediate future offers little hope 
for improving conditions.
    Please describe the steps the Federal government should undertake 
in the short term to address the current economic and fiscal conditions 
in the CNMI.
    Answer. In the first instance, the Government of the CNMI is 
responsible for economic and fiscal conditions in the CNMI. Currently, 
the Governor of the CNMI is cutting the local government's revenue 
outlook and cutting compensation paid to government employees. More 
fiscal belt-tightening will be in order. In the long-term, the CNMI 
will benefit from this austerity by gaining a more lean government.
    At present, options for Federal aid to the CNMI are limited. For 
fiscal year 2007, the CNMI received approximately $11 million for 
capital improvement projects and $891,000 in technical assistance 
funding. These funds help cushion the currently contracting CNMI 
economy, and are intended to aid in building a foundation to make the 
CNMI an attractive place for future investment.
    In the last six years, a major initiative of the Office of Insular 
Affairs in the economic sphere has been the organization of three 
business opportunity conferences in Washington, D.C., Los Angeles, and 
Honolulu. and the organization of business opportunity missions to 
U.S.-affiliated islands in the Pacific and Caribbean. A fourth business 
opportunity conference recently concluded in Guam. Besides U.S. 
mainland and Pacific participation, Interior marketed the conference in 
East Asian nations. All of the U.S.-affiliated Pacific islands were 
showcased, including the CNMI, and a number of conference participants 
traveled the short distance to the CNMI to view opportunities there in 
person. We believe that the Interior conferences arc the most effective 
way to attract economic attention to the U.S.-affiliated islands.
    Question 7. Please provide the Committee with a cost estimate for 
implementation of this bill including a breakdown of the cost estimate 
for each department and agency, and the task(s) for which they would he 
responsible. Please then describe the anticipated source of funding to 
cover each of the cost elements, such as fees, existing appropriations, 
or new appropriations.
    Answer. The Administration has no calculated cost estimates for 
implementation of the bill by Department and agency based on the tasks 
for which they would be responsible, and considers it premature to do 
so at this time.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                                     July 12, 2007.
Senate Committee on Energy and Resources, 304 Dirksen Senate Building, 
        Washington, DC.
    Dear Chairman Bingaman: I am requesting that the attached statement 
be included in the Congressional Record as testimony for the July 19, 
2007 Senate Hearing on the U.S. Commonwealth of the Northern Mariana 
Islands. I am unable to attend the hearing because I am a foreign 
contract worker in the U.S. Commonwealth of the Northern Mariana 
Islands.
            Sincerely,
                     The Undersigned CNMI foreign contract workers.
  Attachment.--Statement of The Foreign Contract Workers of the U.S. 
              Commonwealth of the Northern Mariana Islands
 s. bill 1634--the northern mariana islands covenant implementation act
    Dear Chairman Bingaman: We are foreign contract workers in the 
United States Commonwealth of the Northern Mariana Islands (CNMI). We 
have lived and worked in this community for 5, 10, 15, or 20 or more 
years. We have served the community as nurses, security guards, 
technicians, mechanics, accountants, engineers, farmers, domestic 
workers, entertainers, construction workers, fishermen, hotel workers, 
garment workers, restaurant workers, office staff, and other positions. 
We were invited here to work and have contributed much to the 
community. We are the threads that hold the economic fabric of the CNMI 
together.
    We make up the majority of the population in the CNMI, but we have 
no vote. We pay taxes and many of us have social security and Medicare 
taxes taken from our pay, yet most of us will never receive those 
benefits. We are often victims of criminal acts, but we cannot serve on 
juries. We are voiceless.
    The illegal alien workers in the mainland United States have had 
their voices raised by the U.S. Senate who created a bill to raise 
their status. As legal nonresident workers also laboring and living on 
U.S. soil don't we deserve to have our voices raised by the United 
States Senate also? An estimated 3,000 of us are documented as having 
United States citizen children who have lived in the CNMI all of their 
lives. Presently, we have no way to be United States citizens 
ourselves. Once we have completed with our contracts we are forced to 
return to our home countries. How will we be able to provide our U.S. 
citizen children with education, healthcare, and nutrition?
    We do believe CNMI is not only a part of the U.S., but is really 
U.S. soil. As workers, we have seen that the U.S. Constitution is not 
followed here in the CNMI. We do not understand this. The U.S. 
Constitution states that all residents of the United States are treated 
equally and given freedom, liberty, and the pursuit of happiness. The 
CNMI and United States are one country, but has two systems--one 
democratic and one that supports indentured servitude and refuses to 
enforce U.S. law.
    We need to have federalization of U.S. immigration laws. For years 
we have suffered with an insecure status and are in the islands only as 
indentured servants. Many of us have been victims of illegal 
recruitment and labor and human rights abuses. Many of us had labor 
cases that have never been resolved, back wages never recovered, and 
criminal attacks never prosecuted. We were told that the United States 
was a democracy, but we do not live in a democratic society here. We 
urge you to pass legislation that would federalize immigration and help 
us to achieve the stability and United States citizenship we deserve.
                                 ______
                                 
          Statement of Wendy L. Doromal, Human Rights Advocate
    Thank you for the opportunity to express my views to the Senate 
Committee on Energy and Natural Resources, which has jurisdiction over 
matters affecting territories of the United States. From 1984 to 1995 I 
lived and worked as a teacher in the U.S. Commonwealth of the Northern 
Mariana Islands (CNMI). I witnessed appalling labor and human rights 
abuses of contract workers who came from their homelands to work in the 
United States. They came from the Philippines, China, Bangladesh, 
Nepal, India, Sri Lanka, Russia, Pakistan, and other Asian countries. 
They sold their land, houses, and businesses to pay up to $7,000 in 
recruitment fees for a chance to live the American dream. But too many 
of these workers lived a nightmare instead. In 1993, I wrote a report 
that detailed the labor and human rights abuses in the CNMI and offered 
solutions. It was submitted to CNMI officials, to selected U.S. members 
of Congress, congressional committees, and the U.S. Departments of 
Labor, Justice and State.
    My family left the islands in 1995 due to threats and terrible 
harassment that came about because of our human rights work on behalf 
of these victims. I testified before the Senate Energy and Natural 
Resources Committee in May 1995 and submitted an updated report on the 
status of the guest workers and problems with the CNMI labor and 
immigration laws.
    Before I left the CNMI, I promised the workers that I would 
continue to appeal to U.S. government leaders to extend United States 
minimum wage, immigration, labor and customs laws to the CNMI. I am 
ashamed to tell you that 12 years after I made this promise I continue 
to plead with U.S. government officials to fulfill this promise and 
finally put an end to the abuses and systemic corruption, and to give a 
voice to the foreign contract workers. That is why I am in the CNMI 
this month to evaluate the current status and conditions of the foreign 
contract workers.
    The United States Congress has known about the seriousness of the 
labor and immigration problems in the CNMI for two decades. Although 
there have been attempts over the years to enact effective reform 
legislation, ultimately the Congress has failed again and again its 
responsibility to ensure human rights and enforce U.S. law on United 
States soil. Legislation is long overdue, and S. 1634 offers some 
solutions to the existing problems. With needed revisions, it could be 
effective in addressing ongoing problems in the CNMI.
    The United States needs to have one cohesive immigration policy for 
the United States mainland and its territories to ensure just treatment 
of guest workers and immigrants, to provide security for its borders, 
and to guarantee that the democratic values of our nation are upheld on 
U.S. soil. The current CNMI immigration policy has led to serious 
problems not only for the CNMI, but also for the security and 
reputation of the United States.
                    economic and social consequences
    Under the Covenant between the CNMI and the United States, the CNMI 
was given local control of its immigration with the CNMI leaders 
claiming they did not want to become a minority in their land similar 
to Hawaii. However, under the locally controlled immigration system, 
the CNMI has welcomed the cheap labor and essential skills provided by 
thousands of guest workers. The indigenous people in the CNMI have, by 
conscious choice, become the minority in their small island nation.
    Census figures reveal that the nonresident worker population has 
grown from 3,709 or 22% of the total population in 1980, to 39,089 or 
56% of the total population in 2000. Today there are an estimated 
84,000 people in the CNMI and only 20,000, or one-third of the adult 
population, can vote. The last time guest workers with no voting 
privileges or political rights outnumbered the citizens on U.S. soil it 
was called slavery.
    There are other dire consequences of the population explosion. The 
2000 census revealed that the CNMI has a 46% poverty rate. It is most 
likely much higher than that today. Furthermore, according to 
statistics and recent news articles, of the 8,373 households in the 
CNMI, 2,735 or 32.66% are on food stamps, with two-thirds of the 
islands' children receiving federal assistance. U.S. citizens make up 
80% of the public sector workforce with the higher paying salaries, 
while nonresident workers make up 80% or more of the private sector 
workforce where the salaries are much lower, starting at the minimum 
wage of $3.05 an hour. In fact, the minimum wage of $3.05 is not a 
living wage for the residents or the nonresident workers.\1\ Workers 
have told me that they do not have enough food and cannot afford 
electricity on their meager wages. Hours for many of the overseas 
workers have been cut from 40 hours to 32 hours weekly so their meager 
incomes have been further reduced.
---------------------------------------------------------------------------
    \1\ President George W. Bush signed into law on May 25, 2007 
legislation that will raise the minimum wage in the CNMI to the U.S. 
level over a period of time.
---------------------------------------------------------------------------
    Other problems are associated with the influx of huge numbers of 
foreign contract workers. The rapid and enormous increase in population 
over the years has resulted in the decay of the infrastructure and 
decline in the quality of public services including the school system, 
health care, electricity, and water. CNMI government offices are not 
fully staffed, including the CNMI Department of Labor. The huge backlog 
of unresolved labor cases has been blamed on the lack of personnel 
including trained inspectors and case hearing officers. Other 
indicators of the failing economy are witnessed in the government 
enacted austerity holidays cutting government workers' hours, the 
failure of the government to be able to contribute to the CNMI 
government retirement fund, and delays in issuing tax rebates.
             problems for families of u.s. citizen children
    A significant number of U.S. citizens in the CNMI are children of 
nonresident worker-parents. The Dekada Movement conducted a survey in 
March 2007 \2\ and registered an estimated 1,813 U.S. citizen children 
with over 2,173 or more nonresident worker-parents of U.S. citizen 
children who were born in the CNMI.\3\
---------------------------------------------------------------------------
    \2\ Dekada Statistics Table is attached.
    \3\ Boni Sogana, the President of Dekada, told me that not all 
nonresident workers registered their children, and he estimates that 
the survey actually reflects less than half of the actual U.S. citizen 
children with foreign parents.
---------------------------------------------------------------------------
    There are numerous problems for nonresident worker-parents of U.S. 
citizen children, and for the children themselves. Nonresident parents 
have difficulties obtaining visas and travel documents to accompany a 
U.S. child to Hawaii or the mainland for emergency surgery or treatment 
for serious medical conditions. A Bangladeshi professional who worked 
for the World Bank, the United Nations, and the CNMI government stated 
that both of his sons were scholars in the CNMI. When it came time to 
compete and represent the CNMI in a school competition on Guam, 
immigration laws prohibited the nonresident parents from travelling 
with their U.S. citizen children.
    A Nepalese worker told me that although his one-year-old U.S. 
citizen daughter would most likely qualify for food stamps and 
Medicaid, he would not go to the offices to apply because other workers 
have had so much difficulty qualifying. Filipino worker-parents said 
they indeed had difficulties with the six-page application, and felt 
that there was discrimination with processing paperwork. Two women 
stated that they are not offered assistance in completing forms. There 
are no translators at the offices. One guest worker said that it was 
common knowledge that priority is given to the local population, and 
applications of U.S. citizen children with nonresident parents find 
their way to the bottom of the pile. In fact, one woman stated that she 
made five trips to the offices over a six-month period trying to 
qualify for assistance, then gave up and withdrew her application.
    Guest workers who have expired contracts must repatriate to their 
home countries with their U.S. citizen children. Many of them have 
lived and studied in the CNMI for all of their lives. The parents told 
me that they worry continually about not being able to provide adequate 
education, healthcare, food, and other necessities for their children 
if they are deported to their third world countries where there are few 
opportunities to prosper. Furthermore, the workers expressed that to 
find a job in their country would be nearly impossible, and if they 
were lucky to find one, the salary back home would not be enough to 
support their families. How does the U.S. Congress morally justify the 
possible exile of thousands of U.S. citizens who are innocent children?
    A guest worker couple that has been in the CNMI for 27 years has 
three U.S. citizen sons, two of who are presently in the U.S. 
military.\4\ One of the young men has recently returned from a tour of 
duty in Iraq. The parents of these young men have lived legally on U.S. 
soil longer than they have lived in their homelands. It does not seem 
right that they can give their sons to the U.S. military to fight for 
democracy, yet they have no pathway to become U.S. citizens themselves. 
Clearly the nonresident parents of U.S. children must be granted U.S. 
citizen status.
---------------------------------------------------------------------------
    \4\ Carmelita G. Ramos' statement to the Senate Committee is 
attached.
---------------------------------------------------------------------------
                               healthcare
    Medical expenses can put extreme hardship on individuals and 
families. While sponsoring employers are liable for a guest workers' 
healthcare, they are not liable for the healthcare of children. A visit 
to the emergency room for one guest worker's child resulted in a bill 
just over $400, equivalent to two week's pay. A hospital stay for 
another child was over $1,000. A Nepalese guest worker apologized for 
his front tooth, which had decayed. He could not afford the dental work 
to repair the tooth that was reduced to a short rotting stub, and his 
employer has not paid for the dental procedure.
    Workers whose employers are not willing to bear their healthcare 
costs or who are out of a job agreed that most try to treat themselves 
or their U.S. citizen children using herbal remedies or over the 
counter medications because they cannot afford the expenses of a 
physician. Two Filipino guest workers stated that they are diabetic, 
but cannot afford the medication so they watch what they eat. Another 
stated that since he lost his job he couldn't afford to buy medication 
that was prescribed for his high blood pressure. A recent newspaper 
article stated that a guest worker received expired medication at the 
Commonwealth Health Center pharmacy.\5\ There are major implications 
for the overall well being of the guest workers, their U.S. citizen 
children and the general community with the current practices of 
healthcare.
---------------------------------------------------------------------------
    \5\ Marianas Variety, ``CHC Gives Alien Worker Expired Medicine'', 
by Emmanuel T. Erediano, July 6, 2007.
---------------------------------------------------------------------------
                             labor problems
    There are numerous labor problems that guest workers face with the 
main one being nonpayment of wages. Attorneys and guest workers told me 
that there is a rush to deport workers even though they have valid 
outstanding labor complaints, and are not in violation of laws. Often 
the CNMI Department of Labor resolves outstanding labor cases 
administratively, but not justly. Workers have related that they are 
told to sign a release stating that they will accept dismissal of their 
labor case before they will be allowed a transfer to another employer. 
Once they are issued a transfer authorization, they must locate a new 
employer within 45 days. If they cannot find another employer (and it 
is nearly impossible with the current economy in ruins), then they must 
return to their homeland.
    Other workers have stated that after they receive a CNMI 
Administrative Order on their labor case, the case is considered closed 
by the CNMI Department of Labor. However, the majority of the workers I 
met with stated that they never received the back wages that they are 
owed, whether they were owed a few hundred dollars, or tens of 
thousands of dollars. For example, I met with four workers on July 15, 
2007, from Rota whom I assisted with labor cases in 1993, fourteen 
years ago. None had their cases resolved; none have received thousands 
of dollars of back pay owed to them. Even if the CNMI Department of 
Labor considers their cases closed, the workers do not. One man told 
me, ``My case will be closed when I receive the money the boss owes 
me.'' There is a pervasive lack of enforcement for unpaid awards. Under 
the CNMI Labor Code, the CNMI Attorney General's Office can go into 
court to enforce awards, but it rarely has. Too often the judgments and 
administrative orders from the CNMI Department of Labor are nothing 
more than meaningless sheets of paper.
    One guest worker I interviewed, Francisco, handed me a file of 
paperwork and stated that he is owed over $25,000 by the now closed 
Business Protection Services, which was owned by the Former CNMI Chief 
of Police, Antonio Reyes. In 1996, the U.S. Department of Labor ruled 
in favor of the employees ordering that Reyes pay back wages. The 
employer filed bankruptcy. Francisco received only a couple of checks 
in 12 years and found other employment, but recently has found himself 
without work. The CNMI Department of Labor expects him to find a new 
employer within 45 days or he must leave the CNMI without his pay. He 
asked me why the U.S. Department of Labor did not sell his former 
employer's land or assets to pay the workers. Why he was being 
punished, but his employer was free to enjoy his life. I had no answers 
for him, but perhaps the Senators could respond to why he and hundreds 
of others are in this position. There needs to be a law that bankruptcy 
cannot be the cause of discharging a labor case in the CNMI.
    Frustration in collecting wages can be witnessed in the case of 
workers attempting to get back pay from the now defunct Island Security 
Services owned by Joaquin V. Deleon Guerrero, son of the late CNMI 
Governor Lorenzo Guerrero. Ten years after filing initial labor 
complaints, the employees still have not received back wages totaling 
$108,931, even though a judgment was issued demanding that the employer 
pay this amount and an additional identical amount in liquidated 
damages.\6\ I met with two of the former guards, Sisenando and George, 
who are owed $4,686.62 and $7,246.52 respectively. They told me when 
they went to the department to collect the wages they were told that 
their powerful employer had hired an attorney to appeal the decision, 
even though he had admitted at mediation that he did owe the employees 
the back wages. Now the men have up until next week to find a new 
employer before their temporary work authorizations expire.
---------------------------------------------------------------------------
    \6\ Marianas Variety, ``Employer ordered to pay $216K for 83 
workers' back wages, fines'', by Haidee V. Eugenio, June 13, 2007. 
Saipan Tribune, ``Security firm told to pay 82 workers $216K'', by 
Ferdie de la Torre, June 14, 2007.
---------------------------------------------------------------------------
    Recent articles in the CNMI newspapers, and pages of documents I 
received from guest workers have revealed that hundreds of workers from 
all job categories are owed thousands of dollars in back pay. 
Typically, workers cannot collect the wages and struggle each day 
looking for a new employer, trying to find enough to eat, and meet the 
basic necessities of life. Additionally, multiple workers have 
complained that in addition to income tax, social security and Medicare 
are deducted from their paychecks. It is unlikely that more than a 
small amount of workers will ever collect social security or Medicare 
benefits. There is taxation without representation for the majority of 
the CNMI workers.
    We saw the tragic consequence of what can happen when a guest 
worker learns that there will be no back wages paid and deportation has 
been ordered. In April this year, Buddhi Lal Dhimal was told he must 
leave the CNMI even though he was owed around three thousand dollars 
from his former employer. The desperate Nepalese set himself on fire 
outside the CNMI Department of Labor Offices. He died weeks later at a 
hospital in Manila. I met with his daughter, Pabrita, two times this 
week.\7\ She states that their family in Nepal is in deep grief and 
they are in dire straits without his income. She would like the 
employer to pay the money owed to her father so she can send it to her 
family in Nepal. Certainly this horrific case illustrates the urgent 
need for reform.
---------------------------------------------------------------------------
    \7\ Pabrita Lal Dhimal's statement and newspaper clippings are 
attached.
---------------------------------------------------------------------------
    The workers said that all of them know that once they leave the 
CNMI, there is little or no chance of recovering the money owed to 
them. The CNMI government does not prosecute employers who owe money to 
workers, and there are few consequences for abusing an employee or 
violating CNMI labor law. In fact, although violating businesses are 
barred on paper from hiring new workers, the employers manage to find 
loopholes to get new recruits. A mere change in the business name or a 
transfer of the business to another family member will allow the 
business to continue. New recruits will be hired and the cycle will 
repeat.
    In general, the guest workers are treated like commodities, like 
coconuts. They can be consumed, tossed aside, and replaced with a new 
one. the guest workers cited example after example of non-enforcement 
of local and federal labor laws. Implementation of U.S. immigration 
laws will prevent abuses.
                          immigration problems
    Entry permits and paperwork for workers are delayed. For example, 
three Bangladeshi workers from a security company have been asking for 
their entry permits for months. Their employer submitted the paperwork 
and fees in February this year. When the workers inquire at the CNMI 
Immigration Division they are told to return next week. The following 
week they return to be told the same thing. Others are informed that 
their papers are not complete even though they are. Hundreds of workers 
on island now have not received their entry permits. Without the entry 
permit the guest workers are not allowed to leave or return to the 
CNMI. The guest workers use the entry permits as their form of 
identification for banking and other purposes.
    Last month the CNMI Attorney General submitted a proposal to amend 
regulations regarding entry permits for immediate relatives of non-
aliens and immediate relatives of aliens.\8\ The CNMI government is 
proposing a change in status for Freely Associated States (FAS) 
citizens' relatives. The amendments to current CNMI immigration policy 
will treat alien relatives of FAS citizens as guest workers. The 
proposal also establishes requirements for immediate relatives of 
United States Citizens including: a time frame for applying for status 
as an immediate relative and income requirements for the U.S. citizen 
to be able to sponsor an immediate relative. Under the proposed 
legislation, widows or widowers of U.S. citizens may keep their 
immediate relative status only if they were widowed two or more years 
after the marriage.
---------------------------------------------------------------------------
    \8\ Commonwealth Register, Volume 29, Number 06, June 18, 2007.
---------------------------------------------------------------------------
    I interviewed Khondaker Rahman who has been married to a Chuukese 
woman for years and is raising five stepchildren in addition to one of 
his own. He stated that the proposed legislation will force him to lose 
his job and he will no longer be able to provide for his family. I also 
interviewed five other FAS immediate relatives. One Filipino man has 
been married to a Chuukese woman for over 12 years. He owns an 
automotive repair shop and said the regulations will prohibit him from 
owning his business if their status is changed to that of a guest 
worker. Three taxi cab drivers also feared that the change in status 
would result in the end of their only means of income. One Bangladeshi 
who has been married for five years to a FAS citizen and has two 
children said, ``I just want to be able to provide for my family. I 
love my family.''
    The current CNMI immigration policies do not reflect the democratic 
principles of the United States, and do not support the values on which 
this country was founded.
                      non-prosecuted criminal acts
    In 1994 my family was the target of criminal acts and hate crimes 
including assaults, having our tires slashed, and threats of rape and 
death against my oldest daughter and myself. A total of nine criminal 
complaints were filed, including two for assault by the Rota Liaison of 
then Governor Froilan C. Tenorio. Not one arrest was made even after 
months of requesting prosecution. I have over a dozen files of police 
complaints from foreign nationals. Only two were prosecuted.
    Four of the workers I met with this week had been assaulted, and 
they filed police complaints. Not one of the assailants were arrested. 
A Bangladeshi man said an off-duty policeman assaulted him, yet was 
never charged for the crime. Four men bearing 2x4 boards beat two 
Filipino guest workers at their house. The victims recognized the 
assailant in a store, and alerted the police. The man was released and 
still no action was taken. The victims stated that they went to the 
police station repeatedly and were told that the detective was not 
there and no one could help them. One of the men who was beaten has a 
fractured hand. As a carpenter, he is unable to work because he can no 
longer lift a hammer.
    The U.S. Department of Justice should investigate the non-
prosecution of hundreds of filed criminal complaints made by U.S. 
citizens and guest workers. The need for increased funding for the U.S. 
Departments of Justice and Labor in the CNMI is apparent and crucial if 
justice is to be served in the islands. Too often citizens and guest 
workers are denied justice and due process in the CNMI.
    Workers reported that there are moneymaking scams everywhere. 
Workers are paying $1,500 or more to agencies who have vacant job 
slots. Then papers are processed in the CNMI Department of Labor 
without contracts and complete applications, according to the workers. 
Other workers are paying local residents to sponsor them on paper even 
though no job exists. They want the opportunity to remain in the CNMI 
with the hopes of collecting money owed from former employers. Locals 
and other scam artists are profiting at the expense of desperate 
workers.
                     retaliation and discrimination
    While criminal cases of nonresident workers go unresolved, CNMI 
Crime Stoppers advertisements in the newspaper and on television urge 
the public to turn in an illegal alien to collect up to $1,000. Workers 
said the advertisements are another way that the CNMI government tries 
to shape up before a Congressional hearing to convince Congress they 
can control their own immigration. The bankrupt CNMI government may 
have a difficult time coming up with money for those who turn in 
``illegals'' to Crime Stoppers.
    Workers spoke of job retaliation for speaking out and for belonging 
to Dekada, or to The Human Dignity Act Movement. One leader was told he 
would not have his contract renewed because he was active in The Human 
Dignity Act Movement. The president of a Filipino organization did not 
have his contract renewed. His employer chastised him for helping 
workers and speaking out. He believes that was the cause of his 
nonrenewal. Another Filipino guest worker said that the workers live in 
a climate of fear. They know that they risk not being renewed if they 
complain or stand up for their rights.
    The indigenous Taotao Tano group has vocally opposed 
federalization, attacking the guest workers and the Dekada Movement 
though letters to the editor and public protests. They lined the 
streets this month holding signs that read, ``Go home, this is our 
land.'' Bishop Thomas Camacho denounced the actions in a pastoral 
letter. That was read in Catholic churches in the CNMI on Sunday, July 
8, 2007.
    Nonresident-worker parents of U.S. citizen children complained of 
discrimination at federally funded programs such as Head Start and 
public assistance such as food stamps and Medicaid. They reported being 
sent to the back of the line or having applications put on the bottom 
of the pile.
    The CNMI House of Representatives on June 25, 2007 unanimously 
passed H.B. 15-38, The Commonwealth Employment Act of 2007, which is 
now pending in the CNMI. The bill calls for guest workers to leave the 
CNMI for six months after they have worked in the CNMI for three 
consecutive years. This type of legislation, like similar bills 
introduced previously, has the intention of limiting the possibility of 
long-term residency that could qualify guest workers for a pathway to 
citizenship. The Saipan Chamber of Commerce, business owners, and 
nonresident workers oppose the legislation, for different reasons. Most 
people believe the bill was introduced to give the U.S. Congress the 
impression that the CNMI was instituting reform on its own, to win 
votes in the CNMI mid-term election on November 3, 2007.
    Scores of Filipino workers showed me letters from the Equal 
Employment Opportunity Commission (EEOC) stating that they had been 
victims of discrimination at the L&T garment factory owned by Willie 
Tan. The workers has their contract renewed, but later were given 
letters of termination because of a reduction of workforce. They stated 
they were discriminated against because they were ``old, pregnant, or 
Filipinos.'' The terminated Filipino workers were replaced by Chinese 
workers who would not complain if they were not paid for the overtime 
hours they worked.
             lack of legal representation for guest workers
    Many guest workers and several attorneys that I interviewed said 
that there was a lack of attorneys willing to accept labor, 
immigration, and criminal cases. Generally, guest workers cannot afford 
to hire attorneys to represent them and their cases remain unresolved. 
Although some attorneys take cases pro bono or are willing to lose 
money to represent guest workers, there are far too many guest workers 
in need of legal representation, and far too few attorneys to take 
their cases. For many, justice is not within their grasp. I recommend 
that the federal government provide funds to Micronesian Legal Services 
specifically to be used by destitute guest workers.
                           national security
    With the present threat of terrorism, the need for one consistent 
immigration policy to secure our borders is critical. We need to close 
the open Pacific door where illegal aliens enter from China and other 
Asian countries. This was outlined in the 1998 Commonwealth of the 
Northern Mariana Islands (CNMI) Labor and Human Rights Abuse Status 
Report that was prepared by myself and a team of investigators on 
behalf of the Clinton Administration and submitted to this committee, 
and in the 2002 Security Report from the United States Attorney for the 
Districts of Guam and the Northern Marianas. A recent publication 
detailed the multi-million dollar human smuggling business and the fact 
that the CNMI's visa waiver program, which includes Chinese citizens, 
serves as a backdoor to the United States.\9\ Since the late 1990's 
hundreds of Chinese have been smuggled by boat from the CNMI into Guam. 
A July 2007 article in the Marianas Variety details the capture of the 
latest boatload of Chinese who were rescued from their disabled vessel 
off the coast of Guam.\10\
---------------------------------------------------------------------------
    \9\ Asia Times, ``China's Third Wave, Part 3: A How-to Guide for 
Fleeing China'', by Bertil Lintner, April 19, 2007.
    \10\ Marianas Variety, ``Coast Guard Brings 12 Passengers Back to 
CNMI'', by Trina San Augustin, July 2, 2007.
---------------------------------------------------------------------------
    Furthermore, the 2002 U.S. Department of Justice security report 
highlighted problems associated with the presence of the Chinese Triad, 
Japanese Yakuza, Korean mafia and Russian mafia in the CNMI. The report 
states, ``Gambling, prostitution, drugs, money laundering and the 
exploitation of the large segments of the alien population are fully 
orchestrated by these organizations.''
    In testimony at the February 8, 2007 hearing before this committee, 
Ambassador F. Haydn Williams stated, ``The CNMI does not have the 
institutional capacity to adequately pre-screen or screen persons 
entering the Commonwealth. Border control is an inherently sovereign 
function and in the present threatening world security environment and 
the reach of global crime syndicates, the responsibility for protecting 
the nation's borders in the CNMI should be in the hands of the Federal 
government.''
                 federalization of immigration is vital
    At the House Resources Committee Hearings in 1999, Nicolas M. Gess, 
Associate Deputy Attorney General of the U.S. Department of Justice, 
and Bo Cooper, General Counsel of the Immigration and Naturalization 
Service of the Department of Justice, testified to the necessity for 
the immediate implementation in the CNMI of the Immigration and 
Nationality Act. In 1999 a bipartisan bill, S. 1052, calling for the 
implementation of the Immigration and Nationality Act with some 
exceptions and a transitional period was introduced in the Senate and 
passed unanimously on February 7, 2000. However, it was blocked from 
consideration in the House due to documented efforts of lobbyists and 
House members. At the February 8, 2007 hearing before this committee, 
Ambassador F. Haydn Williams, one of the negotiators of the CNMI 
Covenant, stated, ``I believe the CNMI will be greatly aided by the 
discipline, the orderliness, and the long-term benefits that will flow 
from the extension of U.S. immigration laws to the Commonwealth of the 
Northern Mariana Islands.'' I concur with his position.
    There are some major elements that effective federal immigration 
and labor legislation should include. They are:

  <bullet> Granting an unobstructed pathway to U.S. citizenship to 
        guest workers who had been working lawfully in the CNMI for at 
        least five years as of January 1, 2007 and/or have been working 
        lawfully in the CNMI for at least five years as of the date the 
        legislation becomes law;
  <bullet> Granting a pathway to citizenship for the immediate 
        relatives of the guest workers who acquire U.S. citizenship 
        under this legislation;
  <bullet> Granting immediate U.S. citizenship to parents of the U.S. 
        citizen children in the CNMI on the date the legislation 
        becomes law;
  <bullet> Federalizing all CNMI immigration and visa programs, whether 
        they are work or tourist.
  <bullet> Requiring future foreign guest workers to complete exit 
        interviews to ensure they have no unsettled labor and/or 
        criminal cases; and
  <bullet> Properly funding and staffing the U.S. Departments of 
        Justice and Labor in the CNMI to ensure the safety and human 
        rights of guest workers and the community.

    The present system of labor and immigration under CNMI rule truly 
does not support the values on which this country was founded. There 
should be no place on U.S. soil where a majority of the people who pay 
taxes, work, and contribute to the good of their society and community 
have no voice in affairs that directly affect them. The majority of the 
adult population cannot serve on juries, but are routinely victims of 
criminal acts or may be prosecuted for crimes. They have no vote and no 
voice in the affairs of the government and the community in which they 
live. Where in a democratic society would the government endorse and 
perpetuate a disenfranchised underclass that makes up the majority of 
the population?
    The current CNMI labor and immigration system violates provisions 
of the United Nations Declaration of Human Rights. The time to 
implement and enforce federal minimum wage, immigration, labor and 
customs law in the CNMI is clearly overdue. I believe that legislation 
is crucial and should be embraced by a united Congress in support of 
democracy, human rights and justice. I urge you to act now.

          Never under any condition should this nation look at an 
        immigrant as primarily a labor unit. He should always be looked 
        at primarily as a future citizen.--Theodore Roosevelt.
                              Attachment 1

                                         DEKADA SURVEYED STATISTICS--GUESTWORKERS W/ U.S. BORN CHILDREN IN CNMI
                                                              [SURVEYED MARCH 11-16, 2007]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             Years Worked in CNMI                               Ages of Children
                                           ---------------------------------------------------------------------------------------------------   Total
          Nationality              Total      Less 5                11-15      16-20      21-30      5 Yr.                 11-15      16-21     Children
                                               Yrs.    6-10 Yrs.     Yrs.       Yrs.       Yrs.      Below    6-10 Yrs.     Yrs.       Yrs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Filipino.......................      1,647        131        317        523        426        250        422        462        371        131      1,386
Chinese........................        392         93        169        113         17  .........        226         73         16  .........        315
Korean.........................        125         15         28         50         18          8         40         30          6          2         78
Bangladesh.....................          5  .........          8          6          2  .........          2          4  .........  .........          6
Nepalese.......................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Japanese.......................          4  .........  .........          2          1          1  .........          3  .........  .........          3
Thailand.......................  .........          5         20         10          5  .........         20          5  .........  .........         25
                                ------------------------------------------------------------------------------------------------------------------------
      Total....................      2,173  .........  .........  .........  .........  .........  .........  .........  .........  .........      1,813
--------------------------------------------------------------------------------------------------------------------------------------------------------

        Attachment 2.--Prepared Statement of Carmelita G. Ranas
    My name is Carmelita G. Ranas
    I been in Saipan in 26 years I been Paying my US tax. I have 2 Son 
US Marine in US Navy. 1 Son Serving in iraq for 7 month I want visit. 
my Son in america. but I cannot because im not a US. citizens. I hope 
Please Federal. the Saipan because. many People abuse. here my Self I 
have my good Job an my tree children all US Citizens I hope Saipan. 
Federal
            Thang you very much,
                                        Carlemita. G Ranas.
             Attachment 3.--Prepared Statement of Rito Doca
    I am Rito Doca popularly known by my group and my friends as 
(Ronnie), a Filipino citizen. At present I am the President of one of 
the biggest Filipino association here in Saipan, Commonwealth of the 
Northern Mariana Islands. The Pilipino Contract Workers Association, 
Inc. (PILCOWA) I am here in Saipan since 1989, it means to me of 18 
years of working contineously. I have my family of six (6) childrens 
all born here and are U.S. passport holders. My eldest daughter was 
suffering from disability after she undergone a special procedure in 
her throat and other parts of her body at an early age because she was 
born six (6) months premature and is in constant need of medical health 
care services.
    Shaping the behavior and character traits of our kids. Without our 
close supervision as the parents, there will be rampant juvenile 
delinquency. And if the parents of these U.S. citizen kids will be sent 
home because we are not able to find employment, our kids will be 
greatly influenced by the negative factors such as alcoholism, drug 
addiction and others. With the move to federalize the immigration 
system or to just change the immigration status of longterm guest 
workers, we can stay in the island with our kids.
          Attachment 4.--Prepared Statement of Pabitra Dhimal
                                                     July 18, 2007.
    I am Pabitra Dhimal daughter of Mr. Buddhi Lal Dhimal. Today I am 
going to write about my dad problem & difficulties in the Saipan.
    My dad came Saipan at 1997 and stay Saipan 10 years. I told my dad 
to make me come at Saipan so he make someone to sponsor me and finally 
I come to Saipan. It is almost 2 years that I am in Saipan but when I 
came first time to Saipan I found him very suffering and having hard 
time. My dad when he came first time he started to work as a mason for 
one year. But where my dad working the company didn't pay his back 
wages. So now he has labour case pending. Than after one year he got 
chance to transfer in another employer. So again he started to work but 
still than also he waiting for the money so that when he get it he can 
go back to his country. His back wages was $5,000 and $2,000 from the 
two employers but the labour don't wants to give the money. They give 
him hard time so now its already 10 years he wants to go back to 
country and to have the money but still they not yet collect the the 
money. This time my dad permit is almost finish so he planned to go 
have the money and go back but the labour still don't want to give back 
his money. These time he cannot get chance to work because of his 
permit so he is jobless even I was also jobless too. So that time me 
and my dad suffering a lot. We follow plenty times in the labour but we 
only get hard time. Me and my dad use to stay in a small room--my dad 
he used to sleep in the floor and me at the bed--we both of us don't 
have job and my dad he cannot work because of his permit neither the 
labour give the money nor they give authority to work so its really 
very very hard time for us. In order to look for the job my dad used to 
drop me at several places to apply for the job by the bicycle even 
though the day time sun is very hot.
    Due to the abuse, neglegiancy and misbehave of the labour and hard 
time given by them makes too much suffer and it makes him to burn 
himself in the department of labour. Now my dad is no more, he pass 
away but I am still at Saipan I married over here but than also its 
very hard for me to remember those days and to lose my dad. But still 
now the labour not yet pay my dad wages. I hope that if the labour can 
pay back the wages it gona be a big support for his family. Who used to 
depend on my dad.
    At last I want to give some of his document paper of his pending 
and not yet pay back his money. So I would like to request you that 
please if you can help me to get my dad back wages.
                                            Pabitra Dhimal.
 Attachment 5.--Article From Saipan Tribune, Wednesday, April 25, 2007*
---------------------------------------------------------------------------
    * Photos and captions have been retained in committee files.
---------------------------------------------------------------------------
                        man sets himself on fire
By Ferdie de la Torre, Reporter

    Learning that he is to be deported back to his country, a jobless 
Nepalese man set himself on fire along the hallway of the Department of 
Labor in San Antonio yesterday morning.
    Police said Buddhi Lal Dhimal, 49, poured flammable liquid on his 
body and set himself on fire before a Labor enforcement officer outside 
the Labor Enforcement Office.
    Dhimal was taken to the Commonwealth Health Center. He sustained 
second and third degree burns on his body. He will be taken to an off-
island hospital for further treatment.
    Witnesses said no other person was injured and the fire did not 
spread after Labor officers pushed Dhimal to the floor and sprayed him 
with a fire extinguisher.
    The incident, which happened at 8:45 am, prompted Labor and 
Immigration officials, employees and some customers to evacuate the 
building.
    Department of Public Safety spokesperson Lei Ogumoro said the man 
became agitated after he was informed he was to be deported.
    Ogumoro said the person had a bottle of flammable liquid and a 
cigarette lighter. Witnesses said Dhimal started shouting and poured 
the liquid on his body and ignited his lighter.
    Labor Secretary Gil M. San Nicolas said that, according to Labor 
investigator Jeffrey Camacho, Dhimal was calling him to step out of the 
office.
    ``But Jeff was kind of. did not feel comfortable so. he [Dhimal] 
poured something on himself. It's not like gasoline; it was in a 
container,'' San Nicolas said.
    The official said that Labor investigators Frank Aguon and Jeffrey 
Camacho held Dhimal down to stop the fire.
    ``Jeff was shouting to get the fire extinguisher,'' San Nicolas 
said.
    ``Lucky he did not have a gun and starting shooting. [With] people 
nowadays, we don't know how they think and what they are thinking,'' 
San Nicolas said.
    San Nicolas said Jeffrey Camacho was the investigator for Dhimal's 
case. Dhimal had gone to see him regarding his repatriation ticket.
    ``[Dhimal] was calling Jeff out but. as Jeff was walking out toward 
the hallway, that's when Mr. Dhimal poured what appears to be gasoline 
on himself and lit himself,'' San Nicolas said.
    He said he was on his way to the office when a staff called him and 
informed him of the incident.
    Occupational Safety and Health Administration consultant Rey Deleon 
Guerrero said he was in the restroom when he heard the voice of a man 
``in a hostile stage.''
    Deleon Guerrero said there were eight to nine other customers at 
the Enforcement Section at that time.
    ``He [Dhimal] was shouting on his way out. I was right in the 
middle when he was pushed to the floor as he was engulfed in flames.. 
We have to pin him down because he was engulfed in flames. We tried to 
cover him but at the same time we requested for the fire extinguisher 
to be operated. It was just a matter of seconds,'' Deleon Guerrero 
said.
    Police and medics were then called.
    Deleon Guerrero said the evacuation procedure was orderly as no 
panic occurred.
    ``I was there to calm everybody down,'' he said.
    San Nicolas said he will call the DPS commissioner and ask if it is 
possible to have a temporary officer assigned at Labor and Immigration.
    ``We just want to make sure that anyone entering the building does 
not have any weapons or lighters with them,'' San Nicolas said.
    He said it was the first such incident that happened in the CNMI. 
He said he is going to issue a written policy similar to what airports 
require--that visitors or customers should have no lighters and other 
dangerous items with them.
 Attachment 6.--Article From Saipan Tribune, Wednesday, April 25, 2007
                      what had happened to dhimal?
By Ferdie de la Torre, Reporter

    Buddhi Lal Dhimal, a Nepalese security guard, has been on Saipan 
since 1997 and was once arrested in 2006 for allegedly overstaying in 
the CNMI.
    Court and Labor records show that the Division on Immigration filed 
two deportation cases against the 49-year-old Dhimal, but those were 
subsequently dismissed in March 2006 at the government's 
recommendation.
    Records indicate that Dhimal first worked on Saipan as a mason at 
Asia Pacific Investment Corp. in 1997. He then became a kitchen helper 
for Marianas Hotel Services Co. from 1999 to April 2003.
    In July 2003, he started work as a security guard for Seasonal Inc. 
The following year he transferred to L&T International Corp. as a 
security guard. His work permit expired on Aug. 19, 2005.
    After the deadline passed in October 2005, Dhimal approached the 
Labor director and asked for an extension for him to seek a new 
employer. He was informed that no extension would be given.
    On Oct. 24, 2005, Immigration investigator Richard T. Lizama filed 
a deportation case against Dhimal.
    In early November 2005, the Nepalese guard asked Osmani Gani, owner 
of Lucky Security Service, to provide him work. Gani agreed and 
employed him as a security guard at the Cha Cha Junior High School in 
Kagman.
    Dhimal started work on Nov. 5, 2005, as a Cha Cha security guard. 
On Jan. 17, 2006, though, Immigration agents arrested him at the 
school, for reportedly working without a permit and remaining in the 
CNMI without lawful status.
    The following day, Immigration investigator John Peter filed 
another deportation case against the respondent. Peter stated in court 
papers that Dhimal admitted he was working illegally for Gani. Dhimal 
had explained that Gani had promised him that he would process the 
labor papers.
    On March 1, 2006, Superior Court associate judge David A. Wiseman 
dismissed Dhimal's two deportation cases upon the government's 
recommendation.
    Then assistant attorney general Ian Catlett stated that the 
respondent has been cooperating with Immigration authorities and will 
be permitted to normalize his immigration status within 45 days.
    In July 2006, Dhimal filed a labor complaint against Gani, alleging 
that the employer failed to pay his wages and committed other 
violations.
    Dhimal was not able to find a new job within the 45-day deadline.
    Labor conducted an investigation and issued its determination, 
notice of violation, and notice of hearing.
    The Labor director found that Dhimal should be reimbursed for his 
unpaid wages. The director also determined that both parties should be 
sanctioned for violating the Nonresident Workers Act by engaging in 
unauthorized employment.
    The Labor director recommended that Dhimal be denied transfer 
relief.
    On Dec. 18, 2006, Labor administrative hearing officer Jerry Cody 
ordered Gani to pay Dhimal $1,012.04 in unpaid wages, plus liquidated 
damages for a total award of $2,024.08. But Cody denied Dhimal's 
request for transfer and ordered him to depart the CNMI.
    Cody determined that both Dhimal and Gani violated the Nonresident 
Workers Act by conducting employment without authorization or permit 
from the Labor director.
    Gani, who was barred earlier in 2006 from hiring nonresident 
workers in the CNMI for filing false information, was sanctioned again, 
this time for engaging in unlawful employment.
    Labor found that in early November 2005, Dhimal asked Gani to 
provide him work so that he could support himself. During the two-month 
employment, Gani paid him $690 in wages. However, he worked many 
regular and overtime hours for which he was never compensated.
    Cody rejected Dhimal's argument that he was misled by Gani into 
working illegally.
    In denying him transfer, Cody cited that complainant was already 
granted transfer relief before but failed to file in a timely transfer 
application.
    Cody noted that the AGO already granted Dhimal six additional 
months in 2006 to find a new employer. Despite being granted such 
opportunities, Cody said, the guard did not file a transfer 
application.
    Dhimal did not appeal Cody's order.
Attachment 7.--Article From Marianas Variety, Wednesday, April 25, 2007
                   ex-l&t worker sets himself on fire
By Haidee V. Eugenio, Variety Assistant Editor.

    A FORMER security guard who was ordered to leave the CNMI and was 
trying to get a repatriation ticket set himself on fire in the hallway 
of the Department of Labor yesterday morning, setting off a fire alarm 
that led to the evacuation of personnel and their clients.
    It was the first time that an incident like this has happened at 
the Labor office. Buddhie Lal Dhimal, 49, was a security guard at L&T 
International Corp. up to Aug. 19, 2005 before he was illegally 
employed by Lucky Security Service from Nov. 2005 to Jan. 2006.
    Yesterday, he poured a flammable liquid on himself and used a 
lighter to set it on fire after getting the attention of the labor 
investigator handling his labor case at around 8:45 a.m.
    ``He was heard saying he didn't have anything to eat anymore, 
moments before setting himself on fire. It was scary for a lot of 
people in the building,'' said one of the tenants in the Afetnas 
Building which houses the Labor and Division of Immigration offices. 
Dhimal sustained second and third-degree burns on his body and was 
rushed to the Commonwealth Health Center, according to Department of 
Public Safety spokeswoman Lei Ogumoro.
    No other person was seriously hurt in the incident apart from the 
minor bruises sustained by one of the labor investigators who helped 
put out the fire before emergency medical service and fire personnel 
arrived at the scene.
    Labor Secretary Gil M. San Nicolas said he would ask the Department 
of Public Safety if police officers could be detailed temporarily at 
Labor to make sure that people coming to the office do not have any 
contraband like flammable liquids, lighters, guns or other weapons that 
may harm personnel and clients.
    He recognized, however, that Labor--just like any other government 
agency--is in financial crisis and can't afford to hire a private 
security firm to guard the premises.
    ``But I cannot compromise safety . . . In my 19 years here at 
Labor, this is the first time that something like this has happened. I 
am not going to take this lightly and wait until something happens 
again,'' San Nicolas said.
    Labor and Immigration services were disrupted yesterday due to the 
fire and the evacuation of the building.
    San Nicolas ordered a temporary closure of the Labor office until 
12 noon. Labor reopenned at 1 p.m. yesterday.
    DPS's Ogumoro, in a report yesterday afternoon, said the man, 
``after learning that he was to be deported to his place of origin . . 
. became disgruntled and set himself on fire.''
    ``An investigation showed that the person had a bottle of flammable 
liquid and a cigarette lighter which he used to set himself on fire,'' 
said Ogumoro.
    The police are investigating the incident.
`We saved his life'
    The incident happened in a hallway outside the Labor Enforcement 
Section office on the second floor of the Afetnas Building, next to the 
Immigration office.
    San Nicolas said Dhimal went to see labor investigator Jeffrey 
Camacho regarding a repatriation ticket around 8:45 a.m.
    ``When he entered the door, he called Jeff but Jeff felt 
uncomfortable. When Jeff went out into the hallway, Mr. Dhimal poured 
what appeared to be gasoline on himself and then lit it on fire,'' said 
San Nicolas.
    The police have yet to determine whether the fluid was lighter 
fluid, charcoal lighter or gasoline.
    He said Labor personnel were concerned that Dhimal might also 
splash them with a flammable liquid and then set them on fire too.
    ``That didn't happen but the point here is that they were 
uncomfortable because his behavior was hostile, kind of angry at 
something,'' said San Nicolas.
    Despite their concerns, Camacho and a fellow labor investigator, 
Frank Aguon, and other labor personnel immediately came to Dhimal's 
rescue when he was engulfed in the flames.
    San Nicolas said Aguon tried to bring Dhimal down and cover him in 
order to put out the fire. Ray Quichocho, another Labor employee, used 
a bag while Aguon went to get the fire extinguisher.
    ``Labor personnel basically saved his life,'' said San Nicolas.
    Ray Guerrero, from the CNMI OSHA Consultation Program Office, said 
the fire activated the fire alarm system in the building.
    ``Standard procedure requires that, once the alarm is activated, 
people evacuate the building and they did,'' Guerrero said.
    He said Dhimal ``was in much pain.''
    ``I saw him . . . he was rolling on the floor while we were getting 
the fire extinguisher . . . He was shouting. The guy was in so much 
pain,'' said Guerrero.
    Manny Domingo, a Labor employee, said he and his colleagues could 
see the blaze from across the hall and thought it was ``an electrical 
fire.''
    Domingo, Israel Deleon Guerrero and other Labor personnel were 
wearing gas masks to protect themselves from the fumes which were still 
lingering on the second floor of the building by 11 a.m. Personnel were 
seen cleaning the hallway after the incident.
    ``It was scary, with recent shooting incidents in the news. I 
though the man had a gun,'' another Labor employee said.
Arrested, order to depart CNMI
    Labor Hearing Officer Jerry Cody ordered Dhimal to depart the CNMI 
no later than 30 days from the date of the Dec. 18, 2006 order he 
issued for engaging in unlawful employment with Osman Gani doing 
business as Lucky Security Service.
    In that order, Cody ordered the former employer of record, L&T 
International Corp., to provide a repatriation ticket for complainant's 
departure to his original point of hire.
    The labor hearing officer also asked the director of Labor to 
assist in obtaining a repatriation airline ticket from L&T 
International Corp.
    It is not known what took so long for Dhimal to finally get a 
ticket.
    Moreover, Cody said in his five-page order in December that as it 
anticipated that Lucky Security Service would not pay the award of 
$2,024.08 to Dhimal for back wages, unpaid overtime and liquidated 
damages, Dhimal could make application under Public Law 11-66 for the 
recovery of this award.
    ``In that event, the Collections Unit is requested to assist 
complainant in obtaining any funds available under Public Law 11-66 for 
satisfaction of this award,'' said Cody.
    Dhimal previously worked as a security guard at L&T International 
Corp. under a nonresident worker permit that expired on Aug. 19, 2005. 
He failed to find a transfer employer after the 45-day deadline, by 
Oct. 2, 2005.
    After the deadline passed, Dhimal approached the office of the 
director of Labor requesting an extension. No extension was granted 
pursuant to regulations.
    In early November 2005, Dhimal approached Osman Gani doing business 
as Lucky Security Service and the company employed Dhimal as a security 
guard at the Cha Cha Junior High School in Kagman from Nov. 5, 2005 to 
Jan. 17, 2006.
    On Jan. 17, immigration officers arrested Dhimal at the work site 
for working without a permit and remaining in the CNMI without lawful 
status.
    ``The parties had no permit or authorization for the above-noted 
employment. Therefore, the employment was in violation of the 
Nonresident Workers Act . . .'' said Cody.
    Subsequent to Dhimal's arrest, the Attorney General's Office had 
granted Dhimal six additional months in 2006 to find a new employer but 
he failed to find one.
    San Nicolas yesterday said the administrative order stands, and 
Dhimal did not file an appeal.
    ``The best thing we could do is to help him with his repatriation 
ticket,'' said San Nicolas.
   Attachment 8.--Article From Marianas Variety, Friday, May 11, 2007
         ex-l&t security guard who burned himself still at chc
By Emmanuel T. Erediano, Variety News Staff.

    THE former L&T security guard who set himself on fire at the 
Department of Labor a few weeks ago is still under observation at the 
Commonwealth Health Center's intensive care unit on a ``day-to-day'' 
basis, according to his daughter.
    Pabitra Dhimal, 21, said her 49-year-old father, Buddhi, is 
recuperating from second and third degree burns and has developed lung 
problems since being admitted to CHC following the incident that took 
place in the labor department's hallway on April 24.
    Pabitra Dhimal, who works at 99 Cents Supermart, said that 
attending physicians cannot tell her exactly how long it will take her 
father to recover.
    She said her father, who was still on a respirator Wednesday night, 
could not open his eyes and was being fed through a tube directly into 
his stomach.
    Pabitra Dhimal said she heard from hospital staffers that once her 
father's condition gets a little bit better he may be flown to the 
Philippines for further treatment.
    She was told that CHC is waiting for the patient's lung conditions 
to improve.
    Buddhi Dhimal suffered second degree burns to the neck, face and 
arms as well as third degree burns to the chest.
    Pabitra Dhimal said she never had any idea that her father could do 
such a thing.
    She said she was asleep when her father left home on that fateful 
day.
    The day before the incident, she heard him saying that he had again 
failed to see the people he had to meet at the labor department.
    She said her father kept going back to Labor to inquire about a 
temporary work authorization and money awarded to him since he lost his 
job a year ago.
    Pabitra Dhimal, a management student in Nepal, said she is now 
beginning to find out why her father had discouraged her several times 
from following him to Saipan.
    The eldest of four children, Pabitra Dhimal said she insisted that 
she wanted to work on Saipan so that she could stand on her own feet 
and help her father send money to her mother and three siblings.
    She said she kept insisting until her father finally agreed to 
bring her to Saipan in Oct. 2005.
    But months after she landed a job here, her father lost his, 
leaving her no choice but to stay with him.
    She said her father never stopped looking for a new job..
    A firm had promised her father a job and when this did not 
materialize, her father decided to return to Nepal.
    This was why he kept returning to Labor to inquire about the $5,000 
owed him by his former employer, Asia Pacific Investment Corp., 
pursuant to a Labor order.
    Pabitra Dhimal said she has to comfort her mother who cries over 
the telephone every time she calls home.
   Attachment 9.--Article From Marianas Variety, Friday, May 11, 2007
                               disturbing
By Bruce Jorgensen, Kabul, Afghanistan.

    THE sad experience of Ms. Babitra Dhimal's father typifies what 
transpires when governments and government officials fail to disclose 
to CNMI nonresident workers particularly, and the CNMI public 
generally, their basic human rights--in this case, their rights to 
seek/obtain asylum, refugee, and torture protection from both the CNMI 
and federal governments via either the commonwealth's current albeit 
legally defective refugee procedures, or the more protective procedures 
enacted by the federal government throughout the rest of the country.
    Had Mr. Dhimal known or been apprised of these rights during the 
past 10 years--as these rights have been fully known to current/former 
CNMI and federal officials--he could have sought asylum/refugee/torture 
protection, rather than being subject to the CNMI's always malfeasant 
bureaucracy at the Department of Labor.
    Do some checking. There's a reason that the feds several years ago 
precluded folks who are Nepalese citizens from entering Guam--that 
reason, I'm told, being that folks from Nepal were entitled to and did 
in fact seek political asylum./refugee/torture protection upon entry to 
Guam thereby precluding their return to Nepal.
    This in turn derived from the recognition of Nepal's raging civil 
war throughout the past decade.
    Ditto this outcome as to Mr. Dhimal, should he/his daughter opt to 
seek asylum/refugee/torture protection in the CNMI via either the 
CNMI's defective procedures or via the federal procedures which, in 
turn, would likely require suit being filed in the U.S. court on 
Saipan.
    Equally disturbing--what some perceive to be not only a wholesale 
lack of sympathy toward a man driven to alight himself afire in order 
to draw attention to his government malfeasant-plight, but the 
hardhearted, abjectly mean-spirited derision of folks like Saipan 
Tribune columnist Bruce Bateman.
    No sympathy or public remorse for Mr. Dhimal, yet a legion of 
letters debating things like animal welfare and rights as to veterinary 
medicine . . . a pretty sad commentary on the CNMI, some might contend.
    Absolutely shameful that apparently nobody in the BenTan 
administration, nobody in the MattTan AG's office, nobody in the CNMI 
Guma In Hustisia, and nobody in the so-called CNMI Bar Association, has 
stepped forward to offer this fellow and his family some fundamental 
legal advice. If they won't help them, then I will . . . from thousands 
of miles away.
    The word is ``refoulement''--it kicks in the instance Mr. Dhimal 
and/or his daughter request asylum/refugee/torture protection, and it 
means that they cannot be repatriated by the CNMI or U.S. governments 
to their country of origin once they've requested asylum/refugee/
torture protection, which, in turn, perhaps is why the CNMI wants to 
ship this poor fellow off to the P.I. ASAP.
   Attachment 10.--Article From Saipan Tribune, Tuesday, May 29, 2007
              `dhimal was awarded $9k but got only $1.2k'
By Ferdie de la Torre, Reporter.

    Two Labor administrative orders had awarded Nepalese security guard 
Buddhi Dhimal a total of $9,984.08 but he received only $1,256.65, 
according to Department of Labor counsel Dorothy Hill.
    Hill, an assistant attorney general, told Saipan Tribune that the 
$1,256.65 Dhimal got was only for the 1998 case and that Labor is 
intending to take appropriate action to collect the $2,024.08 awarded 
him in the 2006 case.
    Hill explained that in the first case, the Labor director brought a 
compliance agency case in 1998 on behalf of Dhimal and 10 other 
employees against Asia Pacific Investment Inc.
    Dhimal used to work as a mason for the defunct Asia Pacific.
    Hill said the Labor administrative hearing office issued an order 
on Feb. 16, 1999, finding the Asia Pacific Investment liable to pay 
Dhimal $1,988 in wages for work not provided and $5,172 for improper 
deductions.
    She said Labor failed to collect against Asia Pacific Investment 
apparently because the company filed for bankruptcy.
    However, the lawyer said, Labor did secure payment on the labor 
bond for Dhimal. Hill said the bond company gave Dhimal a $1,256.65 
check in May 1999.
    In January 2006, Dhimal, with the assistance of the Ombudsman's 
Office, filed an application to receive money from the Worker's Relief 
Fund.
    ``Under the law governing this fund, Public Law 11-66, wages 
ordered by a final order of the department that are uncollected may be 
paid to a worker only upon departure from the CNMI,'' Hill said.
    Hill said Labor began processing the request, but then Dhimal 
changed his mind and decided he did not want to depart the 
Commonwealth.
    ``Accordingly, he was not paid any amounts from the relief fund. 
Had he not changed his mind, he would have been eligible to receive 
$3,000 from the fund,'' the counsel said.
    In the second case, Dhimal filed a Labor case against Osmar Gani, 
owner of Lucky Security Service, in July 2006. Hill said Dhimal filed 
the case after he was arrested for working without lawful status for 
Lucky Security Service.
    ``Prior to filing the complaint, it appears that Mr. Dhimal 
cooperated with Immigration investigators and as a result, they 
deferred action on his deportation four times, the last expiring on 
Aug. 25, 2006,'' she said.
    The Labor administrative hearing office issued an order on Dec. 18, 
2006, awarding Dhimal $2,024.08 in unpaid wages and liquidated damages.
    Because he was working without lawful papers for Lucky Security, 
Dhimal was not granted transfer relief and was directed to depart the 
CNMI in 30 days.
    The hearing officer also noted in the order Dhimal's right to file 
an application for unpaid wages under the Worker's Relief Fund if the 
employer did not timely pay his wages.
    Hill said Gani has not paid Dhimal as directed under the order so 
the matter has been referred to Labor's Collection Unit.
    ``Because Mr. Dhimal was working without a labor contract, there is 
no bond to be tapped,'' Hill said.
    On April 24, the 49-year-old Dhimal poured kerosene on his body and 
set himself on fire along the hallway of Labor. He sustained second- 
and third-degree burns on his body and face. He remains in serious 
condition at the Commonwealth Health Center's intensive care unit.
    It was his 21-year-old daughter, Pabitra Dhimal, who disclosed to 
Saipan Tribune that aside from the $2,024.08 Gani owes her father, Asia 
Pacific Investment also owes him over $5,000.
  Attachment 11.--Article From Marianas Variety, Tuesday, May 29, 2007
                       dhimal dies at rp hospital
By Emmanuel T. Erediano, Variety News Staff.

    The former L&T security guard who set himself on fire at the 
Department of Labor died after he was transferred to a Philippine 
hospital on medical referral, according to his daughter.
    Pabitra Dhimal, 21, said the Commonwealth Health Center called her 
at 10 a.m. yesterday to inform her of her father's death.
    Pabitra said her father, Buddhi Dhimal, 49, was transferred to St. 
Luke's Hospital in Quezon City, Metro Manila at 3:30 p.m. on Saturday.
    Prior to his departure, Buddhi Dhimal underwent hemodialysis 
treatment due to kidney problem that developed while he was confined in 
the intensive care unit of CHC.
    Pabitra Dhimal said she was having a hard time deciding whether she 
would call their home in Nepal to tell her mother about the sad news.
    She said her mother may not be ready to hear it.
    She said she has been telling her mother that her father's 
condition was getting better because that was what CHC told her before 
her father was flown to the Philippines.
    ``I can't call her right now--I don't know what I am going to tell 
her,'' Pabitra Dhimal said while trying to hold back her tears.
    She said she will have to ask CHC and St. Luke's to furnish her 
with copies of the documents pertaining to her father's condition prior 
to his death.
    She said she needs to see the post-mortem from the Philippine 
hospital, and the doctors' findings at the time her father was brought 
out of CHC.
    According to Pabitra Dhimal, CHC promised to give her today all the 
information she needs.
    Since her father only had a one-way plane ticket, his remains will 
either be flown to Nepal or back to Saipan.
    She said she was told that if her father would be sent back to 
Saipan, he would have to be buried here.
    She said she still could not make a decision.
    ``They always told me he was getting better, but now they tell me 
he passed away,'' she said.
    Buddhi Dhimal never regained consciousness since he set himself on 
fire at the Department of Labor where, prior to the incident, he had 
been going back in hopes of getting his repatriation ticket and the 
money due to him from the company that hired him illegally after L&T 
did not renew his contract.
    Pabitra Dhimal said her father was wrapped with gauge, from his 
face all the way down to his legs, when she last saw him at the Saipan 
airport.
    ``I wanted to see his face but he was covered with gauge. It was 
all over the body,'' she said.
    Pabitra Dhimal, who works at the 99 Cents Supermart in Garapan, is 
now her family's remaining breadwinner. Her mother, Kutuli is jobless 
and she has three other siblings back in Nepal.
  Attachment 12.--Article From Saipan Tribune, Thursday, May 31, 2007
         family wants dhimal's body flown to nepal from manila
By Ferdie de la Torre, Reporter.

    The family of Buddhi Lal Dhimal wants his remains to be flown 
straight to Nepal from Manila, instead of it being brought back to 
Saipan.
    Dhimal's daughter, Pabitra Dhimal, told Saipan Tribune that her 
mother wants the body to be brought to Nepal instead of it being 
returned to Saipan.
    Pabitra, who works as a cashier at 99 Cents in Garapan, said she 
called home on Tuesday to inform her family about her father's death. 
Home for the Dhimals is Duhabi-4 Sunsari in Nepal.
    She said she first talked to her 11th grade sister and explained to 
her what had happened.
    ``She started crying and crying. The my mother talked to me and she 
too started crying,'' Pabitra said.
    Pabitra said the Commonwealth Health Center had informed her that 
they only have a one-way ticket for her father, so his remain should 
either come back to Saipan or go on to Nepal.
    If the body is flown first to Saipan, the CNMI government will not 
be able to shoulder the expenses for its repatriation to Nepal, which 
means that it will have to be buried here.
    Pabitra said she remains confused whether she will go home to 
attend her father's funeral or if she will just stay here because of 
her work.
    Pabitra is the eldest of four children. Her mother is a housewife. 
The youngest is only an 8th grader. Except for Pabitra, all the 
children and their mother are staying in Nepal.
    A CHC medical staff escorted Dhimal on Saturday night to Manila 
where he was treated at St. Luke Hospital. On Monday at 3:20 am CNMI 
time, he passed away.
    The 49-year-old Dhimal poured kerosene on his body and set himself 
on fire at Labor on April 24, 2007. He sustained second- and third-
degree burns on his body and face.
    Public Health Secretary Joseph Kevin Villagomez on Tuesday said 
they are still waiting for the medical report from St. Luke's Hospital 
to know exactly what caused Dhimal's death.
 Attachment 13.--Article From Marianas Variety, Tuesday, July 17, 2007
              dhimal's daughter, husband to join fas rally
By Emmanuel T. Erediano, Variety News Staff.

    PABITRA Dhimal, the daughter of the former L&T security guard who 
burned himself at the Department of Labor last April out of frustration 
and died a month later, will join the rally of the Freely Associated 
States citizens opposed to a proposed amendments to immigration 
regulations that will restrict the employment opportunities of their 
spouses. The amendments are expected to take effect tomorrow.
    ``It's unfair for us,'' says, Pabitra Dhimal, 21, who is married to 
a Palauan and works as a cashier at a store in Garapan.
    She said she and her husband will join the rally because ``we don't 
like this kind of changes in our status.''
    Her husband is now jobless, and since her father died, she is the 
only breadwinner of her family in Nepal.
    The eldest among four children, she has to send money to her 
jobless mother while stretching the budget for her and her husband 
here.
    Going back to Nepal cannot be her option, she said, adding that she 
would lose her job once the amended immigration rule takes effect.
    She said it is unfair that wives and husbands will end up ``broken-
hearted'' just because one of them can no longer stay to work here.
    ``Plenty people will be against it,'' Pabitra Dhimal's husband 
said, adding that ``we have to fight against those amendments.''
    He said if the new rule makes life harder for him and his wife, 
``I'm going to bring her with me to the U.S. She's not going to go back 
to Nepal.''
    One of their neighbors, who identified herself only as Rashid, is 
also a Palauan and is married to a Bangladeshi for almost six years 
now.
    Rashid, who said she works as a cook, said the proposed new rule 
``is going to affect relationships, and will create bigger problems--
thank God we don't have a child.''
    Dhimal Pabitra said the CNMI government appears to be not 
interested in informing the people to be affected by its proposed new 
rule.
    They said it is unfair that they were not given enough time to 
comment on the issue.
                                 ______
                                 
                      Sisters of the Good Shepherd,
                              The National Advocacy Center,
                                  Silver Spring, MD, July 18, 2007.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
    Dear Chairman Bingaman: Thank you for holding a hearing to receive 
testimony on S. 1634, The Commonwealth of the Northern Mariana Islands 
Covenant Implementation Act of 2007. The National Advocacy Center 
appreciates the Committee's efforts to address the situation in the 
CNMI and requests that the following documents (attached) be included 
in the written hearing record in general support of the legislation:

  <bullet> Statement of the National Advocacy Center of the Sisters of 
        the Good Shepherd on S. 1634, The Commonwealth of the Northern 
        Mariana Islands Covenant Implementation Act of 2007 (PDF)
  <bullet> Karidat--List of Trafficking Victims (Excel spreadsheet)

    These documents provide information on human trafficking cases in 
the CNMI and offer some suggestions for strengthening the legislation.
    Should you or any committee members have any questions regarding 
the information in the documents, please feel free to contact Sr. Carol 
McClenon in our office.
    Thank you again for this opportunity to share our concerns.
            Sincerely,
                                         Alison L. Prevost,
                                                          Lobbyist.
Attachment 1.--Statement of the National Advocacy Center of the Sisters 
                          of the Good Shepherd
    On behalf of the Sisters of the Good Shepherd and the victims of 
human trafficking served by Good Shepherd programs and affiliates 
throughout the world and particularly in the Commonwealth of the 
Northern Mariana Islands, the National Advocacy Center of the Sisters 
of the Good Shepherd appreciates this opportunity to share our thoughts 
and concerns about S. 1634, The Commonwealth of the Northern Mariana 
Islands Covenant Implementation Act of 2007. The National Advocacy 
Center of the Sisters of the Good Shepherd represents sisters and 
programs in 22 states, the District of Columbia, Saipan, and the Virgin 
Islands. We also collaborate with the Sisters of the Good Shepherd's 
NGO office in consultative status with the Economic and Social Council 
and with the Good Shepherd International Office for Justice, Peace and 
Solidarity in Mission in Rome.
    Following the Good Shepherd mission of reconciliation and reaching 
out to people, especially women and girls who are marginalized by 
society, Good Shepherd Sisters, Associates, Lay Collaborators, and 
Volunteers throughout the world have been engaged in efforts to combat 
human trafficking and assist trafficking victims for many years. The 
Good Shepherd connection to the Commonwealth of the Northern Mariana 
Islands began in 1999, when Sr. Mary Stella Mangona was sent by her 
Provincial Superior to investigate reports of human trafficking and 
determine if the Sisters could provide assistance or intervention. Sr. 
Stella continues to work in the CNMI with the Community Guidance Center 
providing counseling services to both the local and immigrant 
populations and conducting outreach and educational services related to 
domestic violence, human rights advocacy for non-resident workers, and 
trauma recovery and empowerment for victims of human trafficking and 
sexual assault. She submitted testimony related to her experience and 
concerns about labor abuses and trafficking for the committee's 
oversight hearing on February 8, 2007.
    Sr. Carol McClenon joined Sr. Stella in Saipan in 2003 to work at 
Karidat, a non-profit social services agency affiliated with the 
Catholic Church--the local equivalent of Catholic Charities. Sr. Carol 
worked at Guma' Esperansa--House of Hope--with Lauri Ogumoro, who also 
testified before this committee in February. Sr. Carol's work was 
initially with women and children who had been affected by domestic 
violence and sexual assault, but beginning in 2005 also came to include 
work with victims of human trafficking into the CNMI. Since September 
2005 until recently, Sr. Carol, at the request of Bishop Tomas A. 
Camacho of the Diocese of Chalan Kanoa, who had become aware of the 
growing number of incidents of trafficking coming to the attention of 
law enforcement and victim service providers, also served as a special 
liaison to the diocesan office on the topic of human rights in the 
Diocese, which encompasses all the islands in the CNMI. She worked 
closely with Sr. Stella Mangona, Lauri Ogumoro, and K.E. (a trafficking 
survivor), the delegation sent by Bishop Camacho, in their preparation 
for the committee hearing February on labor and immigration issues in 
the CNMI. Sr. Carol joined the National Advocacy Center staff in June 
2007, but remains in close contact with the CNMI. The Sisters of the 
Good Shepherd remain committed to anti-trafficking work in the CNMI and 
have recently missioned Sr. Miriam Phan to Saipan to assist with victim 
services and translation.
    Drawing from these connections, the National Advocacy Center offers 
this statement in general support of the proposed legislation, S. 1634, 
but with some reservation and suggestions for improvement. Knowing that 
the government of the CNMI opposes this legislation creates some 
difficulty for us as those we work with rely on some measure of 
government cooperation to assist the victims they serve. However, the 
continuing prevalence of human trafficking on the CNMI necessitates a 
stronger response than has yet been provided.
    During the February 2007 testimony, the members of Bishop Camacho's 
delegation (and Sr. Carol, as one of his consultants) did not take a 
position on the hotly-debated topic commonly known on the Islands as 
``Federalization.'' They merely supplied information which had been 
requested about clients with whom we worked and for whom we advocated. 
At that time, delegation members still cherished some hope that the 
local government was truly interested in human rights and would make 
reforms for the purpose of creating a more just society and greatly 
reducing the incidents of human trafficking and labor law violations. 
This hope was based on experiences of collaboration with individuals in 
various government agencies who worked valiantly as investigators, 
prosecutors, and hearing officers trying to implement laws and reduce 
an old backlog of labor cases. Here we would particularly like to 
mention the assistance provided by Assistant Attorney Generals Kevin 
Lynch and Dorothy Hill, although there were also many others.
    The National Advocacy Center and our contacts on the CNMI had hoped 
that following the hearing, higher-ranking members of the CNMI 
administration would use the occasion to explore the concerns about 
human trafficking being brought to their attention and to add 
credibility to their commitment to ongoing reform. Unfortunately, such 
has not been the case. The current CNMI administration continues to 
employ the term ``alleged abuses'' to imply that reports made by victim 
services providers and human rights advocates about the problem of 
trafficking in the CNMI are exaggerated, fabricated, or based on 
speculation. This is troubling, because such reports stem from 
documented cases which were mostly referred by local government 
agencies themselves, or by Federal agencies such as the F.B.I. and the 
Office of the Federal Ombudsman.
    Over the past two years, 43 victims of human trafficking into the 
CNMI have been referred to Karidat, including 9 victims in the 5 months 
since the hearing in February. Attached to this statement is a 
spreadsheet providing more detailed information on these cases. The 
most recent case referred to Karidat in June may involve an additional 
16 victims, possibly including one minor. To understand the extent and 
continuing prevalence of the problems, one need only compare Karidat's 
current caseload with its own projections of the number of victims it 
would serve under the Department of Justice grant (to provide services 
to pre-certified victims of human trafficking) it applied for and 
received in December of 2006. In the grant application, Karidat 
projected it would serve 50 victims during the three-year grant period. 
However, since the grant began in December, Karidat has already served 
to 39 human trafficking victims--in just the first six months of the 
grant.
    Unfortunately, in many of these cases investigations languish and 
victims are held in limbo. Rather than wait for government action, some 
victims have chosen to return to their home countries without 
restitution. Moreover, despite evidence of abuse, rumors abound that 
the victims are only making allegations in order to receive ``T'' visas 
(though many were not even aware of such visas when they sought 
assistance) and in some cases have delayed the certification of 
trafficking victims, which would provide them access to needed social 
services as they attempt to rebuild their lives.
    Representative of these problems and the government's unwillingness 
to investigate and take action against labor abuses is the story of 
three female immigrant workers previously employed by the now defunct 
Benny's Place in Garapan. Promised jobs as waitresses in the CNMI, upon 
arrival the women were forced to wear skimpy clothes, were subjected to 
touching by patrons and forced to perform lewd acts with customers. In 
addition, the women were often forced to clean the homes of their 
employers, were illegally confined to their barracks, and were not paid 
promised wages. The three women filed a labor complaint in May 2005, 
but it wasn't until March of this year that their case was granted a 
hearing and they were identified as victims of human trafficking and 
referred to Karidat for assistance. While the employers were ordered by 
the Labor administrative hearing officer to pay back wages and damages 
to the victims, the criminal investigation also requested by the 
hearing office has yet to be acted upon by the Attorney General's 
Office, despite evidence of additional labor violations by the same 
employers from a labor hearing earlier in March of this year.
    More detailed information about this particular case can be found 
in two attached news articles from the Saipan Tribune and the Marianas 
Variety. Of additional concern to the National Advocacy Center in this 
case and others is the lack of a victim-centered approach as required 
by federal anti-trafficking legislation. In addition to having to wait 
two years before receiving a hearing and needed assistance, the Saipan 
Tribune article reports that the women themselves were fined for Labor 
violations that were the direct result of their having been trafficked.
    Understandably, the government of the CNMI wishes to rehabilitate 
its tarnished international reputation, but as Sr. Stella Mangona noted 
in her testimony, this desire has led to a defensive posture by the 
government, which downplays and refuses to address continuing problems. 
Quoting Sr. Stella, ``[This] climate is not conducive for productive 
dialogue and search for systemic solutions to serious and ongoing 
problems.'' The insistence of the government that it has identified and 
fixed all of its immigration problems in the face of continuing abuses 
unfortunately demonstrates the unwillingness of the current 
administration for true self-reform and perpetuates a corrupt system 
that prevents people of good will who are working to end abuses from 
realizing justice.
    For these reasons and in solidarity with the victims of human 
trafficking and labor abuses, the National Advocacy Center of the 
Sisters of the Good Shepherd believes that federal involvement has 
become necessary and supports the framework for reform outlined in S. 
1634. However, we hope that amendments will provide greater clarity to 
the legislation in the following areas:

  <bullet> In all areas regarding immigrant workers, workers' rights 
        and specific references to applicable U.S. labor protections 
        should be included and an appeals process for workers should be 
        outlined, lines of accountability for addressing abuses and for 
        worker redress should be made explicit, and penalties for 
        employers found in violation of fair labor and immigration 
        regulations should be spelled out;
  <bullet> It should be made explicit that all U.S. anti-trafficking 
        laws and penalties apply to the CNMI and sufficient funding for 
        enforcement, investigation/prosecution of trafficking and labor 
        abuse cases and victim services should be provided. Technical 
        assistance and training should also be provided to all 
        employees within the new federally administered immigration 
        system on how to recognize, screen and serve victims of human 
        trafficking. Given the prevalence of human trafficking within 
        the region, a funding set aside for regional training/technical 
        assistance for all federal immigration and customs officials 
        should be included.
  <bullet> The legislation should include clarifications to Violence 
        Against Women Act and provide directions for the yet to be 
        released regulations for the ``U'' visa to ensure that 
        immigrants to the CNMI have the right to self-petition for 
        relief if they are victims of domestic violence, sexual 
        assault, or other forms of violence.
  <bullet> Negotiations and cooperative agreements with sending 
        countries should be considered to prevent continued recruitment 
        fraud and falsification of documents;
  <bullet> In both the GAO and local government reports mandated by the 
        Act, information on efforts to combat human trafficking and the 
        prevalence of trafficking should be required.

    The above provides a basic outline for the improvements to the 
legislation that the National Advocacy Center believes are necessary, 
but we stand ready to work with the committee in its efforts to craft a 
bill that ensures that all workers on the CNMI are treated with 
justice, dignity, and respect and that abusive employers and government 
systems themselves are held accountable.
    Understanding the economic difficulties facing the CNMI, the 
National Advocacy Center is yet grounded in Catholic Social Teaching 
which states that the beginning, the subject and the goal of all social 
institutions is and must be the human person and that the economy 
should be at the service of the people and not the other way around. In 
the United States Conference of Catholic Bishops' pastoral letter, 
Economic Justice for All, this fundamental principle is summarized 
eloquently:

          The basis for all that the Church believes about the moral 
        dimensions of economic life is its vision of the transcendent 
        worth--the sacredness--of human beings. The dignity of the 
        human person, realized in community with others, is the 
        criterion against which all aspects of economic life must be 
        measured.
          All human beings, therefore, are ends to be served by the 
        institutions that make up the economy, not means to be 
        exploited for more narrowly defined goals. Human personhood 
        must be respected with a reverence that is religious. When we 
        deal with each other, we should do so with the sense of awe 
        that arises in the presence of something holy and sacred. For 
        that is what human beings are: we are created in the image of 
        God (Gn 1:27). #28

    Given the documented and continuing problems within the CNMI, the 
National Advocacy Center strongly believes that a new approach to 
immigration and labor regulation, grounded in the fundamental dignity 
of every person and respect for human rights, is necessary. We commend 
the Committee on Energy and Natural Resources and its staff for their 
work to bring justice to the CNMI and Senators Akaka, Murkowski, 
Cantwell, and Inouye for the introduction of S. 1634. We hope that its 
passage will provide desperately needed change to the CNMI and create a 
responsive government system that will be proactive in addressing and 
preventing abuses. Thank you again for this opportunity to share our 
concerns.
                                Addenda
    De la Torre, F. (2007, March 30). Two owners of defunct club told 
to pay $120K. Saipan Tribune. Retrieved July 17, 2007 from http://
www.saipantribune.com/news- story.aspx?newsID=67034&cat=1.

          Three alien workers who were hired as waitresses under false 
        pretenses were coerced into performing acts of a sexual nature 
        and were restricted to their barracks. One of the employers was 
        also found to have submitted false documents to the CNMI 
        Department of Labor and even to the Philippine government.
          As a result, Labor yesterday held the owners of the defunct 
        Benny's Place in Garapan liable to pay a total of $110,000 in 
        wages and damages to the three waitresses and sanctioned one 
        owner to pay $10,000 for numerous violations of law.
          Labor administrative hearing officer Barry Hirshbein ordered 
        Bienvenida C. Camacho and her former husband, Felipe SN 
        Camacho, to pay $49,496 to Marites A. Aurelio, $30,607.40 to 
        Ronna D. Santo Domingo, and $30,357.40 to Rosalina C. Oliva.
          The awards were for unpaid wages, restriction/overtime 
        payments, contract damages, liquidated damages, health 
        examination payments, health certificate reimbursement, 
        processing fee reimbursement, airfare reimbursement, and 
        housing reimbursement.
          Hirshbein said Mrs. Camacho is solely sanctioned in the sum 
        of $10,000. Her alter ego, Michelle Corp., was also ordered to 
        pay $1,000 in sanction.
          Hirshbein permanently barred Mrs. Camacho and Michelle Corp. 
        from employing nonresident workers in the CNMI.
          He noted that while the business operation was conducted in 
        Mr. and Mrs. Camacho's name, it was Mrs. Camacho who made all 
        the business decisions.
          The three workers were given 45 days to seek new employers. 
        But they were each ordered to pay a $250 sanction for violating 
        Labor laws such as failing to report unapproved changes to 
        their contracts and accepting commissions not provided for in 
        the contract.
          `The evidence in this case is overwhelming. Mrs. Camacho 
        flagrantly violated numerous provisions of the Nonresident 
        Worker Act and Alien Labor Rules & Regulations,' Hirshbein 
        said.
          He pointed out that Mrs. Camacho's testimony lacked any 
        credibility whatsoever.
          `Fraud and deceit permeate every aspect of her business 
        activities,' the hearing officer said.
          Hirshbein noted that by her own admission, Mrs. Camacho 
        submitted false documents to the Philippine government and that 
        evidence supports a finding that she also filed false documents 
        to CNMI Labor.
          He also noted that there is strong evidence of tax fraud by 
        reporting wages that were not paid; by not reporting 
        commissions as salaries; and by failing to report the 
        employer's share of ladies' drinks as income.
          At the hearing, Aurelio, Santo Domingo and Oliva were 
        represented by attorney Mark Hanson. Mrs. Camacho came with 
        counsel Reynaldo Yana, and Mr. Camacho was represented by 
        Stephen Nutting.
          On May 23, 2005, the three filed a labor complaint against 
        the Camachos and Michelle Corp.
          The workers alleged that respondents failed to pay hourly 
        wages; altered the terms of their employment contract; failed 
        to pay overtime; improperly restricted them to their barracks; 
        and made unlawful deductions from their wages.
          The three stated that they were recruited in the Philippines 
        as waitresses but when they arrived on Saipan they learned that 
        their duties would be different.
          Aurelio and Oliva testified that Mrs. Camacho instructed them 
        to engage in intimate contact with patrons.
          Hirshbein determined that `the weight of the evidence is 
        overwhelmingly in favor of complainants.'
          Early this month, Labor administrative hearing officer 
        Herbert D. Soll also found Mrs. Camacho and Michelle Corp. 
        liable to three employees of their defunct Tagpuan Nightclub in 
        Garapan for unpaid wages, `training wages' and wages for 
        reduced hours.
          Soll also ordered the respondents Michelle Corp. and Mrs. 
        Camacho to reimburse the workers for house rental, utility 
        payments, processing fees, and medical fees.
          The total award was over $6,000 in that case.

    Eugenio, H. (2007, March 30). Alien workers say they were forced to 
perform sexual acts. Marianas Variety, Vol. 35 No. 11. Retrieved July 
17, 2007 from http://www. mvariety.com/calendar/march/30/frontpage/
front01.htm.

          LABOR Hearing Officer Barry Hirshbein has asked the Attorney 
        General's Office to investigate a possible case of human 
        trafficking involving at least six alien workers who were 
        brought here as waitresses but were allegedly coerced by their 
        former employers into performing sexual acts with bar 
        customers, in addition to other possible criminal violations.
          The workers were also not paid their hourly wages or 
        overtime, were illegally confined in their barracks, and had 
        illegal deductions made from their wages, among other labor 
        violations.
          On Wednesday, Hirshbein issued a 27-page administrative order 
        awarding $110,000 in wages, damages and liquidated damages to 
        nonresident workers Marites A. Aurelio, Ronna D. Santo Domingo 
        and Rosalina C. Oliva.
          Three of their former co-workers, who testified in the labor 
        case, also suffered the same abuses from the employers.
          Hirshbein imposed a $10,000 sanction against the employers: 
        Bienvenida C. Camacho, Felipe SN. Camacho and Michelle Corp. 
        who owned Benny's Place.
          Mrs. Camacho managed the bar and was named as the primary 
        responsible party in these abuses.
          The workers testified that their employers would not pay 
        their wages and overtime if they didn't perform `acts of a 
        sexual nature.'
          `The evidence in this case is overwhelming. Respondent 
        Bienvenida C. Camacho flagrantly violated numerous provisions 
        of the Nonresident Worker Act and the Alien Labor Rules and 
        Regulations,' Hirshbein said.
          In some instances, Mrs. Camacho instructed the workers to fly 
        from the Philippines to Hong Kong and then depart Hong Kong for 
        Saipan as `tourists' to avoid the Philippine Overseas Labor 
        Office's requirements of authenticated contracts.
          The workers were hired by the employers as waitresses for 
        Benny's Place, but once they reached Saipan, their duties `were 
        very different.'
          The workers testified that Mrs. Camacho instructed them to 
        `engage in intimate contact with patrons including hugging, 
        kissing, touching the customers' genitals and allowing 
        customers to fondle them.'
          `Mrs. Camacho brought these workers into the CNMI under false 
        pretenses,' said Hirshbein. `In addition to the other possible 
        criminal violations suggested by this case, the hearing officer 
        recommends that the Office of the Attorney General determine 
        whether there was a violation of the Anti-Trafficking Act of 
        2005.'
          Hirshbein said Mrs. Camacho's `testimony lacked any 
        credibility,' and that `fraud and deceit permeate every aspect 
        of her business activities.'
          By Mrs. Camacho's own admission, she submitted false 
        documents to the Philippine government to hire the workers.
          Mrs. Camacho also submitted false documents to the CNMI 
        Department of Labor based on the evidence, said Hirshbein.
          `There is strong evidence of tax fraud by reporting wages 
        that were not paid; by not reporting commissions as salaries; 
        and by failing to report the employer's share of ladies drinks 
        as income,' said Hirshbein.
          The workers were restricted to their barracks during non-
        working hours, and were required to sign payroll records under 
        threat that they would not receive the commission payments but 
        these payroll records did not reflect the actual amount they 
        receive as wages. The wages were much lower than what was in 
        the contract, and were subject to illegal deductions.
          In the order, Hirshbein said nonresident worker Marites A. 
        Aurelio is entitled to receive $49,496 for unpaid wages and 
        overtime, liquidated damages, contract damages for unexpired 
        term, health examination payments, and processing fee 
        reimbursement.
          Ronna D. Santo Domingo is entitled to a total of $30,607.40, 
        while Rosalima C. Oliva, $30,357.40.
          Hirshbein also permanently barred the respondent employers 
        from employing alien workers in the CNMI.

                                                              VICTIMS OF HUMAN TRAFFICKING
                            Identified in the Commonwealth of the Northern Mariana Islands Served by Guma' Esperansa/Karidat
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                Intake                                     Referral    Criminal     Civil
          GE Case #              Date   Initials     DOB    Country  Type   Source      Case #     Case #     LE   Certification  T-Visa     Comments
--------------------------------------------------------------------------------------------------------------------------------------------------------
S05-019......................  5/7/     LRJ       11/28/    China    Labo  DPS       05-004787    USDC-05-  AGO    Certified      grante  T-3 Visa
                                2005               2006               r                            00048                           d       granted for
                                                                                                                                           son
                                                                                                                                           (derivative
                                                                                                                                           applicant)
S05-048......................  9/27/    LT        12/15/    P.I.     Sex   AGIU      05-0311B     na        AGO    Certified      grante  Moved to the
                                2005               1981                                                                            d       United States
                                                                                                                                           2/1/2007
S05-049......................  9/27/    KE        9/3/1983  P.I.     Sex   AGIU      05-0311B     na        AGO    Certified      grante  Moved to the
                                2005                                                                                               d       United States
                                                                                                                                           2/11/2007
S06-004......................  3/9/     AA        1/7/1989  P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006                                                               002-01
S06-005......................  3/9/     EH        11/16/    P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   na      returned to
                                2006               1986                                            002-01                                  P.I.
                                                                                                                                            05/25/06
S06-006......................  3/9/     SR        11/21/    P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006               1987                                            002-01
S06-007......................  3/9/     AS        10/1/     P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006               1987                                            002-01
S06-008......................  3/9/     JB        10/31/    P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006               1982                                            002-01
S06-009......................  3/9/     CM        6/2/1985  P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006                                                               002-01
CM06-001.....................  3/28/    KA        4/25/     P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006               1988                                            002-01
S06-013......................  4/9/     RD        3/14/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   filed
                                2006               1986                     AGIU                   002-01
S06-014......................  4/9/     MV        8/4/1980  P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   filed
                                2006                                        AGIU                   002-01
S06-015......................  4/9/     JM        10/31/    P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   pendin  left program 4/
                                2006               1986                     AGIU                   002-01                          g       19/06,
                                                                                                                                           returned to
                                                                                                                                           GE
                                                                                                                                            1/12/07
S06-016......................  4/9/     RP        1/31/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   na      returned to
                                2006               1986                     AGIU                   002-01                                  P.I.
                                                                                                                                            12/23/06
S06-017......................  4/9/     RC        10/17/    P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   pendin  left program 4/
                                2006               1984                     AGIU                   002-01                          g       19/06,
                                                                                                                                           returned to
                                                                                                                                           GE
                                                                                                                                            1/12/07
S06-018......................  4/9/     MDLC      6/24/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   filed
                                2006               1984                     AGIU                   002-01
S06-019......................  4/9/     SA        1/12/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   na      left program 4/
                                2006               1987                     AGIU                   002-01                                  19/06,
                                                                                                                                           returned to
                                                                                                                                           P.I date
                                                                                                                                           unknown
S06-020......................  4/9/     AG        5/30/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   filed
                                2006               1982                     AGIU                   002-01
S06-021......................  4/9/     BC        6/29/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   na      left program 4/
                                2006               1982                     AGIU                   002-01                                  19/06,
                                                                                                                                           returned to
                                                                                                                                           P.I. date
                                                                                                                                           unknown
S06-022......................  4/10/    CG        7/27/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   filed
                                2006               1985                     AGIU                   002-01
S06-023......................  4/10/    JM        12/3/     P.I.     Sex   AGO/DPS/  06-098       CAC-06-   AGO    Precertified   filed
                                2006               1983                     AGIU                   002-01
CM006-002....................  5/26/    JDC       9/16/     P.I.     Sex   AGO       06-098       CAC-06-   AGO    Precertified   filed
                                2006               1984                                            002-01
S06-051......................  12/4/    LG        12/7/     China    Sex   Ombudsma  charges      CAC-06-   Ombud  Precertified   na      returned to
                                2006               1976                     n         pending      162-12                                  China
                                                                                                                                            3/10/2007
S06-052......................  12/4/    CS        11/26/    China    Sex   Ombudsma  charges      CAC-06-   na     Precertified   na      returned to
                                2006               1973                     n         pending      162-12                                  China
                                                                                                                                            3/10/2007
S06-053......................  12/4/    XC        7/3/1974  China    Sex   Ombudsma  charges      CAC-06-   na     Precertified   na      returned to
                                2006                                        n         pending      162-12                                  China
                                                                                                                                            2/7/2007
S06-054......................  12/4/    XZ        5/18/     China    Sex   Ombudsma  charges      CAC-06-   na     Precertified   na      returned to
                                2006               1975                     n         pending      162-12                                  China
                                                                                                                                            3/10/2007
S06-055......................  12/4/    SY        1/24/     China    Sex   Ombudsma  charges      CAC-06-   na     Precertified   na      returned to
                                2006               1987                     n         pending      162-12                                  China
                                                                                                                                            2/7/2007
S06-056......................  12/4/    XZ        10/20/    China    Sex   Ombudsma  charges      CAC-06-   na     Precertified   na      returned to
                                2006               1987                     n         pending      162-12                                  China
                                                                                                                                            1/23/2007
CM07-003.....................  1/12/    SC        7/30/     P.I.     Sex   Labor     06-098       CAC-06-   pendi  Precertified   pendin
                                2007               1984                                            002-01    ng                    g
CM07-004.....................  1/12/    EM        6/22/     P.I.     Sex   Labor     06-098       CAC-06-   pendi  Precertified   pendin
                                2007               1984                                            002-01    ng                    g
CM07-005.....................  1/12/    MS        1/3/1982  P.I.     Sex   Labor     06-098       CAC-06-   pendi  Precertified   pendin
                                2007                                                               002-01    ng                    g
CM07-006.....................  1/12/    EM        12/20/    P.I.     Sex   Labor     06-098       CAC-06-   pendi  Precertified   pendin
                                2007               1983                                            002-01    ng                    g
S07-005......................  2/6/     PZ        1/2/1974  China    Sex   AGIU      charges      CAC-06-   na     Precertified   na      returned to
                                2007                                                  pending      162-12                                  China
                                                                                                                                            3/10/2007
S07-012......................  3/27/    XLL       8/19/     China    Sex   FBI       50HN19664    ........  pendi  Precertified   pendin  Trafficker
                                2007               1972                                                      ng                    g       arrested by
                                                                                                                                           FBI in
                                                                                                                                           federal
                                                                                                                                           custody
CM07-07......................  4/10/    MA        1/28/     P.I.     Sex   Private   charges      L.C.No.0  pendi  Precertified   pendin
                                2007               1968                     Attorne   pending      5-168     ng                    g
                                                                            y
CM07-08......................  4/10/    RO        8/13/     P.I.     Sex   Private   charges      L.C.No.0  pendi  Precertified   pendin
                                2007               1982                     Attorne   pending      5-168     ng                    g
                                                                            y
CM07-09......................  4/10/    RSD       10/14/    P.I.     Sex   Private   charges      L.C.No.0  pendi  Precertified   pendin
                                2007               1982                     Attorne   pending      5-168     ng                    g
                                                                            y
CM07-10......................  4/11/    CM        5/24/     P.I.     Sex   co-       charges      L.C.No.0  pendi  Precertified   pendin
                                2007               1984                     victim    pending      6-081     ng                    g
S07-014......................  4/20/    LFA       10/15/    China    Sex   Labor     ongoing      L.C.No.0  pendi  Precertified   ......  Trafficker
                                2007               1972                               investigat   7-022     ng                            arrested in
                                                                                      ion                                                  Guam on
                                                                                                                                           smuggling
                                                                                                                                           charges
S07-015......................  4/20/    FXQ       7/30/     China    Sex   Labor     ongoing      L.C.No.   pendi  Precertified   ......  Trafficker
                                2007               1965                               investigat   07-21     ng                            arrested in
                                                                                      ion                                                  Guam on
                                                                                                                                           smuggling
                                                                                                                                           charges
CM07-010.....................  5/29/    ATB       1/7/1986  PI       Sex   co-       ongoing      ........  pendi  Precertified   pendin
                                2007                                        victim    investigat             ng                    g
                                                                                      ion
S07-027......................  6/7/     RLD       12/30/    PI       Sex   friend    referred to  ........  .....  .............  ......  Victim reports
                                2007               1985                               DPS, AGIU                                            16 women
                                                                                                                                           locked in,
                                                                                                                                           some minors
--------------------------------------------------------------------------------------------------------------------------------------------------------
GE=Guma' Esperansa, Type=Type of Human Trafficking, DPS=Department of Public Safety, AGIU=Attorney General's Investigative Unit, AGO= Attorney General's
  Office, Ombudsman=Federal Ombudsman's Office, Labor=CNMI Department of Labor, LE=Law Enforcement Endorsement, USDC=United States District of the NMI.

                                 ______
                                 
               Interview of Attorney Bruce Lee Jorgensen
                   for distribution--though unedited
                  u.s. v. cnmi (saipan) asylum crisis
March/April 2005--PART 1 OF A 4-PART INTERVIEW SERIES
U.S. vs. CNMI Asylum: U.S. More Advantageous Lawyer Explains
    Explaining that CNMI-situated persons remain entitled to seek 
asylum/refugee/torture protection from the U.S. Government, as well as 
the CNMI Government, lawyer Bruce Lee Jorgensen--who filed the first 
CNMI asylum lawsuits successfully, on behalf of 50 or so persons 
between 1999 and 2002, in the U.S. District Court on Saipan--emphasized 
that protections available under the U.S. system are far more 
beneficial to CNMI-situated persons than under the CNMI's new system 
which Jorgensen characterized as ``rather flawed'' and ``perhaps well-
intentioned, but nevertheless legally defective, and constitutionally 
violative, in multiple respects''. ``The upshot'', Jorgensen said, ``is 
that any and every CNMI-situated person who considers seeking asylum/
refugee/torture protection--Falun Gong adherists, Catholic 
practitioners, women facing persecution for `one-child-policy' 
violations, Tiannamon Square activists, Timil separtists, and others, 
who originate from the Peoples' Republic of China, Myanmar, Nepal, Sri 
Lanka, Iran, or other regimes characterized as `totalitarian' and/or 
stricken by civil war, for example--should apply for protection from 
the U.S. Government by obtaining, completing, and submitting an 
application for asylum/refugee/torture protection to the U.S. 
Government, even before, and whether or not, they have applied, or 
intend to apply for, or have been denied, similar protection from the 
CNMI Government.'' And for queries from prospective applicants 
regarding asylum/refugee/torture protection from the U.S., Jorgensen 
suggests that persons contact an interested and knowledgeable group of 
advisers at an e-mail address <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e5f4e3e7f2e3e2ababf3f5e7f5ffeaf3ebc6ffe7eee9e9a8e5e9ebababe0e9f4">[email&#160;protected]</a> guidance 
and suggestions.
    Jorgensen's remarks were elicited during a series of 
extraordinarily candid interviews recently, via satellite 
communication, in which Jorgensen agreed to familiarize this reporter, 
with: (1) some of the reasons that U.S. asylum/refugee/torture 
protection is far more beneficial and preferable to CNMI-situated 
persons than the CNMI's new system; (2) the perceived deficiencies 
plaguing the CNMI's new asylum mechanism; (3) the legal/practical 
obstacles involved when seeking asylum/refugee/torture protection; (4) 
the historical background from which asylum/refugee/torture emerged, 
during 1999-2003 in the CNMI, as an issue finally confronting the 
Federal and CNMI Governments in the courts here, to the vivid 
consternation of prior administrations and their leaders--including the 
means and opportunities by which prior CNMI administrations had over a 
15-year-period failed to recognize, minimize, and/or timely resolve 
asylum/refugee/torture protection issues now so visible and problematic 
in 2005; (5) the lengths to which suppression/distortion of 
information, coupled with intimidation and swift retribution, were 
brazenly concocted, invoked, orchestrated, and meted out by Government 
officials--in tacit efforts to dissuade CNMI situated persons from 
learning the existence of, and timely seeking, these asylum/refugee/
torture protections while in the CNMI; and, in ensuring that adverse, 
retaliatory, and/or punitive consequences would swiftly be directed at 
the few CNMI lawyers possessing the temerity, scruples, compassion, or 
conscience to meaningfully assist prospective CNMI-situated persons 
entitled to seek asylum/refugee/torture protection from the Federal and 
CNMI Governments; (6) underlying political considerations which gave 
rise to and have perpetuated this dilemma; and, (7) helpful hints, 
information, encouragement, and resources, for use by CNMI-situated 
persons interested in seeking asylum/refugee/torture protection, 
including prospective lawyers for representation, anticipated costs, 
and potential tactics.
    ``If you want a portrayal as `The Answer Man' '', Jorgensen 
offered, ``then here are some relatively simple details, facts, and 
suggested answers, pertaining to relatively simple issues, which issues 
have been made to appear complex for whatever reasons, by the conduct 
of prior CNMI administrations. This conduct, in turn, giving rise to 
the irrefutable disgrace of the so-called `leadership' in these prior 
administrations, to the unfortunate but irrefutable detriment of the 
current Babauta administration, and to the unbridled dismay of world 
leaders and international human rights observers who, unfortunately but 
quite reasonably, have come to view the CNMI's human rights record, in 
the context of asylum/refugee/torture protection, as dismally 
substandard, under any conceivable pretext of mandatory U.S. treaty 
compliance, past or present.''
(1) U.S. vs. CNMI--Why U.S. Asylum/Torture Protection Is Better
    ``The fundamental basics which come into play, immediately upon the 
filing a request for asylum/refugee/torture protection'' Jorgensen 
remarked ``can be summarized by considering the primary two 
consequences: first, the applicant may ordinarily not be returned to 
his or her country of origin until the application is processed and/or 
adjudicated if necessary; and, second, the applicant may remain in the 
host country or a country other than the applicant's country of 
origin.''
    ``By submitting an application for U.S. asylum/refugee/torture 
protection, to U.S. Government authorities, the applicant not only 
obtains protection from `refoulement'--the fancy term for being sent 
back to a country of origin--but opens the door to the possibility that 
the applicant might be able to remain indefinitely not only within the 
CNMI, but also to remain indefinitely within the United States itself, 
that is Guam or the Mainland U.S. After all, we know from pleadings 
filed in the U.S. court a few years back, that some of the so-called 
Tinian Boat People were interviewed on Tinian for U.S. asylum/refugee/
torture protection, by U.S. officials sent to Tinian for that purpose, 
and were later transported from Tinian to Carbondale, Illinois. This, 
of course, the governments have kept relatively hush-hush over the 
years, citing irrationalities like `confidentiality', `security', 
`privilege', and `national' concerns.''
    ``And of course, while this will almost certainly require 
applicants to band together and file a lawsuit, or for one applicant to 
file what is termed a `class-action' lawsuit, this route provides 
exponentially more protection for an applicant. Here are just a few 
reasons why that is so:

  <bullet> the applicant seeking U.S. asylum/refugee/torture protection 
        may ordinarily not be forced to the country of origin after 
        filing until the application procedure/adjudication are 
        completed;
  <bullet> the applicant seeking U.S. protection may stay in the CNMI 
        or--if past asylum proceedings on Tinian and Guam are used as 
        precedent--might in all likelihood be permitted to enter Guam 
        or the Mainland U.S. pending application/adjudication 
        completion;
  <bullet> the U.S. application procedure is quite time-consuming, 
        often lasting years, meaning that `refoulement' to a country of 
        origin must be delayed during this time;
  <bullet> the persons tasked with processing, determining, and 
        adjudicating U.S. applications are U.S. Government officials--
        meaning, in turn, that they are not subject to CNMI political 
        whim, CNMI political allegiance, or the CNMI legislative-merry-
        go-round-laws which typify the current CNMI House (consider, 
        for example, the seemingly-weekly modifications to laws 
        involving the CNMI's Garment Industry);
  <bullet> the U.S. officials are hired and trained in accordance with 
        U.S. law, are accountable under U.S. laws prohibiting 
        misconduct like corruption, have undergone U.S. background 
        investigations, and are U.S. monitored administrators and 
        judicial officials tasked with processing/adjudicating U.S. 
        applications;
  <bullet> the U.S. courts--particularly the U.S. District Court on 
        Saipan--are intimately familiar with the legal, equitable, and 
        practical issues raised by effect of submitting to the U.S. 
        Government an application for asylum/refugee/torture 
        protection, have provided relief to past applicants, and have 
        been generally sympathetic to applicants' plights;
  <bullet> the CNMI courts have been not only unsympathetic in the 
        past, but have exhibited outright hostility towards the notion 
        of asylum itself, and towards lawyers who have assisted in the 
        attempted processing of asylum/refugee/torture protection 
        claims on behalf of persons indefinitely incarcerated by DOLI 
        under the auspices of the CNMI Judiciary;
  <bullet> the U.S. applicant has redress not only in the U.S. District 
        Court on Saipan, but in the U.S. Appellate Courts, while the 
        CNMI applicant is limited to review by the CNMI's courts whose 
        judges are politically appointed;
  <bullet> the U.S. application procedure requires no fee or payment to 
        accompany the Application;
  <bullet> the CNMI's system reportedly prohibits all persons from 
        seeking CNMI asylum/ refugee/torture protection unless and 
        until there first exists a CNMI order by which an applicant is 
        to be subjected to deportation by the CNMI (meaning nobody can 
        apply until the CNMI says they are to be deported by the 
        CNMI)--while, under the U.S. system, no deportation order is 
        required, and anyone can submit, at any time; an application 
        for U.S. asylum/refugee/torture protection;
  <bullet> the CNMI's system reportedly punishes applicants whose CNMI 
        applications are denied, by requiring those persons to be 
        deported from the CNMI--while, under the U.S. system, such a 
        deportation is not automatic, so a person might continue 
        working in the CNMI even if a U.S asylum/refugee/torture 
        protection request is either pending or has been denied;
  <bullet> the U.S. system ordinarily frowns upon `secret' proceedings, 
        while the use of `secret' or so-called `sealed' hearings 
        appears to be prevalent with respect to CNMI immigration 
        matters--as seen, for example, by review of the CNMI court's 
        calendar showing four `sealed' hearings this week;
  <bullet> the asylum/refugee/torture protections arise due to U.S. 
        Treaty obligations--which obligations preceded and are 
        therefore in no manner connected to the CNMI's present control 
        over immigration--which obligations arose long before the CNMI 
        was itself established and are derived from human rights 
        guarantees made by the U.S. Government, not the CNMI 
        Government, to all other treaty signatories; and,
  <bullet> the U.S. courts have ample experience dealing with class 
        action, multiple-person, and Federal claims against the U.S. 
        Government, respecting wholly federal treaty matters and 
        protections assured, not by the CNMI, but by the U.S. 
        Government itself.''
U.S. vs. CNMI Asylum Part 2: Who Let Us Down? What Can Be Done?
    During the Spring of 1999, former Marianas Variety reporter Ruth 
Tighe \1\ wrote a series of articles \2\ detailing the plight of at 
least 379 so-called ``Tinian Boat People'' who, attempting to enter 
U.S. soil via boats headed from the Peoples Republic of China to Guam, 
were diverted by the U.S. personnel, who then guided the boats--with 
their hundreds of illegal PRC citizens--to Tinian.\3\ There, as later 
disclosed in files at the U.S. Court on Saipan and by the CNMI media, 
these illegals were permitted to seek asylum/refugee/torture 
protection, made available by effect of U.S. Treaty obligations binding 
upon the U.S. and, by effect of the Covenant, also binding upon the 
CNMI. The applications were provided by U.S. personnel flown to Tinian, 
where these U.S. officials interviewed the applicants, later 
transporting some of the applicants, by chartered jet, to Honolulu, 
Seattle, and Illinois, with some of them ending up in New York.\4\
---------------------------------------------------------------------------
    \1\ Tighe later wrote for the Saipan Tribune newspaper, controlled 
by CNMI Garment Factory mogul Willie Tan, including columns by Tighe 
under the ``On My Mind'' moniker.
    \2\ Tighe's articles included those published April 23, 1999, June 
19, 1998, May 28, 1999.
    \3\ That hundreds entered was documented in a June 3, 1999 Saipan 
Tribune article titled ``DOLI slams INS . . .''. Stating, in parial 
excerptst: ``This brings to 379 the number of undocumented Chinese 
nationals who are still staying in a tent city in the Northfield area 
of Tinian island''; ``After the hearings were conducted in the United 
States, the Chinese were released with some of them transferring to as 
far as Honolulu while the others ended up in underground garment 
factories in New York''; and, ``INS [from the U.S.] made a decision to 
divert the illegal Chinese . . . to Tinian . . . after it brought an 
entire boatload of undocumented Chinese to Seattle . . . on a chartered 
jet.''
    \4\ Id.
---------------------------------------------------------------------------
    The initial reaction from the CNMI Government, via then-Governor 
Pedro P. Tenorio's appointee DOLI Secretary Mark Zachares (an 
attorney), was kneejerk: outraged indignation, finger-pointing blame at 
the Feds, and shortsighted blunder. ``This is the same [U.S.] 
administration that called our [CNMI] immigration . . . to be against 
American values'' was a quoted remark. The CNMI also ``criticized the 
inability of federal authorities to make swift decisions on what to do 
with'' the persons seeking asylum/refugee/torture protection, before 
lecturing the Feds that ``This is the same [U.S.] administration that 
talks about human rights and taking care of people.''\5\
---------------------------------------------------------------------------
    \5\ Id.
---------------------------------------------------------------------------
    This shortsightedness by the Teno Administration had been pointed 
out nearly a year earlier, to these same CNMI officials, by the CNMI 
media. As one reporter wrote during June 1998: ``Is anyone in the CNMI 
paying attention to where this path may lead? Is anyone in the U.S.? . 
. .'' [t]here are the thousands of foreign workers already in the CNMI, 
many of whom are doubtlessly also desirous not only of escape from 
their own country but also of the [asylum/refugee/torture] freedoms 
offered in the United States. With a mechanism established for 
providing `asylum,' the CNMI faces considerable risk . . . of being 
swamped with [persons] eager to take advantage of those freedoms.''\6\ 
And, even before then, CNMI officials knew full well of the ticking-
asylum-time-bomb and its negative implications for the CNMI: for 
example, they had forewarning by effect of a footnote included in a 
U.S. District Court opinion written around 992--the name of which 
escapes me at the moment \7\--as well as the successful efforts by at 
least two CNMI-situated persons during the early/mid 1990s--Bruce Sui 
from China and Mohammed Kamal Hossain from Bangladesh--to seek asylum/
related protections from the U.S. Government.\8\
---------------------------------------------------------------------------
    \6\ June 19, 1998 On My Mind by Ruth L. Tighe.
    \7\ The opinion, issued by U.S. District Court Judge Alex R. 
Munson, was reportedly researched and written by Judge Munson's then-
law clerk, Gregory Baka who later, after being hired as one of several 
Assistant U.S. Attorneys employed on Saipan, astonished many by taking 
the position that CNMI-situate persons are entitled to no right of 
asylum/refugee/torture protection from the U.S., despite its exclusive 
Treaty authority over and for the CNMI, simply because no procedural 
mechanism had been put into place by the Feds. Prior to Baka's tenure 
as Judge Munson's law clerk at the U.S. District Court on Saipan, 
attorney Bruce Lee Jorgensen held that position.
    \8\ The lurid details of Messrs. Sui's and Hossain's respective 
ordeals, were published in an article titled ``Sweatshop 'Til You 
Drop'' by Ben Jacklet, which can be viewed as a 2-part Feature at 
theStranger.com (Vol. 8 No. 25 March 11-17, 1999). The article detailed 
the involvement by Catholic Social Services and two Americans, Phil 
Kaplan and Wendy Doromal, painting an extremely unflattering portrayal 
of the CNMI garment industry, its connections to the Preston Gates & 
Ellis lobbyist/law firm and PGE's premier lobbyist Jack Abrahamson (now 
being grilled by U.S. officials concerning his links with Tom DeLay of 
Texas/Enron/Bush fame) to whom the CNMI paid millions for lobbying 
against a proposed U.S. takeover of CNMI immigration in the mid-1990s 
reportedly orchestrated at the insistence of former CNMI Governor 
Froilan Tenorio in tandem with CNMI Garment Industry insiders such as 
Beningno Fitial (now head of the CNMI House of Representatives--termed, 
by many in the CNMI, ``the Garment House on Capitol Hill''). The 
response was CNMI-wide outrage, denial, and denunciation aimed at 
Doromal, Kapalan, the article, and its contents. And intensified 
lobbying to the tune of millions in payments by the CNMI (some of which 
later were determined to have constituted unlawful CNMI public 
expenditures). Of course, the facts on which the article was predicated 
were deemed false within the CNMI community, including the refusal to 
believe claims by a CNMI-situated woman named Tu Xiao Mei (who helped 
an ABC 20/20 News team research an investigative report, critical of 
the CNMI's garment industry, televised during 1998) whose CNMI boss, 
she explained, had ordered her to have an abortion and fired her when 
she refused. And given this history, it is noteworthy that both Former-
Governor Froilan Tenorio, and current Speaker of the CNMI's ``Garment 
House on Capitol Hill'', are candidates seeking election during 2005 as 
the CNMI's next Governor.
---------------------------------------------------------------------------
    Some of those person who were, in fact, paying close attention, 
included prospective asylum/refugee/torture protection applicants on 
Saipan--many employed in CNMI garment factories--along with attorney 
Bruce Jorgensen, some colleagues, and then-CNMI-Washington 
Representative Juan N. Babauta. In a July 27, 1999 interview, later 
published by the Variety, Jorgensen explained that all CNMI-situated 
persons from totalitarian countries, including the thousands of Peoples 
Republic of China (``PRC'') nationals employed in Saipan's garment 
industry, could apply for asylum/torture/refugee protection from the 
U.S., thereby urging the Teno administration to refrain from permitting 
additional PRC nationals from entering the CNMI for garment employ. The 
next day, the CNMI leadership seemed to heed the warning, with Zachares 
announcing a total ban on entry permits for PRC nationals. And 
asserting--either mistakenly or falsely--that ``[i]t is impossible to 
claim that you fear persecution in your native country when you're a 
[CNMI] contract worker.''\9\
---------------------------------------------------------------------------
    \9\ July 29, 1999 Marianas Variety and Saipan Tribune (as reported 
by Anence France Presse in US Immigratin News July 30, 1999.
---------------------------------------------------------------------------
    But the Teno administraton quickly reversed course, with the ban 
quickly lifted, and the garment industry thereby permitted to continue 
gaining entry to the CNMI for the 15,000 or so garment industry workers 
now here. All of whom, as Jorgensen had painstakingly cautioned, 
constituted prospective asylum/refugee/torture protection seekers who, 
upon application in the CNMI, could not then be deported to their 
countries of origin unless and until their application/adjudication 
process was completed--and with no such U.S. or CNMI processing 
mechanism in operation.
    Having learned of this policy shift, Jorgensen successfully filed 
the first series of CNMI asylum lawsuits--civil numbers 99-0046, 00-
0005, and 02-0023--in the U.S. District Court on Saipan. And while the 
settlement terms remain confidential, Jorgensen says there is ``nothing 
surprising about the fact that, in the aftermath of settlement, the 
CNMI created its own asylum/refugee/torture mechanism seemingly 
designed to minimize, sidestep, hamper, discourage, scuttle, and derail 
efforts by CNMI-situated persons--including those foolishly brought in 
by garment factories after we had unequivocally established and 
asserted the fact of asylum protections for such workers--to seek the 
far more beneficial protections available under Federal Law from the 
U.S. by way of the Federal Courts, than the minimal protections offered 
by the CNMI's recently-implemented system.'' Characterizing the new 
CNMI system as ``fraught with legal and practical shortcomings'', 
Jorgensen also discussed responsibility/liability issues.
    As to who should bear the responsibility arising by consequence 
from asylum/refugee/torture applicants, Jorgensen did not hesitate: 
``The full responsibility has always been, and remains, that of the 
United States Government whose treaties, including these human rights 
treaties, have placed this burden upon the CNMI general public. That is 
what the Covenant's relavant provisions require, no ifs, ands, or buts. 
U.S. Treaties mean U.S. responsibility. And that means a U.S. 
application/processing/adjudication procedure, like the one invoked 
seven years ago on Tinian, with U.S. funding, U.S. employees. And with 
transfer to U.S. soil of persons seeking asylum--to Honolulu, Seattle, 
Illinois, or New York--just as those from Tinian were so transferred.''
    Relative to the economic/social burdens inflicted upon the CNMI as 
a result of these U.S. human rights/treaty obligations, Jorgensen is 
equally emphatic: ``One key here revolves around the term 
`foreseeability'. Before 1998, the garment industry might have argued: 
`Gee golly, nobody knew these employees we brought into the CNMI, and 
will keep bringing here, from totalitarian regimes like China, could 
seek asylum/refugee/torture protecton thereby preventing the CNMI from 
sending them home.' But that changed, both with the public warning we 
provided in July 1999, and then with the lawsuits later filed on my 
clients' behalf. Then-Washington D.C. Representative Juan N. Babauta 
was astute enough to understand this, and to see it through when he was 
elected Governor. You see, once the lawsuits were settled by the 
Babauta administration, there could be no argument--from the garment 
factory owners and principles, their SGMA flunkies, the Garment Speaker 
of the House, or his minions on Capitol Hill--that they did not forsee 
the consequences. And since damages which are proximately caused to a 
person or persons--like the CNMI general public--by the breach of a 
duty which is foreseeable may be recovered from the persons/entities 
who caused these foreseeable damages, it's easy to see who should pay, 
and pay alot. By way of voluntary contribution, private civil 
litigation, Article X Section 9 litigation by a `private attorney 
general', or litigation initiated by the CNMI government itself. These 
damages, of course, should be paid by garment factory principals and 
their cronies, who remain in the CNMI. And that just might be on the 
horizon, via litigation initiated by the CNMI or private persons, if 
the Garment House on the Hill does not now seek to exempt these 
garment-folks from this liability in yet another weekly-round-robin-
legislative session.''
U.S. vs. CNMI Asylum Part 3: CNMI Law Defective/Related Obstacles
            Defective CNMI Asylum Law
    ``Simply put, the asylum/refugee/torture protections available to 
persons in the U.S. and territories like Guam--being more readily 
available to a wider group of persons than permitted under the CNMI's 
new scheme, with more beneficial consequences, far less likelihood of 
political/legislative whim or interference, and administered by U.S. 
personnel trained by the U.S. and held accountable under U.S. 
corruption/related laws--leave no question that the CNMI's asylum 
system is both legally and practically defective in multiple 
respects'', said attorney Bruce Jorgensen during a recent interview. 
``Please consider some of the following circumstances which suffice to 
explain this conclusion:
    ``First, the U.S. procedure for asylum/refugee/torture protection 
submission, processing, and adjudication, if not made readily available 
on a wholly equal basis--that is, to every person entitled to 
protections implicit in the U.S. Government's agreement to enter into 
and abide by these treaties--would violate equal protection and due 
process rights guaranteed by effect of the U.S. Constitution, as well 
as U.S. laws barring discrimination based on locale.''
    ``Second, there appears scant authority which might permit a U.S. 
state, territory, or commonwealth, to usurp from the U.S. Government, 
the oversight, regulation, and compliance with the U.S. Government's 
international obligations, rights, or responsibilities--whether arising 
by treaty or otherwise. Consider it this way: if the State of Florida 
was concerned about losing Federal funding as a consequence of 
thousands of Cuban and Haitan nationals coming to and seeking asylum in 
Florida, would Florida be permitted to initiate and administer itself 
an asylum program more restrictive than the U.S. asylum system? 
Certainly not. This is what Federal obligations are all about. 
Similarly, if the CNMI is concerned about losing control over CNMI 
immigration as a consequence of thousands of Chinese nationals being 
permitted to enter the CNMI and seeking asylum, the CNMI may not be 
permitted to initiate/administer an asylum program more restrictive 
than the U.S. asylum system in violation of U.S. constitutional 
safeguards requiring equal protection and process. And the CNMI 
Government's lawyers are certainly aware of this fact and must have 
explained it to their bosses by now, especially having been reminded of 
it most recently in the CNMI v. U.S. case, involving submerged lands 
around the CNMI, which the CNMI being represented by DOLI lawyer James 
Livingstone lost on February 24, 2005.\10\ The U.S. Ninth Circuit Court 
went to great pains to explain this scenario. Consider some of the 
court's language, for instance: `Article 1 [of the Covenant] 
establishes that the United States has ``complete responsibility'' for 
and authority with respect to matters relating to foreign affairs';\11\ 
`The paramountary doctrine draws its authority from the inherent 
obligations placed on the sovereign governing entity to conduct 
international affairs and control matters of national concern . . . The 
Covenant unquestionably places these powers and obligations in the 
United States';\12\ `There is no indication . . . that the United 
States contemplated a permanent divestment of the paramount rights that 
the United States would obtain upon assuming sovereignty [under the 
Covenant]';\13\ `As the paramountcy cases established, that state 
interest is inferior to the federal rights.';\14\ and, `Laws passed by 
the CNMI legislature to the contrary are inconsistent with the 
paramountcy doctrine and are pre-empted by federal law.'\15\
---------------------------------------------------------------------------
    \10\ CNMI v. U.S., Slip Opinion No. 03-16556 (9th Cir. Feb. 24, 
2005).
    \11\ Id. at 2189 (1st full paragraph).
    \12\ Id. at 2195 (2d full paragraph).
    \13\ Id. at 2199 (2d full paragraph).
    \14\ Id. at 2200 (1st full paragraph).
    \15\ Id. at 2203.
---------------------------------------------------------------------------
    ``Third, under the U.S. system, all persons may apply for asylum/
refugee/torture protection, whether or not a deportation order has been 
issued. The CNMI's law, requiring such an order, is consequently more 
restrictive in violation of U.S. equal protection/due process 
constitutional obligations.''
    ``Fourth, the U.S. system provides U.S. employed administrators, 
judges, and the like, who have undergone U.S. training, U.S. security 
screening, and other U.S. requirements, having no political, family, 
economic, or similar obligations to the CNMI or persons/businesses 
situated within or connected to the CNMI. The CNMI's scheme does not 
provide these protections, so there arise, yet again, instances of 
equal protection/due process/discrimination by which CNMI-situated 
persons are subjected, while those in the U.S. are not.''
    ``Fifth, the U.S. system inherently subjects U.S. personnel within 
the system to federal corruption standards, with federal criminal 
punishment and non-parole jail sentences for violation, while the 
CNMI's system does not. Again, this affords U.S. situated persons far 
greater protection and benefit than is available to those in the CNMI, 
in violation of equal protection, due process, and discrimination 
prohibitions.''
    ``And Sixth--perhaps most importantly--is that persons seeking 
protections respecting asylum/refugee/torture under the U.S. system, 
have been already permitted to go from the CNMI to Honolulu, Seattle, 
Illinois, and elsewhere in the U.S. itself, while those seeking help 
from the CNMI will only be permitted to stay in the CNMI.''
    ``It really boils down to this: the U.S. Government may not opt to 
provide greater treaty protection to one group of people, and lesser 
treaty protection to another group of people, where the obligations to 
protect arise from treaties with which the U.S. exercises full and 
exclusive treaty duties, obligations, and sovereignty. The Feds may not 
and must not be allowed to discriminate against and provide lesser 
protection for persons situated within the CNMI. This is not a CNMI 
immigration matter, but a U.S. treaty matter, of human rights and jus 
cogens (international common/customary law)--do away with the INS, do 
away with DOLI, do away with TSA and post-9/11 Orwellian law, and the 
U.S. still has these treaty obligations. And with no double-standards 
or preferential treatment permissible, to the detriment of CNMI-
situated people.''
    ``The U.S. may not pick and choose which protections they may or 
may not provide to the CNMI. Birth in the CNMI, for example, confers 
U.S. citizenship. The U.S. may not change that by deciding, for 
example, that only birth on Guam will suffice for U.S. citizenship. Nor 
would the U.S. heed the contention that, since the Feds give CNMI-
situated persons diminished asylum/refugee/torture protection rights, 
then persons in the CNMI may refuse to register for prospective 
military service.''
    ``Whether there might also rise a challenge, on the basis that the 
Garment House on Capitol Hill seem to change the CNMI's laws as often 
as their socks, might be interesting as well. Certainly, the unstable 
nature of the CNMI's laws respecting DOLI and the garment industry, 
would give rise to equitable considerations substantiating the flawed 
nature of the CNMI's asylum scheme.''
Related Obstacles
    Beyond the flawed nature of the CNMI's new mechanism, it was also 
pointed out that obstacles likely awaiting CNMI-situated persons 
seeking U.S. asylum/refugee/torture protection, included U.S. 
resistance, and CNMI political concerns.
    ``The U.S. Government is not likely to voluntarily provide the 
procedural mechanism required to fulfil these treaty obligations if the 
past is any indication. U.S. officials employed by the INS and 
stationed on Saipan, for example, refused to accept the completed I-589 
and I-590 forms submitted to them on behalf of my clients, reputedly on 
the advice of former Assistant U.S. Attorney Gregory Baka,'' Jorgensen 
mentioned. ``So a lawsuit or series of lawsuits, filed in the U.S. 
District Court on Saipan, will probably be necessary--either by an 
individual, a group of individuals, or by way of what is called a 
`class action' lawsuit. But this process might be expedited, for 
example, by seeking only what is called `declaratory relief' and/or a 
`consent decree'. And, of course, anyone seeking protection, who 
participates as a party in such a suit, would seek from the U.S. Court 
a protective order preventing their deportation until the lawsuit is 
resolved, which is the type of protection made available to my clients, 
by the U.S. court, in earlier cases ultimately settled.''
    This stubbornness on the part of the U.S. is not surprising with 
respect to asylum in the CNMI, however. As recent experience shows 
``this is the same U.S. Government which, through its U.S. officials, 
went to extraordinary lengths in an effort to deprive the privileges of 
U.S. citizenship and U.S. passport possession to the small group of so-
called `Stateless People' recently on Saipan. And there, as in this 
instance, the Feds adopted as part of their defense the tactics of 
delay, legal wrangling in court, and the like, aimed at frustrating and 
discouraging the persons entitled to the rights they finally attained 
only by suing the U.S. and prevailing in the Federal Court system. This 
as, all the while, U.S. officials on Saipan and elsewhere routinely, 
but mistakenly, opined that these folks had no substantial likelihood 
of success, and that the U.S. would prevail. And like they are now 
doing with the Dekada folks.''
    Then there are the CNMI's politics. ``Many in the CNMI fear that, 
if U.S. treaty/refugee/asylum protections are provided to CNMI-situated 
persons, then the Feds will take over the CNMI's immigration control. 
First off, this does not appear likely, as it takes a Congressional law 
to accomplish a takeover. But more importantly, many people including 
myself believe that a U.S. takeover would be in the CNMI's best 
interests for a wide range of reasons: the U.S. would have to hire 
hundreds of U.S. immigration employees, almost certainly from the CNMI, 
who then would be paid by the U.S., and would receive U.S. funded 
benefits/COLAs/per diems/retirement/fixed expenses/equipment/vehicles/
airplanes/patrol vessels/resources/training/travel, all courtesy of the 
U.S. Government's pocketbook--translating into substantial cost savings 
to the CNMI Government's payroll, expense, and retirement systems. And 
then the CNMI-situated persons seeking asylum/refugee/torture 
protection would be able, during the application process, to depart the 
CNMI for Guam or--as have many Guam-situated seekers--for the the U.S. 
Mainland. But perhaps most importantly, in the culture of `finger-
pointing' and `blame-avoidance' which typifies U.S./CNMI relations, the 
tables would finally be turned against routine U.S. criticism of the 
CNMI's untenable immigration situation, as the CNMI's immigration woes 
are almost certain to persist--by virtue of foreign laborers having 
come to be expected as an institutional necessity to CNMI development--
with the result of U.S. control being the CNMI's ability to finally 
point the accusatory finger-of-blame at the U.S., while avoiding U.S. 
repercussions, as immigration problems most certainly arise to plague 
the CNMI in the future.''
U.S. v. CNMI Asylum Part 4: CNMI Court Hostility; Help For Asylees
    ``The U.S. Constitution controls, as the Supreme Law, over any and 
all treaties binding by effect of a two-thirds U.S. Senate vote, over 
laws enacted by the U.S. Congress, over laws enacted by the CNMI 
Legislature, and over all administrative `agreements' or 
`understandings' by and between U.S. and CNMI officials. The U.S. 
Supreme Court controls all interpretation of the U.S. Constitution by 
effect of the Court's rulings. And the Court made crystal clear with 
the 1950's case Brown vs. Board of Education of Topeka Kansas, and has 
emphatically reiterated since then, that the disparate notion of 
`Separate But Equal' treatment of persons entitled to the full 
protections of the U.S. Constitution is wholly unlawful.'' This, 
explained lawyer Bruce Lee Jorgensen, is the unavoidable obstacle 
precluding U.S. and CNMI officials from preventing CNMI-situated 
persons from seeking and obtaining U.S. asylum/torture/refugee 
protections far more beneficial, to these seekers, than those similar 
but less beneficial protections ostensibly available under the CNMI's 
recently enacted legislative scheme. ``And while these Government 
officials have attempted, and continue, to devise systems by which this 
fact of U.S. Constitutional Supremacy is circumvented, the U.S. 
Judiciary, if called into play by the filing of federal lawsuits on 
these seekers' behalf, will not let this happen,'' Jorgensen reassures.
    ``Fixation on the Covenant--the agreement by which the CNMI was 
established as a U.S. Commonwealth--as the focal point of asylum/
refugee/torture protections, tends to obfuscate this fact of the U.S. 
Constitution reigning supreme. Because the Covenant is, in the end, not 
a U.S. Treaty presented to and ratified by two-third of the U.S. 
Senate, but merely a run-of-the-mill law, enacted by the U.S. Congress. 
There it is: a mere federal law codified in the U.S. Code. And a law, 
consequently, whose terms and application--like any other U.S. law, 
regulation, administrative ruling, or official `agreement' or 
`understanding'--must wholly comport with the U.S. Supreme Court's 
denunciation of, and prohibition against, `Separate-But-Equal' 
treatment of persons entitled to the full protections of the U.S. 
Constitution, as are persons physically situated in the CNMI who have 
arrived within the CNMI by any means, lawful or otherwise. So any 
fixation should be redirected at the outset, away from the Covenant, 
and pointed instead directly at the U.S. Constitution as the Supreme 
Law.''
    ``Neither the U.S. Constitution, nor the Covenant, permit U.S. and 
CNMI officials from ignoring this Supremacy Doctrine. One result is 
that neither U.S. nor Federal officials may enact laws, or implement 
formal/informal `agreements' or `understandings', which effectively 
impose, upon CNMI-situated persons, standards/procedures which are more 
stringent or less beneficial, than those standards/procedures/benefits 
made available to U.S. Mainland-situated person, or to persons situated 
35 miles away from the CNMI's southernmost island (Rota) on the U.S. 
Territory of Guam. Beyond the Constitutionally violative nature of such 
a scheme, consider just one of the practical inequities which might 
otherwise result: persons from totalitarian regimes like the Peoples' 
Republic of China (`PRC') who unlawfully enter Guam and seek asylum/
refugee/torture protection are granted full U.S. protection, permitted 
to remain indefinitely, and freed pending disposition to travel 
anywhere in the U.S. or its territories; while persons from this same 
PRC totalitarian regimes who have lawfully been permitted to enter the 
CNMI and seek asylum/refugee/torture protection are denied U.S. 
protection and deported, despite the fact of application not of a 
`similar' U.S. treaty, but the exact same treaty as binding on Guam? 
And so illegal entrants are rewarded while legal entrants are penalized 
by application of standards/procedures/benefits conferred by the exact 
same treaties?!?''
    Jorgensen later alluded to historical background by way of 
explaining further. ``Think of an umbrella or a shield. Both used for 
protection. Well during the 1940s and later, long before the CNMI was 
created in tandem with the U.S., there was offered to the U.S. by the 
International Community an `umbrella' or `shield' in the form of 
various asylum/refugee/torture protections. One umbrella. One shield. 
And upon accepting this `umbrella/shield', the U.S. agreed to use the 
`umbrella/shield' to provide asylum/refugee torture protections to all 
persons falling within the ambit of U.S. Constitutional rights. Next 
came the 1950's and the Brown decision. `Look' said the U.S. Supreme 
Court, `you can not have use separate, different, school buildings, one 
to educate the White boys and girls, and one to educate the Black boys 
and girls. None of this ``Separate-But-Equal'' nonsense. You must use 
the same building because we have determined that equal right and due 
process clauses of the U.S. Constitution bar this ``Separate-But-
Equal'' pretext.' Well this, of course, meant as well that the U.S. was 
and remains limited to using one, and only one `Treaty Umbrella', one 
and only one `Treaty Shield', which must be made equally available to 
protect all entitled to U.S. Constitutional rights--no `Separate-But-
Equal' umbrellas or shields allowed.''
    ``Now along came the 1970s, with the U.S. approaching the folks on 
Saipan, Tinian, and Rota--and vice versa--and the U.S. folks saying: 
`Look, the U.S. is willing to sign this Covenant, and to make this 
Covenant into U.S. law, if you specifically agree as part of this 
Covenant that you are and shall remain prohibited from owning your own 
`Treaty Umbrella'/`Treaty Shield' but, instead, agree to use 
exclusively the `Treaty Umbrella'/`Treaty Shield' already possessed by 
the U.S. No substitutions, no alternatives, no `Separate-But-Equal' 
umbrellas/shields, no bigger umbrellas/shields, no smaller umbrellas/
shields. The CNMI must agree to use the one and only U.S. provided 
`Treaty Umbrella'/`Treaty Shield'. And, by the way, the CNMI must 
further expressly agree that all provisions of the U.S. Constitution 
relating to equal protection/due process, as well as the U.S. Supreme 
Court's interpretation of these U.S. Constitutional protections, shall 
be binding upon and within the CNMI.''
    The CNMI people, in essence, said ``O.K. We'll agree to that in 
exchange for the extraordinary benefits the U.S. has agreed to give us, 
like: automatic U.S. citizenship; birth within the CNMI conferring U.S. 
citizenship; unrestricted rights to enter/reside/work/buy land anywhere 
in the U.S.; more per-capita federal spending, within the CNMI, of tax 
money paid by U.S. Mainland residents, than anywhere in the 50 U.S. 
states themselves; no taxation upon persons within the CNMI payable to 
the U.S Treasury; the exclusive right for `persons of NMI descent' to 
own land in the CNMI to the exclusion of all other U.S. citizens; full 
control over CNMI immigration subject to U.S. takeover upon enactment 
of any U.S. laws permitting takeover; no worries over military defence 
which the U.S. shall provide via the U.S. Coast Guard, Navy, etcetera--
basically all of the benefits and few of the burdens of U.S. 
affiliation. And in exchange, we in the CNMI agree to restrict CNMI-
situated persons to use of only the U.S. single `Treaty Umbrella'/
`Treaty Shield'. No mini-umbrellas/shields, no partial umbrellas/
shields here. The `whole nine yards' ''. And so this agreement, called 
the Covenant, was enacted--not as a U.S. Treaty by a two-third Senate 
vote, but as a simple U.S. law subject to all U.S. Constitutional 
protections respecting equal protection/due process and the U.S. 
Supreme Court's interpretative enforcement of these protections via the 
Supremacy Clause.
    ``And so we have this single `Treaty Umbrella/Shield' provided by 
the Covenant. And the U.S. Supreme Court's prohibition against 
`Separate-But-Equal' treatment to all persons granted equal rights/due 
process/equal protection by effect of the U.S. Constitution including 
all persons in the CNMI. Now may the U.S. Congress or the CNMI 
Legislature, by law or by `agreement' or by `understanding' limit, 
ignore, circumvent, or prohibit application or availability of any 
portion of these Constitutional protections to persons in the CNMI--
such as persons from totalitarian regimes seeking asylum/refugee/
torture protection from the U.S. while physically present in the CNMI? 
No--at least not lawfully. Neither the he U.S. nor the CNMI may 
lawfully say, in essence: `Well, the folks on Guam and in the U.S. 
Mainland can use 100 percent of this one ``Treaty Umbrella'' we own, 
and may receive 100 percent protection/benefit from this one ``Treaty 
Shield'' we own; but the folks in the CNMI may only use 40 percent of 
the ``Treaty Umbrella'' and receive 40 percent protection/benefit from 
the shield.' Because any such policy/procedure, whether enacted by U.S. 
law, CNMI law, or U.S./CNMI official `agreement'/`understanding' would 
itself be not worth the paper upon which it is written because it is 
violative of the Supreme Law guaranteed by the U.S. Constitutional 
protections as to equal protection/due process. Neither the U.S. nor 
the CNMI may let Guam/U.S. Mainland residents use the entirety of this 
single `Treaty Umbrella'/`Treaty Shield', while limiting persons in the 
CNMI--the Westernmost of any U.S. Commonwealth--to only the Western 
quadrant of this `Treaty Umbrella'/`Treaty Shield'. And think of 
another practicality--does application of U.S. law used by the U.S., in 
effect as a `Sword', depend on where persons are physically situated? 
No, if you violate a U.S. law making criminal drug dealing which you 
committed in Florida, and you go to the CNMI after your dealings, you 
are hauled into the U.S. Court in the CNMI under U.S. domestic law 
enacted by the U.S. Congress to face the consequences.''
    ``And so,'' Jorgensen paused, ``none of this is a surprise or 
revolutionary. There is no Rocket Science involved. No intellectualism 
requiring an Einstein geneology. Goodness, if a `Dolt' like me can 
understand this, than the intellects heading the CNMI's Judiciary five 
years ago, like the CNMI's attorneys back then, certainly understood 
this.''
    Why, then, was the simmering issue not fully and finally resolved 
five or more years ago? And why, too, did the CNMI Governments of the 
1990s, under former Governors Froilan Tenorio and Pedro Tenorio, and 
with knowledgeable CNMI legislators like House Speaker Beningo Fitial 
in control, not only fail to restrict the number of PRC nationals 
entering the CNMI but, rather--well aware of this dire scenario, 
overwhelmingly detrimental impact, and imminent demise of the CNMI's 
garment industry come the subsequent Babauta administration--opt 
instead to permit thousands upon thousands more PRC garment workers 
(estimated at 15,000 or so) entry for employ in the CNMI's garment 
industry now in the throes collapse on Saipan? ``Perhaps,'' Jorgensen 
surmised, ``the fellows then heading the CNMI Judiciary, and the highly 
paid in-the-know attorney then employed to counsel the CNMI--like 
Herbert Soll, Mark Zachares, Robert Goldberg, and David Sosebee--were 
playing checkers rather than chess with the issue. Focused on emotions, 
personalities, on what they perceived as their source of immediate 
irritation, rather than focusing more professionally on the big picture 
at hand. Kind of like having anger and vengeful thoughts cloud and 
interfere with objective reason. Or like playing a game of pool, and 
looking only at the cue ball and a single target-ball, rather than 
looking all 16 balls and where they are situated on the table. Or, 
maybe, they simply lacked the backbone, impartiality, or political will 
to timely, rationally, equitably, or lawfully deal with the long range 
asylum/refugee/torture protection issue, in lieu of directing 
hostility, discouragement, retribution, and attempted intimidation, at 
who and what they perceived to be the irritant--while foolishly hoping 
that this tactic would, in turn, have a `chilling effect' on the few 
pro-rights lawyers and lay persons willing to become and remain 
involved, while making the irritant, and the ultimate problem, either 
disappear under the carpet, or go away forever.''
CNMI Judiciary: Failure/Lost Confidence/Hostility/Retribution
    Pressed to document what some perceive, and previously 
characterized by Jorgensen, as the CNMI Judiciary's hostility or 
vindictiveness regarding the asylum/refugee/torture protection issue, 
and respecting those attorneys and others asserting asylum/refugee/
torture claims for protection between 1999 and 2002, Jorgensen cited 
historical background, multiple lawsuits, and related proceedings 
documented in records located in the U.S. Court/Saipan, the CNMI 
Superior Court, quasi-judicial entities including the CNMI and Hawaii 
bar associations, and other materials.
    ``Now bear in mind, that CNMI Judiciary insiders, like the CNMI 
judges and attorney/law clerks of the 1990's, had first glimpsed the 
imminent CNMI asylum headaches more than 10 years ago, during the early 
1990's. Just as the CNMI Judiciary was the first venue in which came to 
light the so-called `Article XII' real estate claims \16\ which gave 
rise to protractive, vexatious, litigation during the late 1980's and 
into the 1990's, with the effective destruction of the CNMI's 
previously-vibrant economy in its wake, and the resulting insistence by 
CNMI leadership at that time--folks like Former CNMI Governor Froilan 
Tenorio and longtime CNMI House Speaker/member Benigno Fitial \17\--
that a CNMI Garment Industry reliant nearly exclusively upon a labor 
force of Peoples Republic of China nationals should be vastly and 
swiftly expanded, to its year 2003 level of 15,000 or so foreign 
workers, as a principal means of `improving' the CNMI economy ruined by 
Article XII claims barred after only after this ruin had occurred. And 
in both instances--both the looming asylum matter and the Article XII 
land claims, the CNMI Judiciary had first crack and best opportunity at 
providing immediate, rational, lawful, and equitable solutions to these 
relatively simple issues. But instead, these CNMI judges of the 
1990's--many still there or CNMI-employed--did just the opposite. And 
as a clearly foreseeable consequence, both the number and scope of 
asylum claims, like Article XII claims before them, have dramatically 
increased, mushroomed, and escalated, to the point where the CNMI's 
present leadership, headed by Governor Juan Babauta, now has been 
forced into dealing with a crisis respecting asylum/refugee/torture 
protection, which crisis was thrust upon his administration not only by 
predecessors like former CNMI Governors Froilan Tenorio and CNMI House 
Speaker Benigno Fitial, but equally if not exponentially-more-so by the 
CNMI Judiciary which, with a few exceptions,\18\ failed dismally in its 
many, many, many opportunities during the 1980's and 1990's to avoid 
the unequivocally and forseeably detrimental impact of these asylum and 
Article XII issues on the CNMI General Public.''
---------------------------------------------------------------------------
    \16\ The CNMI has its own constitution which, at Article XII, 
restricts ownership of land to ``persons of Northern Mariana Islands 
(`NMI') descent'' meaning, essentially, that persons of NMI descent may 
lease their land pursuant to 55-year leases to others, but not sell the 
land. This, in turn, means that persons of NMI descent may travel 100 
or so miles south to Guam, a U.S. Territory, and purchase land from 
their cousins or uncles, or go to the U.S. Mainland and buy land from 
Statesiders, but these same Guamanians and Statesiders, like all 
others, may not purchase land within the CNMI--only lease the land for 
55-year terms. During the 1980's, massive investment was infused into 
the CNMI by way of property leases by persons of NMI descent to 
Japanese, U.S., Asian, Australian, and other investors. Land values 
skyrocketed and so, apparently, did greed. Persons who had leased their 
properties, then saw the investors profit either by subsequent 
development like hotel/residential construction, or subleasing to 
others, for profit. And so a legal theory revolving the so-called 
``resulting trust'' theory was devised by a few attorneys, including 
Theodore Mitchell, in an effort to reclaim the property leased by the 
original owners of NMI descent, who naturally wanted also to keep the 
lease payments they had received. Never mind that some of the lawyers 
closely involved in the underlying transactions later became judges 
with the CNMI Judiciary with some on the bench even today. The lawsuits 
were entertained by the CNMI Judiciary for years and years. And then 
for more years when CNMI advocates of this reclamation, seeing the 
writing on the wall by virtue of the right then to appeal CNMI trial 
court rulings through the U.S. Court system, prevailed upon the CNMI 
Legislature to create their own CNMI Supreme Court, with many of these 
same CNMI judges aboard. Naturally, the litigation went on and on given 
life by this new CNMI Supreme Court. And so the investors said ``Good-
bye'' to the CNMI in droves, astounded not only by the fact of the 
claims, but even more so by perceived complicity of the CNMI Judiciary 
in not only entertaining the claims, but effectively protracting 
matters for years on end, thereby applying the death knell not only to 
multimillion-dollar-commercial investors, but scores of local residents 
not of NMI descent who simply wanted to build family homes on leased 
real estate in the CNMI. With outrage and fierce repercussion from the 
international business community which, ever since, generally has 
viewed CNMI investment as a highly speculative endeavour. Japan Air 
Lines' headache with the Nikko Hotel property on Saipan is just one 
example.
    \17\ As previously mentioned in passing, at n.8 above, Tenorio 
(CNMI Governor between 1993 and 1997) and Fitial (longtime CNMI House 
or Representative member, perennial employee/promoter and/or 
beneficiary of Saipan garment-industry-magnate Willie Tan, and current/
longtime Speaker of the CNMI House of Representatives dubed the 
``Garment House'' by many) have announced their candidacies for 
election as the CNMI's next Governor, to be decided in Fall 2005 
elections. Key/longtime friends of the CNMI's garment industry, they 
were at the CNMI helm as events relating to initial requests for 
asylum/refugee/torture protecton, by CNMI-situated persons, came to 
insiders' knowledge during the early-mid 1990's, as described 
previously here, e.g., in the text at n. 8, and in the lurid orderal of 
Messrs. Sui and Hossain published in an article titled ``Sweatshop 'Til 
You Drop'' by Ben Jacklet, which can be viewed as a 2-part Feature at 
theStranger.com (Vol. 8 No. 25 March 11-17, 1999).
    \18\ One such exception, in Jorgensen's view, might be Timothy H. 
Bellas, who in his capacity as a CNI Superior Court Judge, had the 
courage to issue a March 15, 2000 Order Granting Temporary Restraining 
Order And Expedited Hearing (For Publication) on behalf of Juyel 
Ahmed--the asylum/refugee/torture applicant jailed jailed indefinitely 
throughout the 20 preceding months, between July 1, 1991 and March 15, 
2000 in the CNMI's ``Goldberg Gulag'' immigration detention center as 
documented in Judge Bellas' order at p.2--in CNMI Superior Court 
Special Proceeding No. 00-0101A, Juyel Ahmed v. Major Ignacio Celis 
et.al. But even Judge Bellas was unwilling to address Ahmed's claim to 
asylum/refugee/torture protection--basing Ahmed's release, instead, 
upon Constitutional prohibitions respecting indefinite jail terms of 
detention, as noted at page 2 of the order--leaving Ahmed to seek 
immediate asylum/refugee/torture protection against deportation by the 
CNMI (then set for March 16, 2000) from the U.S. down the road. And not 
long afterwards, Bellas was gone, having been rejected by CNMI voters 
for retention to the CNMI Judiciary's bench.
---------------------------------------------------------------------------
    ``And so, the first asylum/refugee/torture protection claim was 
filed, during Fall of 1999 as Civil Action No. 99-0046, as a civil 
lawsuit in the U.S. District Court for the Northern Mariana Islands on 
Saipan, after a Peoples' Republic of China (`PRC') citizen named Rui 
Liang, who had been previously shot with a gun by PRC soldiers as he 
protested against the PRC government at Tiannamon Square, was detained 
on Saian at the detention centre operated by DOLI but referred to 
during that period as the `Goldberg Gulag','' said Jorgensen. ``And the 
second, Civil Action No. 00-0005, was also filed in the U.S. Court 
during the mid-February of 2000.''
    ``Now bear in mind, that no advance-plan or pre-set agenda existed 
regarding the filing of these Federal lawsuits. A shot had been fired 
across the CNMI's bow a few months earlier--with the publication of the 
fact that CNMI-situated persons were entitled to seek the full extent 
of U.S. Treaty-obligated asylum/refugee/torture protections while in 
the CNMI, the CNMI's head-lawyer Mark Zachares denied this but then 
immediately sealed the CNMI's borders to further entry by PRC 
nationals, only to reverse this short-lived policy right away. And more 
importantly, my law practice had been whittled down to just a few 
cases, due to my intended permanent departure from the CNMI during Fall 
1999, where my wife had moved in anticipation of giving birth to our 
first son on November 15, 1999. So my bags were packed, with the CNMI 
nothing but a memory in the rearview mirror, we thought.''
    ``But then along came Mr. Liang, whose plight was disclosed to me 
by former CNMI-attorney John Chambers, in whose office my belongings 
were being stored in a makeshift preparation for my departure from the 
CNMI. And so Mr. Liang needed legal help respecting `asylum' and, there 
being no other CNMI-situated lawyers willing to step up and confront 
the CNMI Government--out of concerns of reprisal many claimed--I agreed 
to help and filed the first U.S. Court case, 99-0046.''
    ``A few months later, with Mr. Liang still locked away by the CNMI, 
a note was handed to me as I visited Mr. Liang at the internment 
prison. The note was provided by person who, like Mr. Liang, was 
imprisoned there. And the note was from Juyel Ahmed who, under the 
auspices of the so-called `Goldberg Gestapo' had seen fit to lock this 
man, Juyel Ahmed, away for 20 months--from July 1, 1998 until we 
secured his release on March 15, 2000--with no rights to counsel, 
visitation, ad nauseam.\19\ This the result of Mr. Ahmed's staunch 
refusal during this 20-month period, to cooperate with Mr. Goldberg's 
threats and extensive efforts to have Mr. Ahmed deported to his country 
of origin, where Mr. Ahmed had been subjected to politically-motivated 
tortures including having his face placed into boiling water, having 
his feet sliced open, and having sand put into his sliced feet, while 
incarcerated by his government in that country.''\20\
---------------------------------------------------------------------------
    \19\ The length of incarceration and related conditions were 
partially, and mildly, detailed in the Superior Court order described 
at footnote 18 above. For much greater detail, and insight as to 
atrocities inflicted upon Mr. Ahmed first as a political prisoner in 
his country of origin, then later as described in allegations made 
against then-CNMI Assistant Attorney General/DOLI attorney Robert 
Goldberg (which allegations Goldberg never denied under oath before the 
U.S. Court/Saipan) pertaining to Ahmed's 20-month stretch in the Gulag 
on Saipan, reference should be made to the declarations submitted by 
Mr. Ahmed under penalty of perjury, as exhibits to the complaints filed 
on his behalf in the U.S. Court/Saipan, Civil Action No. 00-0005. For 
strategic/practical reasons, claims asserted versus Goldberg and his 
boss Mark Zachares--also an attorney, and then Secretary of the CNMI's 
Department of Labor and Immigration--were later dismissed without 
opposition or appeal by Jorgensen/Ahmed. Yet a few years later, after 
Goldberg departed the CNMI and sought admission to the Bar of the State 
of Hawaii during 2004, none of multiple CNMI-situated lawyers 
contacted, would furnish documentary evidence of similar conduct/
allegations against Golberg, see e.g. the U.S. Court/Saipan ruling in 
the Gorromeo case (where Goldberg/Goldberg purported to justify 
warrantless searches of persons/property) the Office of Disciplinary 
Counsel of the Hawaii State Bar Association--as a consequence of which 
Goldberg, almost certainly the most often-sued-lawyer in the history of 
CNMI-employ, with almost-certainly the highest-per-lawyer CNMI 
Government payout for being sued, has now been permitted to engage in 
the practice of law on the Island of Kauai in the State of Hawaii.
    \20\ Mr. Ahmed's graphic description of these torture sessions at 
the hands of government officials in his homeland, and the subsequent 
deprivations to which he was then subjected at Mr. Goldberg's 
instruction while in ``the Gulag'' on Saipan, are extensively detailed 
under penalty of perjury in the first several documents appended as 
Exhibits to the complaints filed on Mr. Ahmed's behalf in Civil Action 
No. 00-0005, U.S. District Court for the Northern Mariana Islands, on 
Saipan.
---------------------------------------------------------------------------
    ``Since Mr. Ahmed had not been permitted to have visitors, or use 
the telephone, or consult a lawyer, his note to me pitifully begged 
that he be permitted to seek representation, release, and asylum/
refugee/torture protection, and that I assist him in this endeavor.''
    ``Now bear in mind that between the few months which had passed--
between the filing of the first case on Mr. Liang's behalf, around 
September 1999, and the filing of the second case, during mid-February, 
2000--there had been threats and intimations of physical violence made 
against myself and my wife. These we reported to the FBI Office on 
Saipan, where we later met with an FBI agent and detailed some of the 
facts. On another occasion, I was told by a CNMI-lawyer that while 
observing his son's baseball game on Saipan, that he had been 
confronted by Saipan Garment Manufacturing Association President 
Richard Pierce, who had angrily blurted out: `Does Jorgensen have a 
deathwish!?!' ''
    ``Yet during this same period of six-months-or-so, between 
September 1999 and February 2000, there were also a few CNMI-situated 
persons offering `pat-on-the-back' type encouragement, though primarily 
in hushed-private-encounters. You see, they also were concerned about 
retaliation/retribution, merely for being seen with me.''
    ``And many, many, prospective clients interested in seeking asylum/
refugee/torture protection, were referred to me during this same 
period. One source of these referrals, according to many of these 
prospective clients, was CNMI-situated attorney Pamela Brown, who was 
then employed as U.S. Ombudsman on Saipan. And Ms. Brown's husband, 
Mark Blackburn, was one of the few people kind enough, during this 
period, to approach me in a Saipan restaurant, introduce himself, and 
voice his appreciation for my efforts on behalf of these persons 
seeking human rights protections. And, as the world turns, around six-
months into the CNMI Administration headed by present Governor Juan 
Babauta, Ms. Brown was appointed the CNMI's Attorney General Attorney 
General. Around mid-2001 after Governor Babauta's initial appointee--
CNMI Attorney Robert Torres, previously employed as a lawyer for the 
U.S. Government's Immigration and Naturalizaton Service, I am told--
inexplicably resigned his appointment as CNMI Attorney General. 
Needless to say, from the moment of Ms. Brown's appointment, onward 
through today, she has not returned a single one of my telephone calls, 
including those in which I left messages requesting return calls along 
with my contact numbers, on her direct-line answering machine at her 
office.''
    ``Meanwhile, my personal circumstances had also changed 
drastically. My newborn son, who arrived on November 15, 1999, could 
use a little fatherly-attention it seemed. Together with my wife, the 
whole family had moved to Palau--leaving the personal threats, 
intimidation, and threatened reprisals behind, and leaving me alone on 
Saipan. With no office. Until soon-to-be-departing CNMI lawyer V.K. 
Sawhney offered me the use of his office.''
    ``Well it being apparent that no other CNMI-situated lawyers would 
help these people, I opted to extend my CNMI stay, for just a few 
months, we anticipated. And ironically, it was during this several-
month period during early 2000, that a series of events--originated and 
apparently conceptualized by by then-CNMI Judiciary officials, CNMI 
attorneys, and the CNMI Legislature in an effort to hasten my CNMI 
departure, with vindictive retribution the game-plan--which ultimately 
caused me to remain in the CNMI, and to be retained as counsel in these 
proceedings, until their final disposition during the Summer of 2003. 
Because, had this vindictive retribution not transpired, the entire 
matter of asylum/refugee/torture protection might have been swept under 
the rug by the U.S. and the CNMI--I was one step from leaving, for 
good, when this `CNMI-Brain-Trust' came after me and, unwittingly, 
inflamed the issue exponentially. With `Yours Truly' not only still 
around, but poised to file yet another lawsuit--which occurred on May 
22, 2001, in the U.S. District Court proceeding Jiang v. CNMI, et.al., 
Civil Action No. 02-0023.''
    ``Digressing back to mid-February 2000, and Mr. Ahmed's 20-month 
internment at the `Goldberg Gulag'. There being no CNMI-licensed 
attorneys interested in or willing to assist Mr. Ahmed, I agreed to 
help him in the U.S. District Court on Saipan, where, I have been fully 
licensed to practice law since 1986.''\21\
---------------------------------------------------------------------------
    \21\ Admission to practice law before the U.S. District Court for 
the Northern Mariana Islands, through the late 1980's, was permitted--
as in many U.S. District Courts in the States--where an applicant had 
been admitted to practice law in one of the 50 States of the United 
States. And since Jorgensen had earlier taken and passed the Hawaii Bar 
Examination, and been admitted to practice law in all Hawaii state and 
federal courts, he was duly admitted to practice before the U.S. Court 
on Saipan. As well as the High Court of the Trust Territory of the 
Pacific Islands, the Republic of Palau (Belau), and the United States 
Court of Appeals for the Ninth Circuit.
---------------------------------------------------------------------------
    ``You see,'' Jorgensen explained regarding CNMI attorney/court 
admissions, ``like many present/past CNMI Justices and Judges, present/
former CNMI Attorney Generals, CNMI Assistant Attorney Generals, CNMI 
hearing officers, and other attorneys--among them, I am told, such 
unforgettable luminaries as Justice Alexandro C. Castro, former CNMI 
Attorney General Herbert Soll, former CNMI Attorney General Sebastian 
Aloot, former CNMI Attorney Acting Attorney General Maya Kara, former 
CNMI Secretary Mark Zachares, former CNMI Assistant Attorney General/
DOLI Prosecutor Robert Goldberg (throughout the majority of his CNMI-
employment), legions of CNMI-employed attorneys past/present (who are 
supposed to be the best around since they represent the CNMI public 
most closely), former CNMI Supreme Court Justice Pro Tem Larry Lee 
Hillblom (co-founder of DHL Worldwide Express), roughly 20 or 30 of the 
principal attorneys involved in the Hillblom case during that time, and 
many other lawyers--I have opted not to complete the CNMI Bar 
Examination required to seek full admission to practice before the CNMI 
Judiciary.\22\ And I remain staunchly resolute, staunchly opposed to 
the notion of taking this exam, and unapologetic for this, for a 
variety of very good reasons. These reasons include my firm, oft-
publicized, unabated, and quite discouraging perception that the CNMI 
Judiciary, during 1999 and 2000, engaged in unlawful, unethical, and 
impartial activities and misconduct. Like the retention of interest-
income during Spring 2000, which interest-income was owned by persons/
entities including the Estate of late DHL co-founder Larry Lee 
Hillblom--an estate conservatively valued at U.S. $800 million--to 
which persons/entities the CNMI Judiciary owed broad fiduciary duties 
breached by the CNMI Judiciary in trying to keep for itself this 
interest-income.\23\ Like the issuance of a CNMI Judiciary order during 
mid- or late-1999, as this Hillblom Probate matter wound towards final 
disposition in Spring 2000, by which the CNMI Judiciary out-of-the-blue 
purported to rescind the pro hac vice admissions of 20 or 30 or more 
non-CNMI-lawyers admitted years earlier to participate in the Hillblom 
case--and who had already irrevocably invested enormous amounts of 
time/costs/resources into this representation--unless they coughed-up 
payments to the CNMI Judiciary of an outrageously exorbitant $5,000 fee 
per attorney by the end of the month.\24\ Like orders during Spring 
2000 awarding $400,000 or so in `bonus' payments to the CNMI 
Judiciary's own Special Research Attorney Diane Bergstrom, former CNMI 
Supreme Court Justice/CNMI Superior Court Judge Pedro Atalig, and 
Atalig's longtime acquaintance Diego Mendiola \25\ appointed as 
`Special Administrator' or something official-sounding by the CNMI 
Judiciary, which payments were apparently to be made out of Estate 
assets owned by the Estate \26\ and Heir Claimants over which the CNMI 
Judiciary had jurisdiction and resulting fiduciary obligations to 
protect. And I will not even begin to discuss the creation, funding, 
and subsequent activities of the so-called `Charitable Trust' 
established for creation/perpetuation of the CNMI Judiciary's `law 
library', named something like the `Larry Lee Hillblom Memorial Law 
Library', reportedly also funded with Estate assets and then headed by 
various court favourites--the names I heard were, again, of Pete 
Atalig, Diego Mendiola, Alex Castro, and others, but no follow-up was 
conducted. With the exception, perhaps, of follow-up by columnist Ruth 
Tigh, who suggested or intimated that naming the CNM Judiciary's law 
library after a paedophile as she viewed Hillblom to be, whose Estate 
vigorously contested paternity/support claims by his four illegitimate 
children from their respective four mothers who gave birth in their 
teens, and/or where significant Estate assets were purportedly diverted 
to establish this Trust and subsequent activities by its members, might 
appear somewhat disconcerting, in the sense of fiduciary/impartiality 
judicial conflicts--on the order, I suppose, of the anomaly of using 
funds from the Estate of Pablo Escobar--Columbia's drug baron hunted by 
the U.S. in the early 1990's--to fund and establish of an Anti-Drug 
Monument next to the U.S. Supreme Court with trustees from the Court 
itself in charge. Or, maybe, like using White Supremist funds to erect 
a Civil Rights monument to the Ku Klux Klan under control a judicially-
created board of trustees. A spectre like that--especially if 
established and funded by Estate assets to which the CNMI Judiciary 
itself owed a duty of protection--might be quite inappropriate, Ms. 
Tighe seemed to indicate.''.
---------------------------------------------------------------------------
    \22\ The CNMI Judiciary was originally comprised of the 
Commonwealth Trial Court with appeals heard by the Appellate Division 
headed by a three-member panel including the Judge of the U.S. District 
Court for the Northern Mariana Islands along with two of his designees 
as Appellate Justices. This changed when, during 1989, the CNMI 
Legislature--in the midst of so-called Article XII real estate claims--
created a CNMI Supreme Court. Along with a name change for the trial 
court, the CNMI Judiciary then was transformed into the Superior Court 
of the Commonwealth of the Northern Mariana Islands (``CNMI Superior 
Court'') at the trial court, and the CNMI Supreme Court. At this stage, 
all CNMI Supreme Court rulings were appealable directly to the U.S. 
appellate system, via the United States Court of Appeals for the Ninth 
Circuit. This appellate jurisdiction was then divested a few years ago. 
Meanwhile the CNMI Judiciary has constructed for itself a judicial 
centre carrying 3 names: ``House of Justice'', ``Imwal Aweewee'' 
(Carolinian Language), and ``Guma Husticia'' (Chamorro Language)--
interestingly, some have noted, the term ``Guma'' in the Tagalog 
language predominant in the nearby Republic of the Philippines, means 
``Rubber''; and so, it is not uncommon for CNMI-situated foreigner 
laborers from the Philippines to speak of the ``Rubber-Stamp-Justice-
Center'' when discussing CNMI labor, immigration, or judicial goings-
on. And fortunately for the foreigners, there remains, on Saipan, the 
U.S. District Court for the Northern Mariana Islands having federal 
civil and criminal jurisdiction, including jurisdiction over admiralty 
and bankruptcy matters, and with a Judge appointed by the U.S. 
Government following extensive background, competence, and related 
examination.
    \23\ This unlawful conduct, in turn, constituted the grounds upon 
which I Jorgensen then prepared and filed a lawsuit on March 27, 2000, 
on behalf of CNMI attorney/guardian ad litem James E. Hollman--titled 
Hollman v. CNMI and designated Civil Action No. 00-00012--in the U.S. 
Court/Saipan, in which Hollman prevailed upon determination by the U.S. 
District Court/Saipan that the CNMI law, upon which the CNMI Judiciary 
had premised its claim to entitlement of these funds and resulting 
misconduct reportedly vis-a-vis then-CNMI Superior Court Presiding 
Judge Edward Manibusan, was in fact unconstitutional, of no force/
effect, and therefore unlawful, as substantiated on appeal by the CNMI 
to the United States Court of Appeals for the Ninth Circuit.
    \24\ This transpired during 1999 as the probate matters involving 
the Estate of former DHL co-founder Larry Lee Hillblom--which Estate 
was conservatively valued at U.S. $800 million--was winding down in 
Hillblom, Probate No. 95-626, CNMI Superior Court.
    \25\ Atalig and Mendiola, like Supreme Court Justice Alexandro 
Castro who presided over much of the Hillblom proceedings (designated 
Special Proceeding No. 95-626 in the CNMI Superior Court), originate 
from the CNMI island named Rota, located roughly 125 miles southeast of 
Saipan, and 30 miles north of Guam. Numbering around 2,000 inhabitants 
before the CNMI was formally established 20 years ago, it would be 
appear highly unlikely that Atalig, Mendiola, and Castro were not 
longtime, childhood, friends and relatives. Other family ties included 
persons/entities designated/retained/paid for performing related 
services including Pedro Atalig's brother Antonio Atalig (a CNMI 
attorney), Pedro Atalig's sister Benita Atalig Manglona (a CNMI 
accountant), and extended een ven to the court-reporting service used 
(reportedly owned by a female relative of both CNMI Supreme Court Chief 
Justice Juan Demapan and his co-Justice Alexandro Castro).
    \26\ These ``bonus'' payment orders reportedly directed payments 
totalling U.S. $400,000 or so to former CNMI Supreme Court Justice 
Pedro Atalig, a Special Research Attorney ordered hired by the court 
(whose salary was reputedly also paid, ultimately, from costs deducted 
from Estate assets), and Diego Mendiola who served in a related 
capacity appointed by the court--perhaps a type of ``Special 
Administrator''.
---------------------------------------------------------------------------
    ``Now given these circumstances, my conclusion remains today as it 
was during February 2000 with Mr. Ahmed's case: completing and passing 
the CNMI Bar Exam would place me squarely under the figurative thumb of 
the CNMI Judiciary which has itself a less than admirable history with 
a proclivity--particularly during 1999 and 2000--towards unethical, 
unlawful, misconduct and with a retaliatory bent towards any lawyer who 
stands up and says this before the CNMI Judiciary or publicly or in 
papers filed with a Saipan court. No admission to practice before the 
CNMI Judiciary for me, thank you very much--I will stick to using my 
admission before the U.S. District Court when litigating on Saipan.''
    ``And so, when there was filed the initial documents, in the CNMI 
Superior Court, seeking Mr. Ahmed's release from CNMI detention at the 
`Goldberg Gulag', such as the initial Application seeking issuance of a 
Writ of Habeas Corpus filed February 24, 2000 in the CNMI Superior 
Court, and the Supplement to this Application filed February 28, 2000, 
my name did not appear as his counsel because I was not admitted to 
practice law on his behalf before that court. Rather, those two 
documents were lawfully signed by me in the same manner that CNMI law 
permits any person--whether or not a lawyer--to sign for someone who, 
like Mr. Ahmed, was locked up in jail and therefore was unavailable or 
prevented from signing this Application himself. That is, in full 
accordance with and as expressly permitted by then-CNMI law set forth 
in the CNMI's Commonwealth Code \27\--which law was specifically cited 
to the Superior Court judge at the outset within both the original 
Application filed February 24 and the Supplement filed February 28. And 
bear in mind what is--or at least from an objectively reasonable CNMI 
Judiciary's perspective what should have been--the infinitely-more 
important concern here: Not who signs or files what document with what 
particular court, which is really a matter of `form over substance' in 
the context of a fellow locked away by the CNMI, and there held 
incommunicado for 20 months while denied access to legal 
representation; But, most importantly the immediate presentation to the 
CNMI Judiciary of an Application seeking Mr. Ahmed's release to enable 
him to obtain, complete, and file an application seeking U.S. asylum/
refugee/torture protection, the mere filing of which then would 
automatically preclude Goldberg, the CNMI Judiciary itself, and all 
others, from having Mr. Ahmed deported to his country of origin.''
---------------------------------------------------------------------------
    \27\ Jorgensen explained that the relevant law was either 6 CMC 
section 7102 or 7 CMC section 7201 or both.
---------------------------------------------------------------------------
    ``The CNMI Judiciary's response? Astonishment? Outrage? 
Indignation? Yes, absolutely! But not at Mr. Ahmed's plight. Freedom 
for Ahmed after 20 months lockup in the Gulag? Nope. No freedom for Mr. 
Ahmed. Not then. Rather, outrage, indignation, retaliation, and 
vilification directed, not one iota at the CNMI officials involved, but 
instead squarely pointed at Mr. Ahmed's counsel--`Yours Truly'--for 
having the backbone to bring all of this to light in the hallowed 
`Halls of CNMI Justice', with the local media reporting this publicly! 
And, presumably, with around 15,000 CNMI-situated PRC nationals, then 
employed in the `Pride of the CNMI', its garment industry, suddenly 
sitting up, looking at a newspaper article or television report about 
this publicly-disclosed asylum/refugee/torture protection from the 
U.S., and saying to themselves: `You mean, we can do that too?!?' ''.
    ``Well, not until the U.S. Court became involved was Mr. Ahmed's 
release \28\ ensured by the CNMI Judiciary. And even then--following 
Mr. Ahmed's release by order of then-CNMI Superior Court Judge Timothy 
Bellas on March 15, 2000 \29\--it was noted in Judge Bellas' order that 
the CNMI intended to deport Mr. Ahmed the very next day, March 15, 
2000. This, of course, the same CNMI which claimed, in justification of 
Mr. Ahmed's 20-month detention at the Gulag, an absolute inability 
throughout those 20 months to accomplish the bureaucratic paperwork 
necessary to deport Mr. Ahmed!''.
---------------------------------------------------------------------------
    \28\ This involvement arose by way of Ahmed's inclusion as a 
Plaintiff in Civil Action No. 00-0005, U.S. District Court for the 
Northern Mariana Islands, initially filed February 9, 2000 on behalf of 
17 new clients. These did not include Ahmed, who became an additional 
claimant, named as Plaintiff in this 00-0005 proceeding, shortly 
afterwards, when Jorgensen received the note smuggled to Jorgensen via 
another person from Ahmed in prison. Ahmed's then became the lead name 
in that proceeding's caption, which had originally been filed on behalf 
of the 17 or so others. Following Ahmed's joinder in this suit, a 
conference was convened in the U.S. Court chambers by Chief Judge Alex 
R. Munson, at which parties' counsel were clearly apprised of the 
direction the proceedings were likely headed. Jorgensen attended this 
conference along with CNMI counsel.
    \29\ Ahmed v. Major Ignacio Celis et.al., Special Proceeding No. 
00-0101A, CNMI Superior Court, March 15, 2000, Order Granting Temporary 
Restraining Order And Expedited Hearing.
---------------------------------------------------------------------------
    ``Now Judge Bellas appeared to have at least read and considered 
the merits underlying the Habeas Corpus Application submitted for Mr. 
Ahmed on February 24, 2000, and the Supplement filed four days later, 
on February 28, 2000. This much could be gleaned, at that time, from 
the subsequent March 15, 2000 order commanding Mr. Ahmed's release, in 
which Judge Bellas specifically referred to the CNMI Superior Court's 
previous order dated March 9, 2000, which denied the February 24/28 
Habeas Corpus request''.
    ``But what could not be gleaned from Judge Bellas' order then, or 
from prior and subsequent CNMI Superior Court documents on public file 
in Ahmed's case before the CNMI Judiciary, was that Judge Bellas' boss, 
the CNMI Superior Court's Then-Head-Honcho--Presiding Judge Edward 
Manibusan--had also read and taken keen interest in the February 24/28 
Habeas Corpus Request signed by me on Mr. Ahmed's behalf as 
unequivocally permitted by specific CNMI law cited in those documents. 
But this interest on the part of the CNMI's Presiding Judge, as much 
later-after-the-fact discovered, bore little if any relation to the 
facts, legal merits, or equitable considerations furnished to the 
entire CNMI Judiciary \30\ and so crucial to Mr. Ahmed's plight. And 
far more to do with the rather unseemly--if not utterly seedy--side of 
the outlook and priorities, made institutionally clear to CNMI 
attorneys and the CNMI Public by the CNMI Judiciary and the CNMI House 
of Representatives, in tandem with the CNMI's Office of the Attorney 
General. All emanating, that is, from Judge Manibusan's immediate 
reaction both to CNMI-situated persons seeking asylum/refugee/torture 
protection, and far more vindictively at the lawyer--yours truly--who 
dared to publicly come forward and represent these asylum-seekers in 
the year 2000.''
---------------------------------------------------------------------------
    \30\ That both the CNMI Superior Court and the CNMI Supreme Court 
were provided this information is also a matter of public record by 
effect of publicly-filed pleadings--Judge Bellas' March 15, 2000 order, 
for example, make express reference to the CNMI Superior Court's 
previous order dated March 10, 2000, the March 10, 2000 notice by which 
the March 9, 2000 order was then appealed to the CNMI Supreme Court. 
See, Ahmed v. Major Ignacio Celis et. al., Special Proceeding No. 00-
0101A, CNMI Superior Court, Order Granting Temporary Restraining Order, 
at p. 2 enumerated paragraph 7 (noting that an appeal to the CNMI 
Supreme Court had been filed March 10, 2000 with the CNMI Supreme 
Court).
---------------------------------------------------------------------------
    ``And what was Presiding Judge Manibusan's reaction? This `keen 
interest'? This `immediate reaction' by Judge Manibusan which, 
disgracefully, was not disclosed to me--not EVER by Judge Manibusan, 
the other CNMI Judges, the Attorney General and his assistant attorneys 
involved, and not by anyone else until a year or more later?''
    ``Well this luminary of the CNMI Judiciary--now, incidentally, the 
recently-elected President of the CNMI's Bar Association--submitted to 
this same CNMI Bar Association of which I was not a member, a letter 
dated March 1, 2000.\31\ Now this was just 24-hours, one single day, 
after the filing of the supplement to Ahmed's initial application filed 
3 days earlier, on February 24, 2000.''
---------------------------------------------------------------------------
    \31\ The letter, written on Superior Court of the Commonwealth of 
the Northern Mariana Islands letterhead, and an official seal below 
which appeared the words ``EDWARD MANIBUSAN PRESIDING JUDGE'', WAS 
ADDRESSED TO Elaine Paplos, Chair, Disciplinary Committee, NMI Bar 
Association, P.O. Box 7917 SVRB, Saipan, MP, and signed by Presiding 
Judge Manibusan above the signature line ``Edward Manibusan Presiding 
Judge''. And who was this Ms. Paplos? Why a CNMI-employed attorney, 
reportedly working at that time as an Assistant Attorney General with 
the CNMI's Office of the Attorney General opposing Ahmed's release and 
arguing for his continued detention.
---------------------------------------------------------------------------
    ``And to whom was this letter from the CNMI's Presiding Judge 
Manibusan sent? Why to Elaine Paplos, an attorney then-serving as 
`Chair' of the CNMI Bar Association's `Disciplinary Committee'. Of 
course, the letter omitted mention of the fact that Ms. Paplos was also 
a CNMI-employed attorney. Apparently employed, that is, by the CNMI's 
Office of the Attorney General which, via Assistant Attorney Generals 
Robert Goldberg--of `Goldberg Gestapo/Goldberg Gulag' fame--and David 
Sosebee and Herbert Soll, were actively and vociferously contesting 
Ahmed's request for release from 20-month detention, while purporting 
to justify the absurdly-gross length of indefinite incarceration.''
    ``In this March 1, 2000 letter, Judge Manibusan maintained that the 
February 24, 2000 and February 28, 2000 submissions filed on Mr. 
Ahmed's behalf, and bearing my signature as permitted by law, `appear 
to constitute the practice of law by someone [Bruce Jorgensen] not 
admitted to practice before this court' for the ostensible purpose of 
`a determination by the disciplinary [CNMI Bar Association's] 
committee.' Again, let me emphasize--this was with no notice to me, no 
notice to Mr. Ahmed, no disclosure by the CNMI Office of the Attorney 
General or its attorneys--Ms. Paplos, Mr. Sosebee, Mr. Goldberg, or 
Herbert Soll, and no notice by Presiding Judge Manibusan. And no 
knowledge by me until a year or so later.''
    ``As this March 1, 2000 ethics-attack launched without notice to 
me, another circus was concocted, this time in tandem with Benigno 
Fitial, former and current Speaker of the CNMI House of 
Representatives--more commonly termed the `Garment House' for its 
reputed propensity to rubber-stamp CNMI legislation deemed appropriate 
for the benefit of the CNMI's garment industry.''
    This circus began unfolding on March 14, 2000--the day before Mr. 
Ahmed was to be released from the Gulag--with the March 14, 2000 
adoption of CNMI House Resolution Number 12-32, signed by Fitial but 
written by others.\32\ Fitial, himself termed the `Garment Speaker' by 
CNMI-folks-in-the-know, who had zero prior dealings with me, suddenly 
issued this Resolution calling on the Office of the CNMI Attorney 
General's office to `investigate' my purportedly `unauthorized' 
practice of law apparently in representing Mr. Ahmed, and for filing 
and later winning a lawsuit in the U.S. Court which prevented the CNMI 
Judiciary from keeping, for itself, the many hundreds-of-thousands-of-
dollars in income-interest earned on the Hillblom Estate funds ordered 
transferred from U.S. Trust or other reputable international financial 
institutions to a CNMI-situated bank for `administration' by the CNMI 
Judiciary via Presiding Judge Manibusan.''\33\
---------------------------------------------------------------------------
    \32\ The CNMI House Legal Counsel, at that time, Stephen MacKenzie, 
soon departed the `Legislative Circus' under Fitial, and now practices 
law in the State of Vermont. Resolution 12-32, though reportedly 
drafted by MacKenzie, was conceptualized by others. Guess who?
    \33\ This attempt to keep interest-income was, in turn, the result 
of legislation authored by the CNMI House, which legislation Presiding 
Judge Manibusan had then sought to implement, by way of a notice 
advising the CNMI General Public that if no objections were received, 
the law permitting the CNMI Judiciary to keep these funds itself would 
take effect. Any member of the CNMI General Public could submit any 
such objection--in writing. But only one of the 30-plus lawyers 
involved in the Hillblom probate, indeed only one person at all, 
objected--that being attorney Bruce L. Jorgensen. This was done by way 
of a letter, written by Jorgensen to the CNMI Judiciary in Jorgensen's 
capacity as counsel for Guardian ad litem James E. Hollman in a 
Hillblom-related proceeding before the U.S. Court/Saipan (where 
Jorgensen is admitted to practice). This letter, it was later claimed, 
further evidenced Jorgensen's alleged `unauthorized practice', despite 
the fact that Jorgensen was admitted in the U.S. Court, was correct, 
and then filed on March 27, 2000, and won, a civil lawsuit, Hollman v. 
CNMI, Civil Action No. 00-0012, U.S. Court/Saipan, declaring this 
interest-income-grab-legislation unlawful.--during which period, Judge 
Manibusan, himself, delivered to the U.S. Court, before final 
disposition had occurred, a check totalling several thousand dollars as 
repayment of the interest-income withheld by the CNMI Judiciary from 
Jorgensen's client, Vo Minh Tan, via his Guardian ad litem Hollman. 
Whether the CNMI Judiciary kept for itself from other Hillblom claimant 
or parties before the court, or returned to them, funds withheld by 
Presiding Judge Manibusan and his personnel under guise of this 
unlawful CNMI law, remains uncertain. What is known, however, is that 
interest-income being generated on the Hillblom Estate assets--
conservatively estimated at U.S. $800 million--was massive, reportedly 
amounting to hundreds-of-thousands-of-dollars each month.
---------------------------------------------------------------------------
    ``And so this Fitial-Resolution-Circus opened a second-prong of 
this attack, in which Presiding Judge Manibusan became even more 
inextricably intertwined. And next on this front came--you guessed it--
the CNMI's Office of the Attorney General lawyers. Up stepped Assistant 
AG David Sosebee, commonly known as `Jollibee', who penned off a quick 
letter to Alex R. Munson, the Chief Judge of the U.S. District Court on 
Saipan.
    [Sic] to rescind my admission to practice there, which request was 
denied and deemed inappropriate the next day by U.S. Judge Alex R. 
Munson.''
    ``The next CNMI-sanctioned kicker? Well, what was left? How about a 
`Wrongful Termination' of one of their longtime CNMI-employed 
attorneys? The attorney in question, a friend then-serving as CNMI 
Department of Commerce Hearing Officer--who prefers anonymity--was 
perceived by mere association as being a `Jorgensen Sympathizer', that 
is, a CNMI-employed-attorney believed to have empathy towards my 
activities on behalf of Mr. Ahmed and/or other CNMI-situated persons 
seeking asylum/refugee/torture protection, and their pitiable plight. 
And to hold in well-deserved disdain the activities engaged in by 
Goldberg and his cohorts. And then further to make this clear in a 
letter referring to Goldberg as a `nebbish' who `could not get 
[romantically involved] in a female prison, to which Goldberg, and his 
colleagues in the CNMI Office of the Attorney General who enabled his 
misdeeds--by way of a self-appointed `PC-Patrol' or something, 
ostensibly took phenomenal umbrage--never bothering with the accuracy 
or aptness of this description given the matters at hand. And viewing 
with far less umbrage, apparently, Goldberg's emphatic declarations, to 
the attorney-in-questions and others, in public on Saipan,\34\ that 
Goldberg intended to use his CNMI-bestowed-authority over Immigration/
Detention to ensure, lawfully or otherwise, that a Muslim Imam then 
enroute to the CNMI would be denied entry, regardless of any laws 
involved, because of Goldberg's fanatically-anti-Muslim views--which 
statements, and oft-exhibited-anti-Muslim-extremism, by Goldberg, led 
ultimately to his being finally subpoenaed to testify under oath, 
during Summer 2003, at which point the lawsuits--by then, 3 different 
lawsuits \35\ consolidated into one proceeding involving 50 or so CNMI-
situated persons seeking asylum/refugee/torture protedtion--were 
swiftly disposed of by `Global Settlement', with the Defendants 
demanding confidentiality of settlement terms.''
---------------------------------------------------------------------------
    \34\ These declarations were uttered, by an irate-sounding 
Goldberg, to the attorney-in-question, to Jorgensen, and to others 
present, at a Saipan-situated restaurant. Aware of the serious 
implications suggested by effect of these declarations, as well as 
Goldberg's frequently-displayed extremist-opposition-to-any-person-
Muslim, no public reference or disclosure of the declarations was made 
at the time of this `PC-Patrol' attack on, and vilification of, the 
attorney-in-question. But he, too, was subpoenaed in order to describe 
Goldberg's statements, anti-Muslim rhetoric, and anti-Muslim 
activities, via deposition testimony, during 2002, just before 
settlement.
    \35\ In addition to the Civil Action No. 99-0046 and 00-0005 
proceedings, a third lawsuit was filed during May 2002, designated 
Civil Action No. 02-0023, in the U.S. Court/Saipan.
---------------------------------------------------------------------------
    ``Well this CNMI-employed lawyer had the misfortune of having his 
employment contract come up for renewal in the midst of Spring 2000. 
Needless to say, this man's contract was not renewed. And only a short 
while ago, and only when he successfully sued the CNMI Government, was 
he rehired and provided monetary compensation for the CNMI's wrongful 
termination of his employment.\36\ In hindsight though, perhaps he is 
lucky that Goldberg and his cohorts never instituted `Thought Crime' 
laws, or focused more than passing attention on the types of atrocities 
inflicted upon the Chinese populace by their government--like Mao Tse 
Tung's `Re-Education Camps' to which, had the notion occurred to then-
CNMI-lawyers to create these camps in tandem with the CNMI's 
immigration Gulag, this poor fellow would almost certainly have been 
relegated.''
---------------------------------------------------------------------------
    \36\ This attorney, James E. Hollman, was represented in this 
lawsuit by CNMI lawyer G. Anthony Long. Mr. Hollman had earlier 
fulfilled his guardian ad litem duties, on behalf of a minor/child heir 
claimant in the Hillblom probate, as Plaintiff in the previously-
documented Hollman v. CNMI, Civil Action No. 00-0012, civil lawsuit 
described at notes 22 and 31 above filed March 27, 2000 in the U.S. 
Court/Saipan.
---------------------------------------------------------------------------
    ``And so, around came May 18, 2000. Mr. Ahmed was by then out of 
the Goldberg Gulag, thanks solely to the U.S. Court/Saipan, which had 
also thwarted the Jollibee's and the Garment Speaker's bad intentions 
towards me. But to their credit respecting attempted retribution, the 
day ended with newfound retaliation--the filing of a lawsuit against me 
by the CNMI's Office of the Attorney General--that is, I suppose, 
Jollibee and Herbert Soll--designated Civil Action No. 00-0255, in the 
Superior Court lawsuit. Before what CNMI Judge? Why, before CNMI 
Presiding Judge Edward Manibusan, the same fellow who just a few weeks 
earlier had filed the secret March 1, 2000 request for a 
`determination' as to whether my prior activities--including both my 
efforts on Mr. Ahmed's behalf and my asserting in Hollman v. CNMI the 
unlawfulness of the CNMI Judiciary's intent to keep for itself the 
Hillblom interest-income--constituted `unauthorized practice of law' 
''.
    ``And some memorable `judging' did Judge Manibusan perform. He 
apparently deemed by act of magic the CNMI's application for `entry of 
default' to be a `motion for default judgment'. Which I learned by way 
of a December 21, 2000 headline newspaper article he granted. The 
newspaper having received notice of this ruling--reportedly by 
transmittal of a copy of his order by his then-assistant Tina 
Pangelinian--while my attorney and I were left to receive notice by 
reading the newspaper after publication. This, in turn, gave rise to 
additional interests.''
    ``First of interest, this cost me a job previously tendered to me 
in the Republic of Palau, to which my family and I had relocated 
earlier that year. The tender was revoked, which revocation made 
express reference to the default judgment issued by Judge Manibusan 
against me.''
    ``Second of interest, was the apparently unlawful nature of the 
default judgment itself. Signed by Judge Manibusan, the order purported 
to preclude my practice of law not only before the CNMI Judiciary--
where I was not and did not wish to be admitted--but to further 
preclude my practice of law, in any new lawsuits before the U.S. Court/
Saipan. Mind now, the fact that Judge Manibusan still had not--nor did 
he ever--disclose to me the fact of his March 1, 2000 letter requesting 
a `determination' of my activities from the CNMI Bar. How this 
Presiding Judge might have convinced himself that he saw no 
impropriety, impartiality, or conflict-of-interest in all of this, 
remains a curiousity?!?''
    ``Luckily, somebody in the CNMI Bar's Disciplinary Committee, 
determined that my actions described in Judge Manibusan's secret letter 
of March 1, 2000 did not constitute the unauthorized practice of law. 
This determination, however, was not disclosed until August 13, 2001, 
17 months after Judge Manibusan's submission.''
    ``Meanwhile, the U.S. Court on Saipan determined that Judge 
Manibusan's order prohibiting me from taking on new U.S. Court cases 
was not worth the ink used to write it. This was emphasized in a series 
of hearings including one on April 6, 2001. But this did nothing to 
change the minds of those in Palau who earlier had rescinded my job 
offer.''
    ``Needless to say, few CNMI attorneys wanted to be seen in my 
general vicinity, let alone work cases with me in fear of the CNMI's 
wrath. And so when approached to represent yet another CNMI-situated 
PRC national desperately seeking asylum/refugee/torture protection on 
Saipan, few lawyers would even discuss the prospect of serving as my 
Saipan-situated `local counsel' then required by U.S. Court rules. This 
poor woman, named Xiu Ying Jiang, had fled PRC after being physically 
forced by PRC government officials to undergo a sterilizaton preventing 
her from having any more children, as depicted in graphic photographs 
of Ms. Jiang's resulting scars. No CNMI lawyer would help as she had no 
money, she was prevented by the CNMI from lawfully working, and other 
lawyers had been exposed the the CNMI Judiciary's `chilling effect'--as 
in, `If you help these asylum-people you just might get what Jorgensen 
got'.''
    ``The one fellow willing to help was a young lawyer, named Joseph 
Arriola. Several years earlier he had served as Judge Manibusan's law 
clerk. But he also bore the distinction of nexus to me, having 
demonstrated the audacity to help me by serving as my lawyer before 
Judge Manibusan in defense of the `unauthorized practice' allegations 
against me.''
    ``And so Mr. Arriola stepped in as my `local counsel', suit was 
filed on Ms. Jiang's behalf, and the U.S. Court/Saipan provided 
immediate, equitable, injunctive relief. This, despite the CNMI's 
arguments, for instance, that Ms. Jiang's two minor children should not 
be permitted to attend school while seeking asylum within the CNMI, 
which Judge Munson rebuked.''
    ``The Jiang suit was filed on May 22, 2002. CNMI retribution was 
again swift. For his assistance, the CNMI rewarded Mr. Arriola with a 
lawsuit, in which the CNMI sued him for assisting in the unauthorized 
practice of law--that is, for helping me to help Ms. Jiang who already 
had prevailed on equitable issues. This lawsuit was filed in the CNMI 
courts, of course, on August 6, 2002, titled CNMI v. Arriola. And this, 
despite the CNMI being fully aware of Judge Munson's reiterations, time 
and again during Spring 2001,\37\ that I remain to practice law and 
file new lawsuits in the U.S. Court/Saipan.''
---------------------------------------------------------------------------
    \37\ Transcripts of Judge Munson's remarks in these proceedings 
including one of significance on April 6, 2001, attended by CNMI 
lawyers, may be obtained from the U.S. District Court/Saipan court 
reporter--Ms. Sanae Schmull--referencing the lawsuit designated U.S. 
District Court for the Northern Mariana Islands Civil Action No. 00-
0017 and titled CNMI v. Jorgensen, which proceeding was removed to the 
U.S. Court from the CNMI Superior Court where the action originated May 
18, 2000 and was designated CNMI Superior Court Civil Action No. 00-
0255.
---------------------------------------------------------------------------
    ``Somewhere during that period, it was also disclosed that then-
CNMI Attorney General Herbert Soll had also filed a complaint, 
asserting `unauthorized practice of law' by me, with the Hawaii State 
Bar Association, of which I am a longstanding member. After 
considerable investment of time gathering and submitting relevant 
materials, this complaint, too, was deemed to be unfounded. In fact, 
during this review, it was suggested that these activities by the CNMI 
Judiciary and CNMI attorneys be submitted to Reader's Digest magazine 
for inclusion in a `That's Outrageous' feature.''
    ``Now, you asked for documentation of what I have characterized as 
the CNMI Judiciary's hostility regarding the asylum/refugee/torture 
protection issue, and respecting myself and other attorneys willing to 
assert asylum/refugee/Torture claims for protection between 1999 and 
2002? I hope the above has sufficed.''
    PART 4 TO BE CONTINUED.
                                 ______
                                 
     14 July 2007 Message of Inquiry Re. Guam-CNMI Asylum/Refugee--
                              U.S. Conduct
    Bruce--Here's a question for you (to draw on your greater 
repository of legal knowledge and expertise in this area). If a 
disabled boat is rescued by the U.S. Coast Guard in Guam waters filled 
with foreign nationals with no documents in their possession, and who 
originated on Saipan where they may, or may not, have lawful 
immigration status, is the Coast Guard free to transport them back to 
Saipan and turn them over to CNMI authorities?
    This may be what happened with regard to a recent incident here. 
See Coast Guard assists disabled vessel (Saipan Tribune, 6/29/07) and 
12 rescued from stranded vessel (Saipan Tribune, 6/30/07).
    Three of the 12 individuals on the boat are now being prosecuted 
under CNMI law. The other nine have been released and may, or may not, 
be subjected to deportation proceedings. The three being prosecuted are 
the ones the CNMI would deem the most culpable: the boat captain and 
two alleged organizers of the attempted smuggling operation who 
(unusually and ironically) are accused of planning and attempting to 
smuggle themselves, as well as the others, into Guam.
    I observed the preliminary hearing, which presented facts somewhat 
differently than the news stories. The hearsay evidence given in the 
preliminary hearing was that the vessel was picked up up drifting 20 
miles off Guam. The position at the time the distress call was made was 
not clear, neither was the length of time the vessel drifted. The news 
account suggests that the vessel was located soon after the call was 
made and the location fixed as 20 miles off Guam at that time.
    In any event, 20 miles off Guam is well within the contiguous zone, 
a principle purpose of which is to extend jurisdiction for purposes of 
control of alien smuggling.
    The boat captain radioed the U.S. Coast Guard on Guam for help, 
saying ``Illegal aliens on board. We are all surrendering.''
    I do note that the Law of Convention says States ``may exercise 
control'' and authorizes exercise of control both to prevent as well as 
punish immigration violations. Taken alone, this language could be said 
to authorize apprehension of aliens in the contiguous zone and removal 
to a landmass outside U.S. immigration jurisdiction.
    What do you think?
    Regards,







</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
